<html>
<title> - THE UNITED STATES FIRE ADMINISTRATION REAUTHORIZATION: ADDRESSING THE PRIORITIES OF THE NATION'S FIRE SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         THE UNITED STATES FIRE
                    ADMINISTRATION REAUTHORIZATION:
                       ADDRESSING THE PRIORITIES
                      OF THE NATION'S FIRE SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2007

                               __________

                           Serial No. 110-59

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                     
                    U.S. GOVERNMENT PRINTING OFFICE
37-985                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
MIKE ROSS, Arizona                   PAUL C. BROUN, Georgia
LAURA RICHARDSON, California           
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
          COLIN MCCORMICK Democratic Professional Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                            October 2, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    13
    Written Statement............................................    14

Prepared Statement by Representative Jim Matheson, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    16

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    16

                               Witnesses:

Mr. Gregory B. Cade, Assistant Administrator, Federal Emergency 
  Management Agency; U.S. Fire Administrator, United States Fire 
  Administration, Department of Homeland Security
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    23

Dr. Sivaraj Shyam Sunder, Director, Building and Fire Research 
  Laboratory, National Institute of Standards and Technology, 
  Department of Commerce
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    28

Mr. Steven P. Westermann, President and Chief Fire Officer, 
  International Association of Fire Chiefs
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    33

Captain Robert Livingston, Legislative Director of the Oregon 
  State Council of Fire Fighters, International Association of 
  Fire Fighters
    Oral Statement...............................................    34
    Written Statement............................................    35
    Biography....................................................    38

Mr. Gordon Henderson, Deputy Chief of Operations, Rome-Floyd 
  County Fire Department; Past President of the Georgia State 
  Firefighters Association, National Volunteer Fire Council
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    43

Dr. John R. Hall, Jr., Assistant Vice President, Fire Analysis 
  and Research, National Fire Protection Association
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    50

Discussion.......................................................    51

             Appendix 1: Answers to Post-Hearing Questions

Mr. Gregory B. Cade, Assistant Administrator, Federal Emergency 
  Management Agency; U.S. Fire Administrator, United States Fire 
  Administration, Department of Homeland Security................    64

Dr. Sivaraj Shyam Sunder, Director, Building and Fire Research 
  Laboratory, National Institute of Standards and Technology, 
  Department of Commerce.........................................    73

Mr. Steven P. Westermann, President and Chief Fire Officer, 
  International Association of Fire Chiefs.......................    77

Captain Robert Livingston, Legislative Director of the Oregon 
  State Council of Fire Fighters, International Association of 
  Fire Fighters..................................................    80

Mr. Gordon Henderson, Deputy Chief of Operations, Rome-Floyd 
  County Fire Department; Past President of the Georgia State 
  Firefighters Association, National Volunteer Fire Council......    83

Dr. John R. Hall, Jr., Assistant Vice President, Fire Analysis 
  and Research, National Fire Protection Association.............    85

             Appendix 2: Additional Material for the Record

Statements of support for the reauthorization of the United 
  States Fire Administration, submitted for the record by 
  Chairman David Wu..............................................    90


 THE UNITED STATES FIRE ADMINISTRATION REAUTHORIZATION: ADDRESSING THE 
                PRIORITIES OF THE NATION'S FIRE SERVICE

                              ----------                              


                        TUESDAY, OCTOBER 2, 2007

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         The United States Fire

                    Administration Reauthorization:

                       Addressing the Priorities

                      of the Nation's Fire Service

                        tuesday, october 2, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday October 2, 2007, the Subcommittee on Technology and 
Innovation of the House Committee on Science and Technology will hold a 
hearing to explore the priorities of the fire service community for the 
U.S. Fire Administration (USFA). The witnesses will discuss the 
effectiveness of USFA's current activities, priorities for future 
research and development and training activities, and areas of greatest 
concern and importance for the upcoming reauthorization.

2. Witnesses

Assistant Administrator Gregory B. Cade is the United States Fire 
Administrator.

Dr. Sivaraj Shyam-Sunder is the Director of the Building and Fire 
Research Laboratory (BRFL) at the National Institute of Standards and 
Technology (NIST).

Chief Steven P. Westermann is the President and Chief Fire Officer of 
the International Association of Fire Chiefs (IAFC).

Captain Robert Livingston is the Captain of the Salem, Oregon Fire 
Department, and is the representative of the Oregon State Council of 
Fire Fighters of the International Association of Fire Fighters (IAFF).

Chief Gordon Henderson is the Past President of the Georgia State 
Firefighters' Association, Chairman of the Georgia State Firefighters' 
Association/Georgia Fire Chiefs Association Joint Legislative 
Committee, representing the National Volunteer Fire Council.

Dr. John R. Hall is the Assistant Vice President, Fire Analysis and 
Research at the National Fire Protection Association (NFPA).

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet>  What is the current status of USFA core activities, 
        including training through the National Fire Academy, 
        educational programs, and the National Fire Incident Reporting 
        System?

        <bullet>  What are the major priorities of the fire service 
        community and USFA for the agency's reauthorization?

        <bullet>  What is the status and budget of USFA research 
        activities? How are research activities prioritized and how 
        does USFA leverage the fire-elated research activities of other 
        federal agencies such as the National Institute of Standards 
        and Technology (NIST) and the Department of Homeland Security's 
        Science and Technology Directorate?

        <bullet>  How does USFA bring the needs and expertise of the 
        fire service community to the Department of Homeland Security's 
        (DHS) larger mission of disaster preparedness and response? How 
        does USFA support State and local fire agencies?

4. Background

History of the USFA
    In the early 1970's the President's National Commission on Fire 
Prevention and Control released a report entitled America Burning which 
presented a bleak assessment of fire safety in the U.S. According to 
the report, nearly 12,000 citizens and 250 firefighters lost their 
lives annually to fires in the United States. An additional 300,000 
Americans suffered fire related injuries each year. In response to 
these findings, Congress passed the Federal Fire Prevention and Control 
Act of 1974 (P.L. 93-498), which created the National Fire Prevention 
and Control Administration within the Department of Commerce. In 1978 
Congress changed the agency's name to the U.S. Fire Administration and 
subsequent governmental reorganization by President Carter in 1979 
placed USFA within the newly created Federal Emergency Management 
Agency (FEMA). USFA still resides within FEMA, which is now under DHS, 
and it operates from the national Fire Academy campus in Emmitsburg, 
Maryland.
USFA's Core Activities
    When it was established in 1974, USFA's stated goal was to reduce 
fire-related fatalities in the Nation by half--bringing the number to 
approximately six thousand per year within a generation. By 1998, the 
agency had met this goal, and these numbers continue to drop. However, 
according to the National Fire Protection Association (NFPA) the U.S. 
still has on of the highest rates of death, injury, and property loss 
due to fire among all industrialized nations. NFPA reports that in 2005 
there were 3,675 civilian fire deaths, 17,925 fire injuries, and an 
estimated $10.672 billion in direct property losses due to fire.\1\ 
They estimate that the fire fatality rate is 14.8 per million. Also, 
USFA reports that in 2006, 106 firefighters died in the line of duty.
---------------------------------------------------------------------------
    \1\ Current data are not readily available, but according to the 
International Association for the Study of Insurance Economics, in 2003 
the U.S. suffered 4,300 fire-related deaths, while Japan, the country 
with the second highest number, suffered 2,300 (http://
www.genevaassociation.org/FIRE%20N<SUP>+</SUP>22.pdf).
---------------------------------------------------------------------------
    USFA continues to combat these high fire losses with activities in 
training, education and fire awareness, data collection, research, and 
the administration of the Fire Grant programs.

    Training: USFA's National Fire Academy (NFA) offers educational 
opportunities for the advanced professional development of mid- and 
senior-level fire and emergency medical services (EMS) officers, as 
well as allied professionals involved in fire prevention and safety 
activities. The NFA also develops and delivers educational and training 
programs that supplement and support State and local fire service 
training. At the campus in Emmitsburg, the NFA teaches approximately 
8,900 students annually. NFA curriculum reaches another 73,000 students 
through support and partnership with State and local programs, and 
their courses reach an additional 200,000 professionals through web-
based distance learning programs. The NFA shares the Emmitsburg Campus 
with FEMA's Emergency Management Institute (EMI). Together these two 
entities form the National Emergency Training Center. In FY 2007, USFA 
funded training activities at $10.7 million, approximately $700,000 
over the previous year.

    Public Education and Awareness: Through partnerships and special 
initiatives, USFA involves the fire service, the media, other federal 
agencies, and safety groups in the development and delivery of fire 
safety awareness and education programs. These programs are targeted to 
those groups most vulnerable to the hazards of fire, including the very 
young, elderly people, and the disabled. USFA is also highly engaged in 
educational activities to improve firefighter health and safety in an 
effort to reduce the number of firefighter fatalities and injuries.

    Data Collection: USFA's National Fire Data Center (NFDC) 
administers the National Fire Incident Reporting System (NFIRS), which 
collects, analyzes, and disseminates data and information on fire and 
other emergency incidents to State and local governments, and the fire 
community. The NFDC provides a nationwide overview and analysis of the 
fire problem, identifying problem areas for which prevention and 
mitigation strategies are needed. Examples of applications of the NFIRS 
data can be found in USFA authored reports on topics such as Structure 
Fire Response Times, Fire and Older Adults, and Candle Fire in 
Residential Structures.

    Research and Related Activities: Through research, testing and 
evaluation, USFA works with federal agencies, like NIST and the 
Consumer Product Safety Commission (CPSC), and private organizations to 
promote and improve fire and life safety. Research conducted within 
these partnerships focuses on a variety of topics, such as fire 
suppression technology, optimal fire department coverage to reduce 
risk, and research to enhance firefighter health and safety.

    Fire Grants: The Assistance to Firefighters Grants and the Staffing 
for Adequate Fire and Emergency Response (SAFER) grants, generally 
referred to as the FIRE grants, are administered through the Office of 
Grants and Training within FEMA. Through a Memorandum of Understanding, 
USFA drafts the guidance for proposals and manages the peer review 
process for the grants. These programs are authorized separately from 
USFA.

Fire Research Activities at NIST
    NIST has been involved in fire technology related research since 
the turn of the century and Americans have benefited from standards 
development work by NIST's Building Fire and Research Laboratory (BFRL) 
in areas such as smoke detector technologies and flame retardant 
mattresses and children's sleepwear. More currently, BFRL has been 
working on improving fire alarm panel displays in buildings and thermal 
imagers to enhance vision for firefighters, among other projects. In 
addition to research to aid standards development, BFRL assists in the 
technical investigations of major fire incidents, like the collapse of 
the World Trade Center and the Station Nightclub fire in Warwick, Rhode 
Island.
    NIST collaborates with USFA on many of USFA's research projects. 
The Federal Fire Prevention and Control Act of 1974 gave NIST authority 
to perform and support research on fire-related issues and in 2002, 
NIST and FEMA signed a memorandum of understanding to establish a 
framework for NIST to serve as a standards and measurement science 
resource for FEMA in areas of fire, disaster prevention, and homeland 
security. Funding for fire research at BFRL has remained relatively 
flat for the past 26 years: in 1980 fire research at BFRL received $7.3 
million (2006 dollars) and $8.2 million in 2006. BFRL's grants to fund 
extramural fire research, and stimulate the fire science and 
engineering professional pipeline dropped from $4.2 million (2006 
dollars) in 1980 to $1.3 million in 2006.

5. Priorities for Reauthorization and General Issues

    USFA's current authorization will expire at the end of fiscal year 
2008. Priorities in the reauthorizing legislation will address updating 
NFIRS, addition of curriculum topic areas for the NFA, and increased 
focus on firefighting in the wildland-urban interface. Other issues 
demanding attention in light of reauthorization are the funding and 
prioritization for research activities and educational programs.
NFIRS Update
    Updating NFIRS is one of the fire community's most urgent 
priorities as timely and accurate fire incident data is a crucial 
resource for local fire departments and policy-makers. The current 
system captures data from approximately 21,000 fire departments across 
the Nation and records about one million fires a year as well as 13 
million other emergency incidents. Though participation in NFIRS is 
required to be a recipient of FIRE grant money, USFA estimates they 
still only capture about 50 percent of the fires that happen annually. 
Another concern is that the current reporting system is slow and 
bureaucratic. To report incidents, local departments send their data to 
a State office, either via a paper form or a computer file. The state 
then periodically sends their compiled data to the National Fire Data 
Center in Emmitsburg. This system can delay reporting of the incidents 
to the database by up to a year. Both USFA and the fire service 
community would like to see a more modern reporting system that would 
allow for real-time reporting of incident data on a web-based platform. 
They believe that transforming the system in this manner will speed up 
reporting and bring NFIRS closer to capturing data on all the fire and 
emergency incidents that occur in the Nation.
    NFIRS was last updated in 1999 to include reporting on a broader 
range of emergencies to which fire departments respond. Cost estimates 
for creating a web-based, real-time reporting system range from $3 to 
$5 million over three years. These costs reflects both the development 
of the system and capital investments in IT software or hardware that 
USFA would have to make.

Training Curriculum
    The training available at NFA's Emmitsburg campus and through their 
partnerships and distance learning programs is a vital resource to the 
fire service and allied professionals. In most cases, these courses are 
unique. As such, NFA strives to work with partners from local, State, 
and fire service organizations to keep curriculum up to date and 
aligned with the needs of the fire service. The fire service community 
has identified additional programmatic areas that are of key concern, 
though in many cases NFA is has been proactive in engaging in these 
areas already. They include:

        <bullet>  Firefighting in the Wildland-Urban Interface (WUI): 
        WUI areas are developed sites that are adjacent to wildland 
        areas. This proximity to forests, grasslands and other 
        undeveloped areas increases the fire risk to these homes. The 
        methods of fighting forest fires are fundamentally different 
        than those of fighting structure fires and unfortunately many 
        fire departments that must protect the homes and businesses in 
        these areas do not have personnel properly trained in this type 
        of firefighting. Development in these areas is increasing. 
        Thirty-eight percent of new home construction in the Western 
        U.S. is in these types of areas\2\ and according to the Second 
        Needs Assessment of the U.S. Fire Service completed by USFA and 
        NFPA in 2006, only 24 percent of fire departments could fight a 
        fire in the WUI with local personnel. In response to this 
        growing problem, USFA has partnered with the National Wildfire 
        Coordinating Group to create curriculum that would teach 
        structure firefighters the core competencies needed for 
        wildfires.
---------------------------------------------------------------------------
    \2\ U.S. Fire Administration Topical Fire Research Series; Vol. 2, 
Issue 16, March 2002: Fires in the Wildland/Urban Interface

        <bullet>  Emergency Medical Service (EMS) Activities: Fire 
        department-based EMS operations across the country account for 
        90.8 percent of the emergency medical first response in the 
        Nation's 200 most populous cities. Nearly every firefighter 
        receives emergency medical training. Because of the fire 
        service's large role in EMS activities, the fire service 
        community would like to ensure that the NFA continue its high-
---------------------------------------------------------------------------
        level EMS management courses.

        <bullet>  Fighting Fires Involving Hazardous Materials: Fires 
        involving a variety of chemicals and other hazardous materials 
        pose unique technical and safety risks to firefighters. Many 
        departments across the country do not have enough adequately 
        trained firefighters to respond to fires or other emergencies 
        involving hazardous materials. The NFA currently offers classes 
        to train fire and emergency service providers, as well as other 
        local officials, on issues related to mitigation, prevention 
        and response to the incidents involving hazardous materials 
        that are either accidental or terrorist in nature.

    In addition to ensuring that the NFA spends adequate resources on 
curriculum development, the fire service community, especially 
volunteer departments, would like to highlight the importance of 
``train the trainer'' courses and material. USFA has made a concerted 
effort to make many of their courses web-based or partnered with a 
local organization. However, there are still many courses that require 
a trip to Emmitsburg and volunteer firefighters are often faced with 
paying their own travel expenses and using vacation time from their 
jobs to attend valuable NFA classes.

Research and Related Activities
    USFA has been very resourceful in leveraging limited research funds 
to accomplish many projects important to the fire service. In FY 1999, 
USFA's funding for research was $500,000. Re-budgeting by USFA in FY 
2000, and increased Congressional emphasis in the FY 2001 and FY 2002 
reauthorization more than doubled this funding. In FY 2000, USFA funded 
research activities at $2 million, and for the next two fiscal years, 
the research funding matched the authorization levels of $3 million (FY 
2001) and $3.25 million (FY 2002). In that authorization (P.L. 106-
503), Congress requested that USFA submit a report describing their 
research agenda and the plans for its implementation. USFA submitted a 
report detailing this agenda in March of 2001, compiling it based on 
priorities identified at a series of workshops with fire community 
stakeholders. Working from USFA's overall goal for the research--
reducing the loss of life to fire by 15 percent over five years--these 
workshops identified both broad needs, such as technology transfer, and 
very specific research goals in areas such as fire suppression and 
personal protective equipment. This agenda has not been officially 
updated since USFA submitted the agenda to Congress in 2001. In June of 
2005, the National Fallen Firefighters Foundation held the National 
Fire Service Research Agenda Symposium at USFA facilities in 
Emmitsburg. The purpose of this symposium was to produce a document 
that prioritizes areas where research should be directed to improve 
firefighter health and safety. The symposium outlined close to forty 
areas of research in line with that goal, well more than USFA and its 
partners can fund.
USFA's Role Within FEMA/DHS and Disaster Preparedness
    In February of 2005, IAFC convened a summit of the major fire 
service organizations to discuss what they perceived as a declining 
budget and role for USFA within DHS. Then Fire Administrator David 
Paulison addressed the organizations, maintaining that while some USFA 
programs had been cut over the last four years, the cuts were not 
drastic and some programs were being maintained by other means at DHS. 
The fire service organizations expressed their opinion that as the 
largest contingent of first responders, who respond to a range of 
disasters, that the fire service should maintain a highly visible role 
in DHS and FEMA with regard to disaster preparedness and response.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


7. Proposed Bill Summary

Section 2. Findings
    Establishes Congressional findings that: fire deaths, injuries, and 
property loses in the U.S. are the highest in the industrialized world; 
that USFA provides crucial support to State and local fire agencies; 
the collection of data on fire incidents is a vital tool for local 
departments and national policy-makers; the research and development 
activities performed by USFA in collaboration with NIST and other 
federal agencies help to provide firefighters with the most advanced 
equipment and knowledge possible; and that USFA should continue to 
actively advocate for the fire service within the Department of 
Homeland Security.

Section 3. Authorizations
    Authorizes USFA at $70,000,000 for fiscal year 2009, $72,100,000 
for fiscal year 2010, $74,263,000, and $76,490,890 for fiscal year 
2012.

Section 4. Education and Awareness Activities
    Authorizes USFA to collaborate with social scientists to conduct 
education and awareness activities focusing on promoting fire 
prevention and safety for the general public, with a special focus on 
vulnerable groups including children and the elderly.

Section 5. Training Activities
    Authorizes additional curriculum at the National Fire Academy (NFA) 
addressing training related to firefighting in the wildland-urban 
interface (WUI), emergency medical services (EMS) management, and 
handling issues relating to fire and spills of hazardous materials. 
Authorizes curriculum development and courses in the field of 
instructor training for instructors involved in firefighter training 
activities.

Section 6. National Fire Data Center
    Directs USFA to update the National Fire Incident Reporting System 
(NFIRS) to speed reporting and to capture more incident information. It 
authorizes $5 million total for FY 2008 through FY 2010.

Section 7. Research and Related Activities
    Authorize additional research into firefighting technologies and 
techniques for the wildland-urban interface.

Section 8: Definitions
    Defines ``Administrator,'' ``Wildland-Urban Interface,'' and 
``Hazardous Materials.''

DRAFT USFA REAUTHORIZATION BILL

                              H.R. ######

     United States Fire Administration Reauthorization Act of 2007

Section 1. Short Title

Section 2. Findings

        1)  The loss of life due to fire in the United States has 
        dropped significantly over the last 25 years. However, the 
        United States still has one of the highest fire death rates in 
        the industrialized world, with the National Fire Protection 
        Association reporting 3,675 civilian fire deaths, 17,925 
        civilian fire injuries, and $10.672 billion in direct losses 
        due to fire in 2005. In 2006, the United States Fire 
        Administration reported 106 on-duty firefighter deaths.

        2)  The United States Fire Administration provides crucial 
        support to the Nation's 30,300 fire departments through 
        training, emergency incident data collection, fire awareness 
        and education, and support of research and development 
        activities for fire prevention, control, and suppression 
        technologies.

        3)  The collection of data on fire and other emergency 
        incidents is a vital tool both for policy-makers and emergency 
        responders to identify and respond to emerging hazards. 
        Updating the U.S. Fire Administration's data collection 
        capabilities is essential for accurately tracking and 
        responding to the magnitude and nature of the Nation's fire 
        problem.

        4)  The research and development activities performed by 
        National Institute of Standards and Technology, USFA, and non-
        governmental organizations on fire technologies and standards 
        setting for these technologies gives the Nation's firefighters 
        access to the most effective firefighting tools possible.

        5)  USFA is one of the only channels between State and local 
        fire agencies and the Federal Government, and as such deserves 
        a prominent place within the Department of Homeland Security.

Section 3. Authorization of Appropriations

    Section 17(g) (1) of the Federal Fire Prevention and Control Act of 
1974 (15 USC 2216(g) ) is amended by striking subparagraphs (A) through 
(K) and inserting the following:

         `` (A) 70,000,000 for fiscal year 2009;

         `` (B) 72,100,000 for fiscal year 2010;

         `` (C) 74,263,000 for fiscal year 2011;

         `` (D) 76,490,890 for fiscal year 2012.''

    [Specific authorization of funds (either amount or percentage) to 
perform the research and related activities authorized 15 USC Sec. 
2207]

Section 4. Fire Awareness and Educational Activities

    [The Administrator shall collaborate with social scientists to 
develop, evaluate, and implement best practices for educating and 
promoting behavior change with regard to fire awareness and prevention 
among the general public, especially among vulnerable or high risk 
groups such as children, the elderly, minorities, and firefighters.]

Section 5. The National Fire Academy

    Section (d)(1) of 15 USC 2206 is amended by re-designating sections 
(I) to (N) and inserting:

        (I)  Response tactics and strategies for dealing with fires 
        occurring at the wildland-urban interface.

        (J)  Response tactics and strategies for fire involving 
        hazardous materials.

        (K)  Advanced Emergency Medical services training.

    [The Administrator shall make such sums as are necessary authorized 
available to engage in the ``training of trainers''.]
    [The Administrator shall make such sums as are necessary available 
to carry out the activities in section (d)(2).]

Section 6. National Fire Incident Reporting System

    $1.67 million each fiscal year FY 2009, FY 2010, and FY 2011 of the 
funds authorized in Section 3 shall be used to update the National Fire 
Incident Reporting system to a web-based, real-time, incident reporting 
data-base. Activities to carry out this update can include, but are not 
limited to, the hiring of additional staff, capital investment, 
engaging contractors, and educating users on the new system.
    15 USC 2208 section (b)(2), after ``assist'' insert ``Federal,''

Section 7. New Firefighting Technology

    Re-designate sections (e), (f), and (g) of 15 USC 2207 as (f), (g), 
(h) respectively and insert after section (d) a new section:

         ``Wildland Urban Interface Assistance:

         ``The Administrator is authorized to assist the Nation's Fire 
        Services directly or through contracts, grants, or other forms 
        of assistance, to sponsor and encourage research into 
        approaches, techniques, systems, and equipment to improve fire 
        prevention and control in those urban areas that abut 
        wildlands.''

Section 8. Definitions

    The term Administrator refers to the Fire Administrator who is the 
Assistant Administrator of the Federal Emergency Management Agency.
    [The term Wildland-Urban Interface refers to:.]
    [The term Hazardous Materials refers to:.]
    Chairman Wu. Good morning. I would like to welcome 
everybody to this morning's hearing on the United States Fire 
Administration. There are few issues more important than 
standing up for our nation's first responders. The Science and 
Technology Committee has historically been one of the fire 
service community's strongest backers through our support for 
and oversight of the United States Fire Administration. I am 
eager to hear today's testimony from our prestigious group of 
witnesses, who represent a broad group of stakeholders in the 
fire service community.
    USFA was formed by Congress in 1974 in response to America 
Burning, a report by the President's Commission on Fire 
Prevention and Control that found there were over 12,000 deaths 
due to fire in this country and over 300,000 fire injuries 
every single year. Through the hard work of USFA and others, we 
have fortunately seen that number drop dramatically. We are now 
a much safer nation thanks to improved awareness of fire safety 
practices, increased use of smoke detectors and sprinklers, and 
other fire safety measures. Still, however, over 3,000 people 
die each year in fires and 10,000 more are injured. In 
addition, over 100 firefighters lose their lives annually in 
the line of duty as we saw tragically this past June in South 
Carolina.
    Looking around the globe, though, our high numbers are an 
anomaly in the industrialized world. In Europe, their fatality 
rate per capita is 70 percent lower than ours. So truly we have 
more work to do.
    USFA supports local fire departments in a variety of 
manners. They offer training and career development to 
thousands of mid-level firefighters, fire chiefs, and other 
emergency management officials. Through the National Fire Data 
Center, they collect and manage data on the millions of fires 
and other emergencies that fire departments respond to each 
year, data that can be used to manage trends and set policy. 
USFA develops fire education and awareness curriculum used 
across the country. They aim these messages at groups who 
suffer the highest fire casualties such as the young, the 
elderly, firefighters, as well as others.
    In fact, my home state of Oregon was one of the first 
states to begin reporting fire data to USFA and also one of the 
highest users of USFA training programs.
    Lastly, in partnership with the National Institute of 
Standards and Technology, or NIST, the Department of Homeland 
Security's Science and Technology Directorate, other federal 
agencies, and private organizations, USFA conducts and directs 
research on a variety of fire-related topics from technology--
like thermal imaging cameras and protective clothing to assist 
firefighters in the line of duty--to studies of behaviors that 
cause fires.
    As I am sure we will hear today, USFA's programs are 
incredibly important to the Nation's fire service who must meet 
an increasing number of challenges from preparing for terrorist 
attacks and catastrophic hurricanes to the everyday, but still 
scary, house fire.
    Standards are also an essential part of the work of USFA 
and its many partners.
    Our witnesses today will no doubt discuss USFA's role in 
the fire safety standards development process as well as the 
important contributions of NIST. As many of you know, fire was 
the inspiration for some of the original standards done by 
NIST. In 1904, a large fire broke out in Baltimore. Fire 
companies from around the region responded, but they found that 
they were unable to fit their hoses onto the Baltimore hydrants 
because they were not built to standard sizes; and the fire 
burned for an additional 30 hours in spite of the regional 
response. Following the fire, NIST, which was then called the 
National Bureau of Standards, was asked by Congress to work 
with NFPA to set a standard that would avert similar future 
tragedies. To me this story exemplifies the challenge in 
coordinating a truly local service performed by over 30,000 
different fire departments at the federal level.
    These 30,000 different departments serve a variety of 
communities, from the largest to the smallest, and an 
overwhelming number of those who serve as firefighters do so on 
a volunteer basis. One asset the Federal Government can offer 
these departments is the U.S. Fire Administration.
    As we look forward to reauthorizing the Fire 
Administration, I am very interested to hear from our witnesses 
today, who I believe represent a broad collection of views from 
the fire community, on what USFA is doing right, and what they 
need to be doing to meet the needs of the fire community more 
effectively.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    Good morning. I would like to welcome everybody to this morning's 
hearing on the United States Fire Administration.
    There are few issues more important than standing up for our 
nation's first responders.
    The Science and Technology Committee has historically been one of 
the fire service community's strongest backers through our support for 
and oversight of the U.S. Fire Administration. I'm eager to hear 
today's testimony from our prestigious group of witnesses, who 
represent a broad group of stakeholders in the fire service community.
    USFA was formed by Congress in 1974 in response to America Burning, 
a report by the President's Commission on Fire Prevention and Control 
that found there were over 12,000 deaths due to fire in this country 
and over 300,000 fire injuries each year. Through the hard work of USFA 
and others, we have fortunately seen that number drop dramatically.
    We are now a much safer nation, thanks to improved awareness of 
fire safety practices like the increased use of smoke detectors and 
sprinklers, and other fire safety measures. Still, however, over 3,000 
people die each year in fires and 10,000 more are injured.
    In addition, approximately 100 firefighters lose their lives 
annually in the line of duty, as we saw tragically this past June in 
South Carolina. In looking around the globe though, our high numbers 
are an anomaly in the industrialized world. In Europe, their fatality 
rate per capita is 70 percent lower than ours. So truly we have a lot 
more work to do.
    USFA supports local fire departments in a variety of manners. They 
offer training and career development to thousands of mid-level 
firefighters, fire chiefs, and other emergency management officials. 
Through the National Fire Data Center they collect and manage data on 
the millions of fires and other emergencies fire departments respond to 
each year--data that can then be used to manage trends and set policy. 
USFA develops fire education and awareness curriculum material to be 
used across the country. They aim these messages at groups who suffer 
the highest fire casualties, such as the young, the elderly, and 
firefighters, as well as others.
    And in fact, my home state of Oregon was one of the first states to 
begin reporting fire data to USFA and also is one of the highest users 
of USFA training programs.
    Lastly, in partnership with the National Institute for Standards 
and Technology (NIST); the Department of Homeland Security's Science 
and Technology Directorate; other federal agencies; and private 
organizations, USFA conducts and directs research on a variety of fire 
related topics, from technology like thermal imaging cameras and 
protective clothing to assist firefighters in the line of duty, to 
studies of behaviors that cause fires.
    As I am sure we will hear today, USFA's programs are incredibly 
important to the Nation's fire service who must meet an increasing 
number of challenges from preparing for terrorist attacks and 
catastrophic hurricanes to the everyday, but still scary, house fire.
    Standards are also an essential part of the work of USFA and its 
many partners. Our witnesses today will no doubt discuss USFA's role in 
the fire safety standards development process, as well as the important 
contributions of NIST.
    As many of you know, fire was the inspiration for some of the 
original standards work carried out by NIST. In 1904, a large fire 
broke out up in Baltimore. Fire companies from around the region 
responded, but found that they were unable to fit their hoses onto the 
Baltimore hydrants because they were not built to standard sizes, and 
the fire burned for an additional 30 hours in spite of the wide 
regional response.
    Following the fire, NIST, which was then called the National Bureau 
of Standards, was tasked by Congress to work with NFPA to set a 
standard that would avert similar future tragedies. To me this story 
exemplifies the challenge in coordinating a truly local service, 
performed by over 30,000 different fire departments, at the federal 
level.
    These 30,000 different departments serve a variety of communities 
from the biggest to the smallest and an overwhelming number of those 
who serve as firefighters do so on a volunteer basis. One asset the 
Federal Government can offer these departments is the U.S. Fire 
Administration.
    As we look forward to reauthorizing the Fire Administration, I am 
very interested to hear from our witnesses today, who I believe 
represent a broad collection of views from the fire community on what 
USFA is doing right and what they need to be doing to meet the needs of 
the fire community more effectively.

    Chairman Wu. And now for his opening statement, our Ranking 
Member of the Subcommittee, Dr. Gingrey of Georgia.
    Mr. Gingrey. Thank you, Chairman Wu, and good morning. And 
I want to thank you for holding the hearing today that will 
begin the process of reauthorizing the United States Fire 
Administration. The stated mission of USFA is to reduce life 
and economic losses due to fire and related emergencies through 
leadership, advocacy, coordination, and support. This 
organization provides vital assistance in the areas of 
training, fire education, and awareness and grants to a number 
of local fire departments across the country including my 
district, these very, very important grants. The testimony that 
our witnesses will provide this morning will help better shape 
the future priorities of the USFA as we work on the agency's 
reauthorization, and certainly I look forward to hearing from 
them on this important matter.
    USFA's training, education, and monitoring activities have 
made a substantial impact over the last 30 years. Smoke alarms 
are now standard issue to residences across the country. I wish 
they were all wired instead of battery operated, but we 
continue to work on that. Over one million firefighters have 
received advanced training from USFA, and firefighter equipment 
and safety continually improves. However, while USFA should be 
proud of its record of achievement, it is also clear that 
improvements still need to be made. In the last ten years, 
deaths related to fires have decreased by approximately 25 
percent from nearly 5,000 in 1996 to 3,675 in 2006. Although 
that decrease in fire-related deaths is commendable, the United 
States still has one of the highest death rates from fire in 
the industrialized world. It is hard to believe. Additionally, 
despite decreases in the number of fires, direct damage costs 
are increasing and have topped $10 billion per year. Put that 
another way, in an average year, fire causes as much damage in 
the United States as do hurricanes.
    These statistics highlight the importance of the USFA, 
United States Fire Administration, and why we are here today. 
USFA has a substantial public safety mission whose magnitude is 
not often recognized.
    Therefore, as the Committee begins drafting legislation 
that will provide a framework for USFA in the coming years, I 
look forward to this panel of witnesses to sketch out where the 
needs are the greatest, what programs have been successful to 
this date and maybe where we currently may be a little bit off-
course.
    Before I finish, though, let me bring up one particular 
area of concern for me. Several of our witnesses I think will 
discuss potentially updating the National Fire Incident 
Reporting System. I think that's referred to as NFIRS. I want 
to urge a little caution and diligence in approaching the 
upgrade. IT projects like this one, even on this committee and 
Chairman Gordon has a bill pertaining to IT in regard to health 
information technology, electronic medical records, but IT 
projects can rapidly fall apart potentially leaving USFA with 
some very unhappy users and ballooning infrastructure costs. So 
the USFA and the fire community, I think, need to be very 
specific about the goals and limitations in creating a new 
system. Will web-based reporting bring in better quality data 
or provide tangible benefits over the current system? That is 
the big question, and how will the upgraded system meet the 
needs of local, State, and USFA personnel?
    These are just a couple of questions that need to be 
addressed as we begin the process of reauthorizing USFA, and I 
look forward to hearing the testimony of all of our witnesses 
today. Mr. Chairman, thank you again for convening the hearing 
to address the future of USFA and I yield back.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Good morning Chairman Wu. I want to thank you for holding this 
hearing today that will begin the process of reauthorizing the United 
States Fire Administration. The stated mission of USFA is ``reduce life 
and economic losses due to fire and related emergencies, through 
leadership, advocacy, coordination and support.'' This organization 
provides vital assistance in the areas of training, fire education and 
awareness and grants to a number of local fire departments across the 
country. The testimony that our witnesses will provide this morning 
will help better shape the future priorities of USFA as we work on the 
agency's reauthorization, and I look forward to hearing from them on 
this important matter.
    USFA's training, education, and monitoring activities have made a 
substantial impact over the last 30 years. Smoke alarms are now 
standard issue in residences across the country; over a million 
firefighters have received advanced training from USFA; and firefighter 
equipment and safety continually improves.
    However, while USFA should be proud of its record of achievement, 
it's also clear that improvements still can be made. In the last ten 
years, deaths related to fires have decreased by approximately 25 
percent, from nearly 5,000 in 1996 to 3,675 in 2006. Although that 
decrease in fire-related deaths is commendable, the United States still 
has one of the highest death rates from fire in the industrialized 
world. Additionally, despite decreases in the numbers of fires, direct 
damage costs are increasing and have topped $10 billion per year. Put 
another way, in an average year, fires cause as much damage in the 
United States as hurricanes.
    These statistics highlight the importance of the United States Fire 
Administration and why we are here today. USFA has a substantial public 
safety mission whose magnitude is not often recognized.
    Therefore, as the Committee begins drafting legislation that will 
provide a framework for USFA in the coming years, I look to this panel 
of witnesses to sketch out where the needs are greatest, what programs 
have been successful to date, and where we currently may be a bit off 
course.
    Before I finish, let me also bring up one particular area of 
concern for me. Several of our witnesses will discuss potentially 
updating the National Fire Incident Reporting System or NFIRS (en-
firs). I would like to urge caution and diligence in approaching this 
upgrade. IT projects like this one can rapidly fall apart, potentially 
leaving USFA with unhappy users and ballooning infrastructure costs. 
USFA and the fire community need to be very specific about the goals 
and limitations of a new system. Will web-based reporting bring in 
better quality data or provide tangible benefits over the current 
system? How will the upgraded system meet the needs of local, State, 
and USFA personnel?
    These are just a couple of questions that need to be addressed as 
we begin the process of reauthorizing USFA. I look forward to hearing 
the testimony of all of our witnesses today. Mr. Chairman, thank you 
again for convening this hearing to address the future USFA. With that, 
I yield back.

    Chairman Wu. Thank you very much, Dr. Gingrey. At this 
point, I would like to introduce our witnesses today. First, 
the United States Fire Administrator, Gregory Cade of the USFA. 
Before taking this position, he was the Fire Chief and 
Emergency Services Coordinator for the City of Virginia Beach. 
Dr. Shyam Sunder is the Director of the Building and Fire 
Research Laboratory at the National Institute of Standards and 
Technology. Chief Steven Westermann is the President and Chief 
Fire officer for the International Association of Fire Chiefs 
and the Fire Chief of Central Jackson County Fire Protection 
District in Missouri. An old friend, Captain Robert Livingston 
is the Legislative Director of the Oregon State Council of Fire 
Fighters of the International Association of Fire Fighters and 
also a Captain in the Salem, Oregon, Fire Department. Chief 
Gordon Henderson I will let Dr. Gingrey introduce in a moment, 
and Dr. John Hall is the Assistant Vice-President of Fire 
Analysis and Research for the National Fire Protection 
Association. And I yield to Dr. Gingrey to further introduce 
Chief Henderson.
    Mr. Gingrey. Mr. Chairman, I thank you very much for that 
courtesy of allowing me to introduce Chief Gordon Henderson 
from Ford County, Georgia, my district, the 11th District of 
Georgia in Northwest Georgia, the greatest part of the state. 
Chief Henderson has served in the fire service for 32 years. He 
spent the last 16 as Deputy Chief of Operations for the Rome, 
Floyd County, Fire Department. Chief Henderson is also Past 
President of the Georgia State Firefighters Association, and he 
currently serves as the Chairperson of the Georgia Fire Service 
Legislative Committee. That is an important one. He is 
appearing before us today on behalf of the National Volunteer 
Fire Council, and it is always nice to welcome a fellow 
Georgian to testify before the Subcommittee. Mr. Chairman, I 
know that you will be able to provide Chief Henderson with a 
unique and interesting perspective due to your years of service 
and leadership experience, and I certainly thank you for 
joining us today. Thank you, Mr. Chairman.
    Chairman Wu. I reclaim my time. As all of the witnesses 
know, your written testimony will be submitted in full, and 
your spoken testimony, please try to limit it to five minutes 
after which the Members of the Committee will have five minutes 
each to ask questions; and if any other Members have opening 
statements to submit, they will be submitted for the written 
record.
    [The prepared statement of Mr. Matheson follows:]

           Prepared Statement of Representative Jim Matheson

    Chairman Wu and Ranking Member Gingrey, I thank you both for 
holding this important hearing this morning regarding the U.S. Fire 
Administration (USFA). The U.S. Fire Administration plays a critical 
role in protecting communities against fire losses through its 
training, education, data collection and research activities.
    Coming from Utah, I am particularly interested in hearing more 
about what the USFA and other agencies are doing to address the 
challenges of fighting fire in the Wildland-Urban Interface. In reading 
your testimony in preparation for this hearing, I was interested to 
learn about the rising costs and dangers associated with firefighting 
in these rural areas.
    I look forward to hearing from this distinguished panel of 
witnesses about the USFA's current priorities as well as their thoughts 
as to how we can best address the challenges of firefighting in the 
Wildland-Urban Interface. Thank you, Mr. Chairman.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    The United States Fire Administration serves an important role in 
making sure that our first responders have all the latest training and 
information available.
    For the last 33 years, this agency has partnered with the National 
Institute of Standards and Technology and others to set forward 
technology, curriculum, and consumer education standards that have 
helped significantly decrease fire-related deaths and injuries.
    As you know, my district lies in the heart of Arizona's arid, hot, 
Sonoran desert.
    This climate attracts thousands of new residents and millions of 
visitors every year, and it is our responsibility to keep them safe.
    In my capacity on the Transportation and Infrastructure Committee, 
I have fought to provide Arizona with adequate resources to make sure 
this population growth is met with adequate infrastructure improvement.
    My district has 29 fire stations that employs 555 active volunteer 
and career firefighters.
    These brave men and women protect 671,000 residents day and night, 
and contribute to keeping Arizona among the lowest rate of fire-related 
deaths in the Nation.
    Unfortunately, the Fire Administration has not been able to keep up 
with maintaining an efficient fire incident database. This is due to 
bureaucratic red-tape and aging database technology.
    We owe it to our constituents and first responders to update this 
system and minimize bureaucratic barriers.
    I am also concerned about protecting Wildland-Urban Interface 
areas.
    With cities expanding into forests, deserts, and other fire-prone 
environments, it is important that our firefighters are properly 
trained, equipped, and fully prepared to deal with emerging threats.
    I am looking forward to hearing from our panel on how we can 
achieve these goals, and I yield back.

    Chairman Wu. At this point, we will begin our testimony 
with Administrator Cade. Please proceed, Mr. Cade.

  STATEMENT OF MR. GREGORY B. CADE, ASSISTANT ADMINISTRATOR, 
 FEDERAL EMERGENCY MANAGEMENT AGENCY; U.S. FIRE ADMINISTRATOR, 
   UNITED STATES FIRE ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Cade. Thank you, Mr. Chairman. I would like to say good 
morning to both of you and all of the rest of the Members of 
the Committee. It is a pleasure to be here this morning to 
speak on behalf of the United States Fire Administration and 
Secretary Chertoff. I appreciate what the Committee is getting 
ready to do. I think the reauthorization of the United States 
Fire Administration is something critically important.
    As you pointed out in my biography, I have had the pleasure 
of being in the fire service now for 40 years, and the things 
that are done as part of the United States Fire Administration 
are extremely important. USFA is truly a leader in providing 
fire safety and fire prevention programs. We don't do it by 
ourselves, and sitting here today with me is a distinguished 
panel of other people that we work with and partner with to get 
the things done that we need to do.
    There is nothing more important in my opinion than the 
education of the first responders in the first response 
community. Yes, my experience has been the first responders 
truly are there when things start, and they are there when 
everybody else goes home. So making sure that they have the 
tools and the training and the education to be able to do their 
job, I see as a very critical issue, and I see the role of the 
United States Fire Administration as one that can help not only 
provide some of the training directly to that community but 
also, truly with our State partners and local partners, to be 
able to provide it out at the local level. It is impossible for 
everyone to get up to the wonderful facility at the National 
Emergency Training Center, even though we get about 9,000 
people through there a year. There are 1.2 million firefighters 
here in the United States that need that training. So clearly, 
we have to partner with many of the organizations that sit here 
at this table today to be able to get our job done.
    I think that there is a critical need for the fire service 
to continue to take the leading role in teaching how to provide 
incident command training that meets the National Incident 
Management System. There is no one in my opinion who uses the 
ICS system on a daily basis more effectively than the fire 
service, and hopefully, what we are going to be able to do with 
the United States Fire Administration is to help them to become 
a center of excellence in their local communities and take the 
knowledge that they have and provide that to everyone else.
    I know that when you look at the other issues that are 
facing the fire service, the critical issue that has come about 
certainly in the last few years, but probably something we have 
been working on for the last ten is this whole issue of the 
national wildland urban interface and the problems that it is 
creating for the communities. The USFA has been working very 
diligently with its partners, not only in the U.S. Fire 
Service, but also in the Bureau of Land Management, to try and 
figure out how do we do a better job of preparing first 
responders at the structural firefighting level that are 
continuing more and more to be engaged in doing wildland 
firefighting. So we are working with those and other partners.
    It is important for me to be sitting here today the week 
before the National Fire Prevention Week starts, and I am glad 
that you chose today to conduct the hearing because next week 
we are going to put an even greater focus, and hopefully get 
our whole country to focus on, fire prevention and fire 
prevention activities, such as changing the batteries in their 
smoke detectors; and I, too, wish they were all wired together. 
It would certainly make a significant difference.
    I agree that the numbers of fire deaths and fire injuries 
here in the United States is something that we continue to need 
to work on and do a much better job with. Our commitment within 
the United States Fire Administration is to look at using the 
data collection capabilities that we have to put the facts out 
there to help guide the research that is being done with our 
partners and to look at better ways to be able to safeguard not 
only the communities but certainly safeguard the firefighters. 
Unfortunately, so far this year, we are at 96 line-of-duty 
deaths. That really concerns me. I am afraid before this year 
is out, we will be over 120. I have spoken out about it 
numerous times, and I am going to continue to speak about it. I 
think that there is a role that needs to be continued to be 
pushed from the United States Fire Administration standpoint in 
the use of residential sprinklers as a way of hopefully being 
able to address the next level of injuries and deaths that are 
taking place. I think that putting a greater emphasis on 
residential sprinkler systems will not only do a better job of 
suppressing the fires but I think it will help to deal with the 
$10 billion a year loss and even more importantly, with the 
loss of lives that we are seeing, not only in the community but 
also with our firefighters.
    So it is important, I think, to be able to do that, to look 
at how do we collect that data. We are looking at trying to 
make some modifications in our data collection capability and 
go to a web-based program. One of the dilemmas that we have 
right now is the way the system is structured. In some cases, 
we are not getting the data out of the states until 12 or 18 
months. When I went through my confirmation hearing, and I have 
said this before, some of the questions that I had that I 
wanted data to be able to answer, I couldn't get 2006 
statistics, which I thought was pretty amazing. When you can go 
on the internet today and Google something and find out tons of 
information, to me, a fire chief sitting at his or her desk 
ought to have that same capability to look at using the data. 
There is no one else in the world who has better fire 
statistics and more of it than the United States Fire 
Administration and the National Fire Data Center. We have over 
21,000 fire departments that are continuing to provide 
information to us across this country. We are looking at 
expanding it. We have a program right now where we have been 
working not only with the Department of Defense but also with 
our tribal partners to see about how we can do a better job of 
correlating the data for them and be able to use that.
    We have a lot of relationships and you will hear that, I am 
sure, from the other people that are going to speak after me 
about the good things that are going on and the needs that we 
have across the fire service.
    With that, Mr. Chairman, I will be happy to answer whatever 
questions that you have.
    [The prepared statement of Mr. Cade follows:]

                 Prepared Statement of Gregory B. Cade

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Gregory B. Cade and I am an Assistant Administrator at the Federal 
Emergency Management Agency (FEMA) and the United States Fire 
Administrator in charge of the United States Fire Administration (USFA) 
at the Department of Homeland Security (DHS). I appreciate the 
opportunity to appear before you today on behalf of Secretary Chertoff.
    Each year fires injure and kill more Americans than the combined 
losses from floods, hurricanes, tornadoes, earthquakes, and other 
natural disasters. Death rates from fires in the United States are 
among the highest in the industrialized world. Part of the USFA's 
mission is to reduce loss of life and property due to fire and related 
emergencies. This is not an easy task, but it is one the USFA takes on 
every day, in coordination with other federal agencies, and in 
partnership with fire protection and emergency service communities. We 
take the mission of preparing the Nation's fire service seriously and 
will continue to work tirelessly to reduce the loss of life among the 
civilian population as well as among the Nation's fire service.
    As you are aware, USFA recently completed a transition to FEMA as 
part of the Post Katrina Emergency Management Reform Act. As a part of 
``New FEMA,'' the staff will continue to work diligently to reduce 
deaths, injuries, and the damage to property through leadership, 
advocacy, coordination and support in USFA's long standing four basic 
mission areas: training, public education and awareness, applied 
research and technology, and data collection and analysis.
    To accomplish our mission, we work with the fire service, other 
emergency responders, Federal, State, local and tribal governments, and 
allied professionals to better prepare them to prevent, protect 
against, and respond to all incidents, including acts of terrorism. 
Being prepared for all types of incidents is by far the biggest 
challenge in this day and age. With the threats today's fire services 
face, preparing them to respond to all incidents is essential. We will 
continue to provide educational programs through the National Fire 
Academy (NFA) and provide educational materials to our partners at the 
State, local, and tribal level to help achieve higher levels of 
preparedness.
    We are interacting with State, local and tribal governments, the 
private sector, and DHS's Science and Technology Directorate to provide 
standardized, practical, inter-operable equipment. We are helping first 
responders and emergency managers practice and refine their response 
plans with partners at all levels of government.
    Today, I will focus my remarks on USFA's programs and services. 
Through these programs we will improve the preparedness, effectiveness 
and safety of our first responders. I will also summarize our current 
activities and future needs.
    USFA is a national leader in providing fire safety and prevention 
programs. We also lead the way in preparing communities to deal with 
fires and other hazards. USFA is supporting the efforts of local 
communities to reduce the number of fires and fire deaths, and it 
champions federal fire protection issues and coordinates information 
about fire programs.
    In terms of our preparedness programs, we recognize the importance 
of education as a vital step toward a first responder community 
prepared to respond to any kind of emergency, ranging from a small fire 
to a terrorist attack involving a large number of victims or extensive 
infrastructure damage. We continue to administer educational programs 
for community leaders and first responders to help them prepare for and 
respond to emergencies regardless of cause or magnitude. USFA also 
strongly advocates for local fire departments to be the center of 
preparedness within their jurisdictions. We believe these local 
departments should take the lead in preparing their communities through 
public education and training other departments and agencies on the 
concepts of the Incident Command System and the National Incident 
Management System. These fire departments should set the standard for 
the rest of the community by ensuring their members all have family 
emergency plans and at least 72 hours worth of supplies. The public 
looks to the fire department for help once a disaster strikes, and we 
believe fire departments should set the example of how to prepare 
before the disaster strikes.
    USFA will continue to work with the Centers for Disease Control and 
Prevention and their National Center for Injury Prevention and Control. 
Through this partnership we can share data and analyses to help both 
agencies better track civilian fire injuries and deaths.
    We are working closely with other divisions within FEMA, including 
the National Preparedness Directorate (NPD). USFA has been 
collaborating with the NPD's National Integration Center to coordinate 
training programs and to ensure NFA courses are not in competition with 
or repetitive of NPD's, the Emergency Management Institute's or Center 
for Domestic Preparedness courses. USFA has also been working closely 
with NPD to ensure all NFA courses are in line with the new National 
Preparedness Guidelines and touch on elements of the Universal Task 
List and the Target Capabilities List.

Education and Preparedness Programs

    NFA offers a wide variety of training and educational programs to 
promote the professional development of command level fire officers, 
emergency managers, emergency responders, technical staff, and allied 
professionals such as architects and engineers.
    Students and their supervisors who have attended NFA courses have 
told us Academy courses have improved their job performance and 
increased their professional development. An assessment conducted in FY 
2006, revealed that 82 percent of supervisors who responded reported an 
improvement in the student's job performance following training. In 
addition, 93 percent reported that attending courses at NFA contributed 
to the student's professional development and almost 87 percent 
reported that the training improved their department's performance.
    State and local support for fire service training must be increased 
and the federal role is to foster this participation. USFA will 
continue to:

        <bullet>  Coordinate the exchange of training materials and 
        information among State and local fire training systems;

        <bullet>  Focus on distance learning and alternate training 
        delivery methods such as National Fire Academy Online 
        (NFAOnline);

        <bullet>  Revise courses to include the most current 
        information, public fire safety education and emergency 
        response;

        <bullet>  Partner with associate and bachelor degree programs 
        to align the national academic fire curricula;

        <bullet>  Include multiple delivery formats in future course 
        development so the nexus of the course may be provided to the 
        field in a variety of adaptable formats;

        <bullet>  Shorten some resident classes to offer more 
        educational opportunities; and

        <bullet>  Provide faster turnaround to get newly learned skills 
        applied in the field.

    Distance learning strategies and strategic partnerships with State 
fire service training organizations have helped us realize a continued 
increase in the number of students the NFA trains each year. The most 
recent admissions statistics show in FY 2007 8,278 students attended 
on-campus residential training courses and 76,918 students attended 
off-campus/distance learning training courses, which include classroom-
based training at the State/local/tribal level as well as online 
distance learning. This represents a 13 percent increase over the 
previous fiscal year.
    USFA's NFA works in partnership with accredited State Fire Training 
Programs. These State programs have over $700 million in capital 
facilities and trained over 750,000 firefighters last year.
    For the past 10 years, we have partnered with colleges and 
universities across the country to ensure important fire safety 
concepts are delivered to the Nation's fire service. Our training 
programs continue to focus on courses aligned with USFA's Operational 
Objectives. The NFA continues to develop and deliver training that 
cannot be obtained through other institutions. A curriculum review for 
the NFA curriculum is scheduled for FY 2008 and we expect to see those 
results by June 2008.
    USFA is working with the National Incident Management System 
division within FEMA and National Wildfire Coordinating Group to 
prepare regional All Hazard Incident Management Teams (AHIMT). These 
teams provide support for major incidents prior to, or in lieu of, the 
arrival of a Federal IMT. We are training these teams on almost a 
weekly basis throughout the Nation. So far this year we have helped 
establish 12 teams, coordinated 48 training sessions, and expect 
another nine course offerings within the next six months.
    Our National Fire Programs division has assumed additional 
preparedness roles since our last reauthorization hearing. The division 
now has staff dedicated to:

        <bullet>  Work with the Department of Agriculture to provide 
        expertise in structural firefighting as part of the National 
        Response Framework Emergency Support Function 4;

        <bullet>  Support the Emergency Management and Response--
        Information Sharing and Analysis Center (EMR-ISAC) for non-
        classified intelligence sharing with America's first 
        responders; and

        <bullet>  Provide a presence at the DHS National Operations 
        Center to keep first responders apprised of emerging threats 
        and events.

Public Education and Awareness

    USFA continues to deliver fire safety messages to those most 
vulnerable to fire--the very young, the elderly, and others. USFA works 
closely with National fire service organizations to push the message of 
fire safety out to all at risk sectors of the population. For example, 
this year USFA will once again partner with the National Fire 
Protection Association for the National Fire Prevention Week, which is 
scheduled for October 7-13, 2007. We will continue to manage the Quick 
Response program where we blitz local media with proactive fire safety 
messages following fire fatalities.
    USFA works to identify and develop public, private, and fire 
community partnership opportunities to implement and enhance fire 
prevention and awareness activities. We do this by providing 
professional, managerial, and technical assistance to State, local, and 
tribal fire service organizations and individuals.
    We are working with our State and local partners, as well as 
industry representatives, to support residential fire sprinkler 
initiatives--a low-cost and reliable life saving solution to one 
segment of America's fire problem.
    We have initiated a thriving program entitled Prevention Advocacy, 
Resources, and Data Exchange (PARADE) that provides State and 
metropolitan fire officials a venue for sharing their own successful 
fire prevention and protection strategies.

Data Collection

    USFA continues to collect, analyze, publish, and distribute data to 
define and describe the national fire problem while assisting State, 
local, and tribal agencies in developing standardized incident 
reporting methods for the collection and analysis of local fire 
incident data.
    USFA's National Fire Data Center (NFDC) administers the National 
Fire Incident Reporting System (NFIRS), which is used by over 21,000 
fire departments to document incidents to which they respond. In 
addition, the NFDC manages the National Fire Department Census, a 
voluntary online directory of almost 26,000 fire departments.
    NFDC also tracks on-duty firefighter fatalities and has conducted 
an annual fatalities analysis for more than 20 years. Through the 
collection of information on the causes of firefighter deaths, USFA is 
able to focus on specific problems and direct efforts toward finding 
solutions to reduce the number of firefighter fatalities in the future. 
This information is also used to measure the effectiveness of current 
programs directed toward firefighter health and safety.
    NFDC disseminates a wide range of technical, educational, and 
marketing information to the general public and fire services 
organizations through Internet and print-based mediums.

Research and Technology

    To maximize the impact of limited resources, USFA uses its national 
position to serve as a focal point for developing cooperative 
relationships among the diverse organizations that have a shared 
interest in developing new technologies to address fire safety and 
firefighting. USFA-supported fire research, almost without exception, 
is accomplished through partnerships.
    USFA is working closely with the DHS Science and Technology (S&T) 
Directorate to identify areas of complementary research, inform S&T on 
research needs specific to the fire community, and explore ways of 
combining resources for maximum impact.
    USFA has long standing working relationships with a variety of 
federal agencies including the Centers for Disease Control and 
Prevention, National Institute for Occupational Safety and Health, 
Consumer Product Safety Commission, Department of Transportation, 
Department of Housing and Urban Development, Department of Justice, 
Occupational Safety & Health Administration, and the National Institute 
of Standards and Technology. In addition, there are partnerships with 
national-level fire trade associations such as the National Volunteer 
Fire Council, the International Association of Fire Chiefs, the 
International Association of Fire Fighters, International Code Council, 
and the National Fire Protection Association. USFA also reaches out to 
academic institutions and non-fire service organizations to address 
topics of mutual interest. By sharing resources and expertise, the 
partners are able to achieve much more together than they could achieve 
individually.
    The data and information derived from these partnership research 
efforts have influenced the decisions of consensus standards-making 
committees on a number of topics such as thermal imaging cameras, 
firefighting protective clothing, chemical protective clothing, 
protective clothing for urban search and rescue, self-contained 
breathing apparatus, and residential sprinkler systems.
    USFA also leverages research partnerships and technology 
developments to improve fire prevention and promote public safety. 
Currently, USFA is working with others in the fire sprinkler community 
to promote installation of residential fire sprinklers. Residential 
sprinklers can substantially reduce the impact of residential fire 
incidents, injuries, and fatalities. The National Fire Protection 
Association reports that when sprinklers are present the chances of 
dying in a fire are reduced by about two-thirds, regardless of whether 
smoke alarms were present or not. If sprinklers are introduced before 
smoke alarms, the death rate would fall about 69 percent; if smoke 
alarms are introduced first, the death rate would be expected to fall 
by one-half; sprinklers would reduce the remaining fatality rate by 63 
percent. Together with smoke alarms, sprinklers cut the risk of dying 
in a home fire by 82 percent, relative to having neither, and there is 
a potential for a dramatic decrease in the over 2,500 residential fire 
deaths which occur each year in America. Average property loss per 
residential fire is about one-half less when compared to fires where 
sprinklers are not present. In addition, as more than 25 percent of 
firefighter on-duty deaths are associated with residential fires, a 
long-term benefit of residential sprinklers is firefighter injuries and 
deaths will also be reduced. Simply put--we will have fewer 
firefighters killed on-duty if we have fewer firefighters responding to 
major fires that could have been extinguished or contained by a 
residential sprinkler system.
    Since FY 2005, 15 Firefighter Research and Development grants have 
been awarded through the Assistance to Firefighters Grants (AFG) 
program. These grants have totaled nearly $17 million and were granted 
to 19 different organizations. While USFA does not operate the AFG 
program, it does work closely with the AFG program office within FEMA 
to ensure the fire service is represented.
    Since FY 2005, 15 Firefighter Research and Development grants have 
been awarded through the Assistance to Firefighters Grants (AFG) 
program. These grants have totaled nearly $17 million and were granted 
to 19 different organizations. While USFA does not operate the AFG 
program, it does work closely with the AFG program office within FEMA 
to ensure the fire service is represented.
    This collaboration also includes working with the AFG program 
office on the Fire Prevention and Safety Grants (FP&S) and Staffing for 
Adequate Fire and Emergency Response (SAFER) Grant. The FP&S grants 
support projects that enhance the safety of the public and firefighters 
from fire and related hazards. The primary goal of the FP&S is to 
target high-risk populations and mitigate high incidences of death and 
injury. USFA's work with the SAFER Grants ensures funding goes directly 
to fire departments in order to help increase the number of trained, 
firefighters available across the country.

PREPnet

    The Preparedness Network (PREPnet) is a satellite-based distance 
learning system used by USFA to bring interactive training programs 
into virtually any community nationwide. With a wide variety of 
programs for the public safety community, there's something for 
everyone. All programming is open and in the public domain, so any 
community with access to a C-band or Ku-band analog satellite dish or a 
community cable vision provider can receive broadcasts and participate 
in the training programs.
    On Wednesday, September 19th, USFA's PREPnet supported the roll-out 
of the National Response Framework (NRF) from the PREPnet studios in 
Emmitsburg, MD. This broadcast, which was simultaneously a TV broadcast 
via the Dish Network, a Video Teleconference over FEMA's internal VTC 
system, and a web cast available on the Internet to any interested 
parties, featured NPD Deputy Administrator Dennis Schrader and Al 
Fluman, Acting Director of FEMA's Incident Management Systems Division 
(IMSD), who presented an overview of the NRF and answered a series of 
questions received from actual viewers during the broadcast.
    PREPnet also recently hosted a Virtual Town Hall on School 
Preparedness as a part of National Preparedness Month. A panel of 
experts from the Department of Education's Office of Safe and Drug-Free 
Schools and FEMA's NPD discussed grant opportunities and planning, 
training, and other preparedness tools available to school districts 
nationwide.

Challenges

    Reducing the loss of life and property caused by fire remains a 
significant challenge. Each year, fire kills more than 3,000 people and 
injures more than 16,000. Annual property losses due to fire are 
estimated at more than $11 billion. The Centers for Disease Control and 
Prevention tells us fire and burn injuries represent one percent of the 
incidence of reported injuries and two percent of the total costs of 
injuries, or $7.5 billion each year. Unfortunately, our nation's 
firefighters continue to also pay a large price in keeping fire deaths 
and property losses down. As of September 21, 2007, 93 firefighters 
have been killed while on duty this calendar year.
    Although the numbers are still too high as most of these deaths can 
be prevented, great progress is being made to reduce the toll from 
fires. Since 1974, when Congress passed the Federal Fire Prevention and 
Control Act (Pub. L. No. 93-498), and established the United States 
Fire Administration and its National Fire Academy, USFA has helped to 
reduce fire deaths significantly. Over the last 10 years, fires have 
declined by 13 percent. During this same period, a 12 percent decline 
in civilian deaths and a 31 percent drop in civilian injuries were also 
reported.
    New programs need to be developed which will prepare responders to 
deal with the Wildland/Urban Interface. This involves the issue of 
urban sprawl and how to reduce fire risk for the population. Population 
decentralization in the U.S. has resulted in rapid development in the 
outlying fringe of metropolitan areas and in rural areas as people want 
to move out of the city centers.
    We need to enhance our emphasis on preparing the Nation's first 
responders for all hazards, including natural, technological and 
terrorist incidents. We will accomplish this through education and 
information sharing with our partner organizations and agencies.
    The USFA will continue to work with the United States Department of 
Justice's (DOJ), Public Safety Officer Benefits (PSOB) program as it 
relates to death benefits for first responders who are killed in the 
line of duty. Unfortunately, there are an overwhelming number of 
families of firefighters who have been killed in the line of duty who 
have yet to receive any death benefits. We look forward to working with 
DOJ on relieving this deadlock and getting benefits to those families 
who qualify.

Conclusion

    Thank you, Mr. Chairman, for giving me this opportunity to appear 
before you today. Your continued support is greatly appreciated. I will 
be glad to answer any questions you and other Members of the Committee 
may have.

                     Biography for Gregory B. Cade

    Gregory B. Cade is the Federal Emergency Management Agency's (FEMA) 
Assistant Administrator (Fire Administrator) for the U.S. Fire 
Administration (USFA). Appointed in May 2007, Assistant Administrator 
Cade is responsible for supporting State and local fire service 
programs as well as implementing FEMA Administrator R. David Paulison's 
initiatives for emergency readiness, firefighter training, and 
equipment.
    Before accepting this post, Assistant Administrator Cade was the 
Fire Chief/Emergency Services Coordinator of the City of Virginia Beach 
(VA) Fire Department. From 1998-2007, he managed 900 personnel with a 
$38 million operating budget. He also oversaw the Virginia Task Force 2 
Urban Search and Rescue Team and operated 19 fire/rescue stations 
covering 311 square miles of land and 35 miles of Atlantic and 
Chesapeake coastline out to the international line.
    Assistant Administrator Cade has 39 years of fire and rescue 
services experience. He began his career in Prince George's County 
Maryland as an entry-level firefighter. He served as a risk manager, 
budget analyst, and training instructor, rising through the ranks to 
his last assignment as the Bureau Chief, Division of Fire/Rescue before 
leaving and becoming Fire Chief of the City of Hampton (VA) in 1992. 
His emergency management experience includes activities related to 
preparing for, responding to, and recovering from several 
Presidentially-declared man-made and natural disasters.
    Assistant Administrator Cade earned a Bachelor of Science from the 
University of Maryland and completed the Program for Senior Executives 
in State and Local Government at Harvard University's John F. Kennedy 
School of Government. He received the Victoria J. Adams Award for 
Excellence in Equal Employment Opportunity/Affirmative Action from the 
Virginia Department of Fire Programs in 1997 and holds positions in 
several professional associations. Assistant Administrator is also past 
Vice President of the National Society of Executive Fire Officers.

    Chairman Wu. Thank you. We will do questions all together 
at the end of all the witness testimony. Next, Dr. Sunder, 
please proceed.

 STATEMENT OF DR. SIVARAJ SHYAM SUNDER, DIRECTOR, BUILDING AND 
 FIRE RESEARCH LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND 
               TECHNOLOGY, DEPARTMENT OF COMMERCE

    Dr. Sunder. Thank you Chairman Wu, and Dr. Gingrey and 
Members of the Subcommittee. NIST fire research is focused on 
reducing losses and risk by advancing innovative fire 
protection technologies and increasing the safety of buildings 
that are threatened by fire, and we do that by improving 
building and fire codes, standards, and practices. Our work is 
aimed at filling research gaps in areas such as how the fire-
related characteristics of modern furnishings, building 
materials, and designs affect the time available for safely 
exiting buildings, particularly in high-rise buildings and for 
impaired populations, including those in hospitals, nursing 
homes, residences or other facilities.
    Our research also provides the science, performance 
measures, and tools critical to developing and implementing new 
and emerging technologies that would improve the effectiveness 
and safety of firefighters. They go beyond developing tools and 
methods by actually getting our results into the hands of 
firefighters, incident commanders, and other emergency 
responders.
    In addition, NIST is working on science-based approaches 
for limiting fire growth and spread, particularly in 
residential settings, where the vast majority of fire deaths 
occur, by reducing the flammability of the materials and 
products within our homes, by reliably detecting a fire in its 
nascent state, and by automatically suppressing fires once they 
develop.
    As part of the President's American Competitiveness 
Initiative, or ACI, we are developing tools for reducing 
community losses from fires at the wildland-urban interface. 
These tools will assist communities all across the U.S. in 
assessing their risk for such fires and choosing economically-
balanced mitigation strategies. Also as part of the ACI, NIST 
has begun examining fire safety issues associated with the 
emerging use of hydrogen as a fuel in transportation and in 
domestic and commercial power generation.
    NIST will provide the scientific and technical information 
to support the development of codes and standards for the 
design of engineered containment and transport systems and for 
mitigating potential fire and explosion hazards in both the 
residential and commercial sectors.
    Finally, NIST's Fire Research Grant Program has been the 
primary federal source for fire research at universities for 
the past 30 years and a source for training in the next 
generation of fire protection engineers and researchers.
    Our fire research priorities are determined in a deliberate 
and inclusive fashion. We work with a broad range of 
industries, codes and standards, developing organizations, fire 
service organizations, professional societies, public safety 
groups, universities and other government agencies. We identify 
the needs of these customers and the capabilities of our 
research collaborators, both here and abroad, through 
workshops, direct contact, technical meetings, roadmaps, and 
established national priorities. Our Fire Research Program 
evolves from these needs after considering the potential impact 
and probability of success that fit to our mission, match of 
the technical challenges to the staff capabilities, and the 
potential for leveraging the investment. There are many 
examples of how our research program is coordinated with the 
U.S. Fire Administration. We regularly hold joint workshops 
with USFA that includes representatives from the fire service 
industry and other laboratories to establish priorities for 
fire service research. The results of these workshops have 
helped set the current research agenda for both NIST and USFA. 
Our research plans are coordinated through an established 
liaison arrangement where in fact a NIST employee spends about 
a day a week at USFA. Together, we jointly fund high priority 
research topics, transfer research results to the fire service, 
and conduct investigations of firefighter fatalities. Recent 
research projects include characterizing the performance of 
personal protective equipment, developing structural collapse 
prediction technology, and assembling the components of virtual 
firefighter training for next generation firefighting.
    We are also working together to analyze the recent 
Charleston furniture store fire that resulted in nine 
firefighter fatalities. Our research results are transferred to 
the fire service, we have training courses at the National Fire 
Academy, and we produce an electronic newsletter for fire 
service personnel called Fire.Gov, an electronic publication 
distributed directly to fire departments and training 
academies. Our research has been used to develop entire courses 
or has been integrated into course modules at the fire academy. 
We also continue to work closely with standards development 
organizations. Our research has provided the technical basis 
for new NFPA standard for the Personal Alert Safety System, or 
PASS device, that is used by firefighters. In a similar 
fashion, our research has provided the technical basis for the 
development of new NFPA standards for the effective use of 
thermal imagers for tracking fire spread and locating fallen 
firefighters and building occupants.
    In summary, we are proud of our role as a partner in 
science and technology resource for USFA helping to play a 
significant role in the development of science-based consensus 
standards and reliable, safe, and effective firefighting 
equipment and techniques in the United States. Thank you.
    [The prepared statement of Dr. Sunder follows:]

               Prepared Statement of Sivaraj Shyam Sunder

    Chairman Wu, Dr. Gingrey, and Members of the Subcommittee, I 
appreciate the opportunity to appear before you today to discuss the 
fire research program at the National Institute of Standards and 
Technology's (NIST) Building and Fire Research Lab (BFRL). NIST 
conducts research to promote U.S. innovation and industrial 
competitiveness by advancing measurement science, standards, and 
technology in ways that enhance economic security and improve our 
quality of life. BFRL supports this mission by anticipating and meeting 
these needs for the U.S. building and fire safety industries. In 
relation to fire research, NIST was given specific authority under the 
Federal Fire Prevention and Control Act of 1974 as amended (15 U.S.C. 
278f(a) ) for ``performing and supporting research on all aspects of 
fire with the aim of providing scientific and technical knowledge 
applicable to the prevention and control of fires.''
    Fire remains a serious problem for our country as evidenced by the 
continuing high rates of fire deaths in the U.S. Each year, more than 
3000 people die in fires and per capita fire deaths are 70 percent 
higher in the U.S. than in the European Union. Fire codes that are 
overly prescriptive--that is, detailed and restrictive--can increase 
the cost of construction and major renovations and possibly stifle 
innovative new approaches without actually improving the fire safety of 
the building and its occupants. There is much that we do not know about 
how the fire-related characteristics of modern furnishings, building 
materials, and designs affect the time available for safely exiting 
buildings. This is an issue of particular concern in high rise office 
buildings and for impaired populations, including those in hospitals, 
nursing homes, residences, or other facilities. Manmade fire threats--
whether they are accidental, intentional, or due to new higher risk 
technologies--increase the need for strategies to prevent or limit the 
flammability of materials and structures or to improve the ability of 
occupants to exit or survive in buildings where fires take place.
    NIST fire research is focused on reducing losses and risk by 
advancing innovative fire protection technologies and increasing the 
safety of buildings threatened by fire. This research has been 
highlighted as a critical need in a National Academies study (Making 
the Nation Safe from Fire, a Path Forward in Research, National 
Academies Press, 2003).
    In addition to improving fire safety in buildings, NIST research 
provides the science and performance measures that are critical for 
developing and implementing the new technologies necessary to improve 
the effectiveness and safety of emergency responders. This includes 
developing science-based standards and testing protocols, firefighter 
training tools, and innovative new technologies. We go beyond 
developing new tools and methods--NIST gets its research results into 
the hands of firefighters, incident commanders, and other emergency 
responders. Over the last few years, NIST research has been used to 
develop entire courses or has been integrated into modules for use in 
courses at the United States Fire Administration's (USFA) National Fire 
Academy (NFA), including the courses Introduction to Fire Dynamics and 
Fire Modeling, Management of Fire Prevention Programs, and Evaluating 
Performance Based Designs, as well as several courses in the NFA's 
Degrees at a Distance Program.
    NIST is developing strategies for cost-effectively reducing the 
Nation's fire losses, both human and financial, based on approaches for 
limiting fire growth and spread. The vast majority of fire deaths occur 
in residential settings. The key to reducing fire deaths lies in 
reducing the chance for a fire to reach ``flashover,'' a condition in 
which the entire contents of a room begin to burn simultaneously and 
produce the toxic smoke and hot gases that can kill people at remote 
locations within a building. Flashover can be controlled by: 1) 
reducing the flammability of the materials and products within our 
homes, 2) reliably detecting a fire in its nascent state, and 3) 
automatic suppression systems. NIST researchers have been pursuing--and 
succeeding--in all three avenues for reducing the likelihood of 
flashover.
    NIST research supports improvements to building and fire codes, 
standards, and practices that reduce the impact of extreme threats to 
the safety of buildings, their occupants and emergency responders. As 
part of the President's American Competitiveness Initiative (ACI), NIST 
is developing tools for reducing community losses in wildland-urban 
interface fires. The U.S. faces extreme losses of life and property due 
to wildland-urban fire. Since 1990 in Colorado, over 450,000 acres, 484 
homes and 25 lives were lost to wildland-urban fires.\1\ In 2003 alone 
in California, fires cost an estimated $2 billion in insured damages 
and destroyed more than 3,600 homes.\2\ During 2000-2003, the cost to 
federal agencies fighting wildland fires averaged $1.3 billion annually 
(in 2004 dollars).\3\ The NIST tools will assist communities all across 
the U.S. in their fire risk assessment and choices of economically-
balanced mitigation strategies that limit the ignition of residences 
and improve firefighter and community safety.
---------------------------------------------------------------------------
    \1\ http://csfs.colostate.edu/library/pdfs/fire/statistics/
fire<INF>-</INF>history.pdf
    \2\ http://www.gao.gov/new.items/d05380.pdf
    \3\ Ibid.
---------------------------------------------------------------------------
    Issues associated with the emerging use of hydrogen as a fuel in 
transportation and domestic/commercial power generation are also being 
examined by NIST as part of the ACI. NIST is working to remove 
technical barriers that impede the implementation of a hydrogen 
economy, and to provide the scientific and technical information, 
needed to support the development of codes and standards for the design 
of engineered containment and transport systems, and provisions for the 
mitigation of potential fire and explosion hazards in both the 
residential and commercial sectors.

NIST Fire Grants Program

    For the past 30 years, NIST has been supporting university research 
through its fire grants program--currently funded at $1.3 million per 
year. NIST relies on the special expertise of the academic community to 
assist in surmounting the complex physical, sociological, and economic 
barriers to significantly reducing U.S. fire losses. This program has 
been the primary federal source for fire research in universities and a 
source for training the next generation of fire protection engineers 
and researchers.

Fire Research Agenda Strategic Approach

    NIST research priorities are determined in a deliberate and 
inclusive fashion. We work with a broad range of industries (e.g., 
building materials and contents manufacturers, fire protection 
equipment suppliers), codes and standards developing organizations 
(e.g., International Code Council (ICC), National Fire Protection 
Association (NFPA), American Society for Testing and Materials 
International (ASTMI), Underwriters Laboratories (UL), FM Approvals (a 
business unit of FM Global for commercial property and building 
insurance), fire service organizations (e.g., International Association 
of Fire Chiefs (IAFC), International Association of Fire Fighters 
(IAFF), National Association of State Fire Marshals (NASFM), 
International Association of Arson Investigators (IAAI), Conference of 
Fire Safety Instructors (CFSI), National Fallen Firefighters Foundation 
(NFFF) ), professional societies (e.g., Society of Fire Protection 
Engineers (SFPE), American Society of Mechanical Engineers (ASME), 
American Society of Civil Engineers (ASCE) ), public safety groups 
(e.g., Skyscraper Safety Campaign, Operation Life Safety, Home Safety 
Council, Center for Campus Fire Safety), universities, and other 
government agencies--including USFA, Consumer Product Safety Commission 
(CPSC), Department of Homeland Security (DHS), U.S. Forest Service 
(USFS), Department of Transportation (DOT), Department of Defense 
(DOD), National Aeronautics and Space Administration (NASA), National 
Institute for Occupational Safety and Health (NIOSH), and the Bureau of 
Alcohol, Tobacco, and Firearms (ATF).
    NIST identifies the needs of these customers and the capabilities 
of our collaborators (national and international) through workshops, 
direct contact at technical meetings, roadmaps, and established 
national priorities. The NIST fire research program evolves from these 
needs after considering the potential impact and probability of 
success, the fit to the NIST mission, the match of the technical 
challenge to staff capabilities, and the potential for leveraging the 
investment.
    The Federal Fire Prevention and Control Act of 1974 as amended (15 
U.S.C. 278f(a) ) specifically stipulates that ``the content and 
priorities of the [NIST] research program shall be determined in 
consultation with the Administrator of the United States Fire 
Administration.'' There are many examples of how the NIST research 
program is coordinated with the USFA.
    NIST regularly hosts joint workshops with USFA that include 
representatives from the fire service, industry, and other laboratories 
to establish priorities for fire service research. Specific examples 
include the National Fire Service Research Agenda Symposium hosted 
jointly with USFA in Emmitsburg, MD; the National Fire Fighter Life 
Safety Summit hosted by USFA; and workshops hosted by the National 
Fallen Fighters Foundation in Tampa, FL; Indianapolis, IN; San Diego, 
CA; and Washington, DC. The results of these workshops have helped set 
the current research agenda for both NIST and USFA. Other federal 
programs, such as the DHS Assistance to Firefighter Grants, are 
incorporating these prioritized research areas as part of their 
proposal evaluation criteria. Similar workshops are being considered to 
establish priorities and timelines for the development of measurements, 
test methods, and consensus standards.
    NIST's and USFA's research plans are coordinated through an 
established liaison arrangement. Together, NIST and USFA jointly fund 
high-priority research topics, transfer research results to the fire 
service, and conduct investigations of firefighter fatalities. Recent 
research projects include characterizing the performance of personal 
protective equipment, developing structural collapse prediction 
technology, and assembling the components of a virtual firefighter 
trainer for next generation firefighting. The research results are 
transferred to the fire service via incorporation into training courses 
at the National Fire Academy, an electronic newsletter for fire service 
personnel (FIRE.Gov), and electronic publications distributed directly 
to fire departments and training academies. A USFA employee 
participated as a member of the team formed and led by NIST under the 
National Construction Safety Team Act to perform a building and fire 
safety investigation of the Rhode Island Station Nightclub fire in 
2003. Currently, USFA and NIST are working together to analyze the 
Charleston furniture store fire that resulted in nine firefighter 
fatalities. The objectives of this study are to understand the unusual 
and rapid fire spread, the impact of smoke and gases on human life, the 
effect of ventilation on fire growth and roof collapse, and the 
possible influence of a sprinkler system had one been installed. In 
addition, the study is considering fire service response and operations 
with a focus on establishing a timeline for reconstructing the fire, 
and to identify areas in building and fire codes, standards, and 
practices that warrant revision. The recommendations from these kinds 
of investigations are communicated to the fire service and national 
voluntary consensus standards organizations to improve the safety of 
first responders and the public.
    NIST continues to work closely with standards organizations to 
support the development of consensus standards. NIST provides an 
unbiased source of technical information and data, which is critical to 
the success of standards development. Recent NIST research has 
characterized the performance of personal alert safety systems (PASS), 
demonstrating that serious flaws can cause the alarm signal generator 
to failed at high temperatures--precisely when this safety equipment is 
most needed. Based on data collected at NIST, a joint safety warning 
was issued nationwide by USFA, NIST, NIOSH, NFPA, IAFC, and IAFF. NIST 
research has provided the technical basis for rewriting the test 
standards for the PASS device, increasing the likelihood that the 
device will work under the extreme conditions typical of a fire 
environment.
    In a similar fashion, NIST research funded internally and by USFA 
and DHS has led to the development of a complete suite of performance 
metrics and standard test protocols for thermal imagers for first 
responder applications. During the last five years, thermal imaging 
cameras have become more readily available to fire departments for 
tracking fire spread and locating fallen firefighters or building 
occupants. Previously, there were no performance metrics or standard 
test protocols for firefighter thermal imagers. The NIST research has 
provided the technical basis for the development of a new NFPA standard 
for thermal imagers. With this standard in place, the performance of 
this critical piece of technology can be evaluated to ensure that 
thermal imagers are as effective as possible.
    Each year, a significant number of firefighter fatalities are due 
to structural collapse. USFA- and NIST-funded research has identified a 
promising new technology to continuously monitor the structural 
integrity of buildings experiencing fire. This emerging technology, 
when fully developed, could provide incident commanders with early 
warning of an impending collapse, allowing first responders more time 
to safely evacuate from the interior of structures before collapse 
occurs.
    Positive pressure ventilation fans are available to many fire 
departments and could provide cooler and smoke-free stairwells for 
firefighter operations or occupant egress. Unfortunately, in the past, 
this ventilation technology has been under-utilized due to lack of 
scientific data on the interaction between ventilation and fire growth. 
A current USFA and NIST collaborative effort has characterized the fan/
building interaction in single story residential structures, high rise 
apartment/office structures, and warehouse type structures. NIST 
research provides a science-based set of guidelines for the deployment 
and operation of positive pressure ventilation fans to improve the 
effectiveness of firefighting activities and evacuation of building 
occupants.
    As the Nation's primary measurement laboratory, NIST is proud of 
its roles as a partner and science and technology resource for USFA, 
helping to play a significant role in the development of science-based 
consensus standards and reliable, safe, and effective firefighting 
equipment and techniques.
    I am delighted to have had the opportunity to describe the fire 
research program at NIST. The problems we tackle affect people every 
day, and the technical challenges require the resources and expertise 
of institutions like NIST, working together with the USFA and other 
organizations to improve fire safety and the effectiveness of 
firefighting in America.
    Thank you and I would be happy to answer any of your questions.

                   Biography for Sivaraj Shyam Sunder

    Dr. Shyam Sunder is Director of the Building and Fire Research 
Laboratory (BFRL) at the National Institute of Standards and Technology 
(NIST).
    BFRL has an annual operating budget of about $42 million and its 
staff includes about 175 federal employees and 100 research associates 
and guest researchers from industry, universities, and foreign 
laboratories.
    Dr. Sunder also:

        <bullet>  is the lead investigator for the federal building and 
        fire safety investigation of the World Trade Center disaster;

        <bullet>  oversees NIST activities as lead agency for the 
        National Earthquake Hazards Reduction Program (NEHRP); and

        <bullet>  co-chairs the National Science and Technology 
        Council's (NSTC) Subcommittee on Buildings Technology (SBT) 
        Research and Development.

    From June 1996 to December 1997, Dr. Sunder was on assignment to 
the Program Office, the principal staff office of the NIST Director, 
first as a Program Analyst and later as the Senior Program Analyst for 
NIST.
    Dr. Sunder was appointed Chief of the Structures Division in 
January 1998 and Chief of the Materials and Construction Research 
Division in June 2002. He was appointed Acting Deputy Director of BFRL 
in March 2004, Deputy Director of BFRL in June 2005, and Acting 
Director of BFRL in July 2006.
    Prior to joining NIST in 1994, Dr. Sunder held a succession of 
positions at the Massachusetts Institute of Technology (MIT) beginning 
in 1980: Instructor, Assistant Professor, Associate Professor, 
principal research scientist, and senior research scientist.
    Dr. Sunder holds a Bachelor of Technology (Honors) degree in civil 
engineering from the Indian Institute of Technology, Delhi (1977), a 
Master of Science degree in civil engineering from MIT (1979), and a 
Doctor of Science degree in structural engineering from MIT (1981).
    Dr. Sunder's awards include the Gilbert W. Winslow Career 
Development Chair (1985-87) and the Doherty Professorship in Ocean 
Utilization (1987-89) from MIT, the Walter L. Huber Civil Engineering 
Research Prize (1991) from the American Society of Civil Engineers, the 
Equal Employment Opportunity Award (1997) from NIST, and the Gold Medal 
Award (2005) for his distinguished leadership of the federal building 
and fire safety investigation of the World Trade Center disaster from 
the U.S. Department of Commerce.

    Chairman Wu. Thank you, Dr. Sunder. Chief Westermann?

STATEMENT OF MR. STEVEN P. WESTERMANN, PRESIDENT AND CHIEF FIRE 
       OFFICER, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Westermann. Good morning, Chairman Wu, Ranking Member 
Gingrey, and Members of the Committee. As chief of the Central 
Jackson County Fire District in Missouri and President of the 
nearly 13,000 members of the International Association of Fire 
Chiefs, it is a true honor to be here as we begin the process 
of reauthorization and to discuss the USFA and the priorities 
of the Nation's fire service.
    The USFA plays a major role in preparing the fire service 
for all hazards. The mission of the USFA is to reduce life and 
economic loss to fire and related emergencies through 
leadership, coordination, and support. The major focus of the 
USFA's activities is the National Fire Academy. In fiscal year 
2007, the NFA trained over 8,000 fire and emergency service 
officers on campus and over 76,000 off-campus and distance-
learning to respond to regional and national incidents 
involving all hazards. The USFA also plays important roles in 
educating the public about fire safety and prevention, 
collecting, analyzing, and disseminating fire information and 
partnering with the public and private sector to conduct 
research on new fire-related technologies.
    In fiscal year 2007, Congress appropriated $46.8 million 
for the USFA, an increase of $2.3 million above fiscal year 
2006 level. Both the House and Senate have passed appropriation 
bills containing $43.3 million for the USFA in fiscal year 
2008. Congress authorized $68.8 million for the USFA in fiscal 
year 2008. We urge the Committee to reauthorize the USFA in '09 
as $70 million with a five-year authorization to ensure long-
term funding stability for the Agency.
    The National Fire Incident Reporting System, known as 
NFIRS, is an essential tool for America's fire service. The 
NFIRS is the world's largest, national, annual database for 
fire and emergency incident information. Over 21,000 fire 
departments report to the NFIRS each year. These departments 
report an average of 14 million incidents and one million fires 
each year. The NFIRS is designed to receive data pertaining to 
all incidents in order to cover the full-range of fire 
department activities.
    Unfortunately, the NFIRS is not being utilized to its 
fullest potential. The current format requires fire departments 
to submit data on paper or as computer files to the states, 
which then periodically upload the data to the USFA. Under the 
current system, there can be a delay of 12 and 18 months in 
compiling national data. In addition, NFIRS only includes about 
half of the reported fires that occur annually, and this simply 
is not acceptable. Therefore, the IAFC would like Congress to 
authorize $3 million over three years for the USFA to enhance 
the NFIRS data collection system and transform it into a real-
time web reporting tool. While we do not expect overnight fire 
data analysis, the collection of more, timelier data may help 
to reduce the current 12- to 18-month delay and may make it 
easier to distinguish major trends. For example, earlier this 
year, a number of fires caused multiple fatalities in New York 
and the Midwest. Without timely data from NFIRS, it was 
difficult to ascertain whether these deaths were a record 
number, a growing trend, or simply an anomaly receiving 
heightened media attention.
    The Senate appropriated $1 million to modernize the NFIRS 
in H.R. 2638, the fiscal year 2008 Department of Homeland 
Security Appropriations bill. We hope that Congress will pass 
this appropriation and authorize the USFA reauthorization bill.
    USFA brings the perspective of the front-line firefighter 
to policy discussions. As the DHS develops federal policies 
such as National Response Framework, USFA should continue to be 
involved to ensure that these policies are practicable for the 
local first responders during an emergency, terrorist attack, 
or disaster.
    The ISC urges the Committee to support the USFA's current 
seat at the National Operations Center. Operating 24 hours a 
day, 365 days a year, the NOC serves as the Nation's nerve 
center for information sharing in domestic incident management. 
The USFA can play a critical role in the NOC by obtaining 
information from fire departments around the country for fusion 
with other potential threat information. In addition, the USFA 
can relay on information of a possible threat to a local fire 
department. For example, if there was a threat of a chlorine 
bomb in the Kansas City area, the NOC would inform me of that 
threat so that the hazmat teams in the Kansas City area would 
be on heightened alert status.
    The ISC also supports the USFA's current plan to educate 
the public about the lifesaving benefits of residential fire 
sprinklers. Currently, only about two percent of American homes 
have fire sprinklers. However, fire sprinklers can play a major 
role in saving lives and preventing property damage. According 
to the National Fire Protection Association, when sprinklers 
are present in structures, the fire death rate per 1,000 
reported structure fires is lower by at least 57 percent and 
the rate of property damage per reported structure fire is 
lower by one-third to two-thirds. The installation of more fire 
sprinklers in homes should reduce both civilian and firefighter 
deaths as well as reduce property damage.
    A growing challenge for the fire service is the growth of 
the wildland-urban interface. As residential growth expands 
into traditionally rural areas, there is an increase in the 
amount of property damage that has occurred from fires. The 
annual estimated costs for combating wildland fires exceeds 
$500 million for local governments and $2 billion for State and 
federal agencies, a large portion of which is in the wildland 
interface. Insurance companies spend over $250 million per year 
covering the damage caused by interface fires.
    Many fire departments, especially those not in the West, 
are just beginning to recognize the challenges of fighting 
fires in the WUI. By working more closely with the U.S. 
Department of Agriculture and U.S. Department of Interior, the 
USFA can become a leading agency in educating the traditionally 
structural fire departments about how to safely and effectively 
respond to fires in the interface and help educate the public 
about fire prevention and mitigation in the interface.
    I know I am out of time, but there is one more critical 
area that we do need to discuss, and that is EMS. EMS is an 
important part of the U.S. fire service. According to the 
USFA's ``Four Years Later--A Second Needs Assessment,'' 67 
percent of the responding fire departments provide EMS. And of 
all the major metropolitan areas, 100 percent of those 
departments provide EMS. USFA should educate the DHS 
leadership, other federal agencies, and the public about the 
role of the fire-based EMS in their areas.
    And with that, we thank you again for the opportunity to 
address the Committee, and on behalf of America's fire and EMS 
chiefs, we look forward to working with you and the 
reauthorization of the USFA.
    [The prepared statement of Mr. Westermann follows:]

               Prepared Statement of Steven P. Westermann

    Good morning, Chairman Wu, Ranking Member Gingrey, and Members of 
the Committee. I am Chief Steven P. Westermann, CFO, of the Central 
Jackson County, Missouri, Fire Protection District and President of the 
nearly 13,000 members of the International Association of Fire Chiefs. 
The IAFC represents the leadership of America's fire, rescue, and 
emergency medical services (EMS) from large, metropolitan, career fire 
departments to small, rural, volunteer fire departments. Today, I would 
like to thank the Committee for the opportunity to discuss the U.S. 
Fire Administration (USFA) and the priorities of the Nation's fire 
service.

The Fire and Emergency Service Community

    America's fire and emergency services are the only organized group 
of American citizens that is locally situated, staffed, trained, and 
equipped to respond to all types of emergencies. There are 
approximately 1.1 million men and women in the fire and emergency 
services--305,150 career firefighters and 795,600 volunteer 
firefighters--serving in 30,400 fire departments around the country. 
They are trained to respond to all risks and hazards ranging from 
earthquakes, hurricanes, tornadoes and floods, to acts of terrorism, 
hazardous materials incidents, technical rescues, fires, and medical 
emergencies.
    The fire service protects America's critical infrastructure--the 
electrical grid, interstate highways, railroads, pipelines, petroleum 
and chemical facilities--and is, in fact, even considered part of the 
critical infrastructure. The fire service protects most federal 
buildings, provides mutual aid to most military bases, and protects 
interstate commerce. No passenger airliner takes off from a runway that 
is not protected by a fire department. The transport of hazardous 
materials is an integral part of the U.S. economy, and when they spill 
or ignite, the fire service responds to protect lives and clean up the 
mess.

The U.S. Fire Administration

    The U.S. Fire Administration plays a major role in preparing the 
fire service for all hazards. The mission of the USFA is ``to reduce 
life and economic loss to fire and related emergencies through 
leadership, coordination, and support.'' In Fiscal Year (FY) 2007, the 
USFA's National Fire Academy trained over 8,000 fire and emergency 
service officers on campus and over 76,000 through off-campus and 
distance-learning to respond to regional and national incidents 
involving all hazards. The USFA also helps educate the public about 
fire safety and prevention through partnerships with the fire service, 
the media, other government agencies, and safety interest groups. Data 
collection is also a vital function of the USFA, including the 
collection, analysis, and dissemination of information on fires and 
other emergency incidents. Finally, the USFA also works with federal 
agencies, such as the U.S. Department of Homeland Security (DHS)'s 
Science and Technology directorate and the National Institute of 
Standards and Technology, and other public and private entities to 
conduct research into new technologies to improve firefighter and 
public safety, and fire prevention, detection, and suppression.
    For FY 2007, Congress appropriated $46.8 million for the USFA, an 
increase of $2.3 million above the FY 2006 level. Both the House and 
Senate have passed appropriations bills containing $43.3 million for 
the USFA for FY 2008. Congress authorized $68.8 million for the USFA in 
FY 2008. We urge the committee to reauthorize the USFA in FY 2009 at 
$70 million with a five-year authorization to ensure long-term funding 
stability for the agency.

Modernizing the National Fire Incident Reporting System

    The National Fire Incident Reporting System (NFIRS) is an important 
tool for America's fire service. The NFIRS is the world's largest, 
national, annual database of fire and emergency incident information. 
Nationally, over 21,000 fire departments report to the NFIRS each year. 
These departments report an average of 14 million incidents and one 
million fires each year. The NFIRS is designed to receive data 
pertaining to all incidents in order to cover the full-range of fire 
department activity.
    To participate in the NFIRS, local fire departments fill out 
reports for fires and other incidents using paper forms or computer 
files. These reports are sent to a State office where the data are 
validated and consolidated into a single computerized database. The 
participating fire departments receive feedback reports from the State 
office. Periodically, the aggregated statewide data is sent to the 
National Fire Data Center at the USFA to be included in the national 
database.
    While the NFIRS system is a helpful tool for the fire service, it 
is not being utilized to its potential. The current format requires 
fire departments to submit data on paper or as computer files to the 
states, which then periodically upload the data to the USFA. Under the 
current system, there can be a delay of between 12 and 18 months in 
compiling national data. In addition, the NFIRS only includes about 
half of the reported fires that occur annually. Without accurate and 
timely information, the NFIRS system cannot correctly produce a timely 
analysis of fire damage in the U.S., and can only produce historical 
information based on half of the actual fire incidents.
    The current NFIRS process creates long delays in getting fire data 
into the national reporting system, and creates the potential for 
decision-makers to make policy using old or incomplete information. For 
example, there were a number of fires in early 2007 that caused 
multiple fatalities in New York and the Midwest. Without timely data 
from the NFIRS, it was difficult to ascertain if these deaths were a 
record number, a growing trend, or an anomaly receiving heightened 
media attention.
    The IAFC urges Congress to authorize $3 million over three years to 
enhance the NFIRS data collection system and transform it into a real-
time web reporting tool. While we understand that it is not possible to 
analyze fire data overnight, we believe that it is possible to close 
the 12- to 18-month delay by making the system easier and more user-
friendly for inputting data. The Senate appropriated $1 million to 
modernize the NFIRS in H.R. 2638, the FY 2008 Department of Homeland 
Security Appropriations bill and we hope that the USFA reauthorization 
bill will include language authorizing this project.

The Role of the USFA in the U.S. Department of Homeland Security

    Considering its unique relationship, the USFA can play an important 
role in influencing DHS' preparedness and response policies. In the 
post-9/11 world, a number of federal policies affect the local fire 
department, including the National Preparedness Guidelines, the 
National Infrastructure Preparedness Plan, the National Incident 
Management System and the new National Response Framework. It is 
important to ensure that these federal policies are practicable for the 
local first responder during an emergency, terrorist attack or 
disaster. The USFA brings the perspective of the front-line firefighter 
to policy discussions.
    Currently, the USFA staffs a seat at the National Operations Center 
(NOC). The NOC serves as the Nation's nerve center for information 
sharing and domestic incident management. Operating 24 hours a day, 365 
days a year, the NOC collects and fuses information from a wide variety 
of sources to help deter, detect, and aid in the response to terrorist 
attacks and natural disasters. The USFA can play an important role in 
the NOC by obtaining information from different fire departments around 
the country and making sure that it is fused with other information 
regarding a possible threat. In addition, the USFA can relay 
information on a possible threat to a local fire department. For 
example, if there was a threat of a chlorine bomb in Kansas City, the 
NOC could inform me of that threat so that the hazmat teams in the 
Kansas City area would be ready to respond.
    It is important to ensure that the USFA is adequately funded to 
perform its DHS role. By having more policy staff, the agency can play 
a stronger role in policy discussions here in Washington. The NOC 
position also is a vital resource for the fire service that needs 
funding.

Residential Sprinkler Campaign

    The USFA is engaged in an aggressive plan to advocate the increased 
use of residential fire sprinklers. Currently, only about two percent 
of American homes have fire sprinklers. However, fire sprinklers can 
play a major role in saving lives and preventing property damage. 
According to the National Fire Protection Association, ``when 
sprinklers are present in structures. . ., the fire death rate per 
1,000 reported structure fires is lower by at least 57 percent and the 
rate of property damage per reported structure fire is lower by one-
third to two-thirds (34-68 percent).'' The USFA's public education 
program can inform the public about the advantages of installing fire 
sprinklers in homes, which should reduce both civilian and firefighter 
deaths and property damage resulting from fires.

Wildland Fires

    A growing challenge for the fire service is the growth of the 
wildland-urban interface (WUI). As residential growth expands into 
traditionally rural areas, there is an increase in the amount of 
property damage that has occurred from fires. The annual estimated 
costs for combating wildland fires exceed $500 million for local 
governments and $2 billion for State and federal agencies, a large 
portion of which is in the WUI. In addition, insurance companies spend 
over $250 million per year in covering the damage caused by WUI fires.
    Many fire departments, especially those not in the West, are just 
beginning to recognize the challenges of fighting fires in the WUI. 
There are many tactical differences between fighting a structural fire 
and a wildland fire. The USFA has traditionally developed strong 
relationships with the structural departments around the country. By 
working more closely with the U.S. Department of Agriculture and U.S. 
Department of Interior, the USFA can become the leading agency in 
educating the traditionally structural fire departments about how to 
safely and effectively respond to fire in the interface and help 
educate the public about fire prevention and mitigation in the WUI.

Emergency Medical Services

    It is important to recognize that EMS is an important part of the 
U.S. fire service. According to the USFA's ``Four Years Later--A Second 
Needs Assessment,'' 67 percent of the responding fire departments 
provide emergency medical service. In communities with populations over 
one million people (major metropolitan areas), 100 percent of the 
departments provide EMS. As the Nation develops policies to deal with 
threats such as large-scale terrorist attacks and pandemic influenza, 
the USFA can play a role in helping the fire service and fire-based EMS 
prepare for these threats. In addition, the USFA can help to educate 
the DHS leadership, other federal agencies, and the public about the 
role of fire-based EMS in their areas.

Conclusion

    Thank you again for the opportunity to address this committee. On 
behalf of America's fire-EMS chiefs, I would like to thank you for your 
continued support. I look forward to working with you as the Committee 
takes action to reauthorize the USFA.

                   Biography for Steven P. Westermann

    Chief Westermann has served as Chief of Department to the Central 
Jackson County Fire Protection District since 1988 and has been in the 
fire service since 1972. He has been a member of the IAFC since 1987 
and prior to serving as President, he served as the International 
Director for the Missouri Valley Division. He has also served on the 
IAFC's NFPA 1710 Implementation Guide Task Force, chaired the National 
Policy Centers Task Force and currently serves on the Labor Management 
Initiative committee. He has served as President of both the Heart of 
America Kansas City Metro Fire Chiefs Council and the Missouri 
Association of Fire Chiefs. Westermann has a Master's in Public 
Administration from the University of Missouri-Kansas City, is an EFO 
graduate and a graduate of the Senior Executives in State and Local 
Government program at Harvard University.

    Chairman Wu. Thank you very much, Chief Westermann. Captain 
Livingston, please proceed.

STATEMENT OF CAPTAIN ROBERT LIVINGSTON, LEGISLATIVE DIRECTOR OF 
   THE OREGON STATE COUNCIL OF FIRE FIGHTERS, INTERNATIONAL 
                  ASSOCIATION OF FIRE FIGHTERS

    Mr. Livingston. Chairman Wu, Ranking Member Gingrey, and 
Members of the Committee, my name is Bob Livingston. I'm a 
Captain in the Salem, Oregon Fire Department and a proud member 
of the International Association of Fire Fighters. I am pleased 
to appear before you today on behalf of IAFF General President 
Harold Schaitberger and the more than a quarter-million full-
time emergency response personnel who comprise our 
organization.
    Whether responding to everyday emergencies or major 
disasters, America's professional firefighters and emergency 
medical personnel are on the front lines every day working 
tirelessly to save lives and to protect public safety.
    Today's professional firefighter is an all-purpose 
emergency responder, trained in such specialized disciplines as 
emergency medical care, hazardous/WMD materials response and 
technical rescue. It is from this perspective, as America's 
frontline domestic defenders, that we view the mission and 
programs of the United States Fire Administration.
    As the role of firefighters has expanded to meet the needs 
of their communities and their citizens, so too must the role 
of the USFA evolve to meet the needs of the 21st century fire 
service.
    The USFA of the 21st century must evolve to fully embrace 
and support the fire service's role in emergency medical 
services, hazmat, and WMD response.
    Pre-hospital 9-1-1 emergency response has become a 
principal duty of the fire service such that today's fire 
service provides first medical response for virtually every 
community in America. Similarly, the growing number and 
dangerous nature of incidents involving hazardous materials has 
elevated the importance of hazmat training and preparedness 
within the fire service. USFA must fully integrate EMS and 
hazmat/WMD training and preparedness into its missions and 
programs. While confident that USFA appreciates the importance 
of expanding its work in these arenas, we remain concerned that 
these efforts are not widely recognized.
    Within the Federal Government, for example, dozens of 
federal agencies administer programs and provide funding that 
impacts the fire service. Yet, too often these agencies have 
little knowledge about who we are and what we do. USFA should 
therefore bolster its efforts to educate others including 
agencies within the Federal Government about the duties of the 
modern fire service, especially the crucial role firefighters 
play in providing emergency medical services, hazmat, and WMD 
preparedness.
    USFA has successfully furthered the professional 
development of the fire service through the Fire Academy. To 
expand the Academy's reach, USFA should expand its remote 
training and education programs. Federally funded training 
programs currently offered by the IAFF provide an excellent 
model for the sort of delivery system USFA could utilize toward 
this end.
    By partnering with entities that have effective local 
delivery systems such as the IAFF, USFA could offer Academy 
courses to those for whom traveling to Emmitsburg is 
impractical. In addition to enhancing its many ongoing 
worthwhile projects, we believe there is one significant new 
initiative that USFA should undertake. Since its inception, 
USFA has helped reduce both the number of fires, as well as the 
number of civilian deaths from fire. Unfortunately, far less 
progress has been made reducing line-of-duty deaths among 
firefighters.
    While it will never be possible to eliminate line-of-duty 
deaths, we must commit to significantly reducing the number of 
firefighter fatalities. We understand much of what must be done 
to protect firefighters: providing adequate training and 
equipment, using safe operating procedures and staffing levels 
and ensuring the physical and mental health of firefighters. 
Yet, despite the advocacy of USFA and non-profit organizations, 
the fire service has been slow to adopt practices that would 
save lives. Although some departments have embraced safe 
practices and procedures, the traditional approach to institute 
change within the fire service from the bottom up has largely 
failed. In my home town of Salem, Oregon, for example, 
communications between police and fire personnel via portable 
radio are currently impossible. While Salem is working 
expeditiously to implement a plan to overcome its communication 
challenges, many communities have yet to address the need for 
public safety interoperability. It doesn't have to be this way. 
The time has come for the Federal Government to take a bold and 
pro-active role to reduce the number of firefighter fatalities 
through the adoption of national standards for safe firefighter 
operations, training, staffing, and fitness. We needn't 
recreate the wheel; the National Fire Protection Association 
has developed widely respected fire safety codes and standards 
using an open consensus-based development process. Similarly, 
Project 25 provides for common system standards to achieve 
interoperability. USFA should make it part of its core mission 
to ensure every fire department in America complies with 
national fire safety standards, and we should use the programs 
and resources of the Federal Government to help achieve this 
goal.
    In closing, on behalf of the IAFF, I appreciate the 
opportunity to testify on the future of the U.S. Fire 
Administration. As you continue working to reauthorize USFA, we 
urge you to consider enhancing its programs and services to 
meet the needs of the modern fire service, including an 
increased emphasis on EMS, hazmat, WMD response. Furthermore, 
we hope the Committee will give serious consideration to novel 
ways by which USFA may help reduce the number of firefighter 
deaths, including advocating for the adoption of and compliance 
with national standards for safe firefighting. I thank the 
Committee and look forward to your questions.
    [The prepared statement of Mr. Livingston follows:]

                Prepared Statement of Robert Livingston

    Thank you Chairman Wu, Ranking Member Gingrey, and distinguished 
Members of the Committee for the opportunity to testify before you 
today. My name is Bob Livingston. I serve as a Captain in the Salem, 
Oregon Fire Department, and I am also a proud member of the 
International Association of Fire Fighters (IAFF). I am pleased to 
appear before you today on behalf of IAFF General President Harold 
Schaitberger and the more than quarter million full-time emergency 
response personnel who comprise our organization.
    Protecting over 85 percent of the Nation's population, America's 
professional firefighters and emergency medical personnel are on the 
front lines every day working tirelessly to save lives and protect the 
public safety. Whether responding to everyday emergencies or large-
scale disasters, be it massive flooding in the Gulf Coast, a terrorist 
attack in New York, a vehicle crash in Cleveland, a hazardous chemical 
release in North Carolina, or a residential fire in Salem, the men and 
women of the IAFF are first to arrive on the scene and the last to 
leave.
    Our members' dedication is matched only by the technical expertise 
they bring to their mission. Today's professional firefighter is an 
all-purpose emergency responder trained in such specialized disciplines 
as emergency medical care, hazardous/WMD materials response and high-
angle, confined space and water rescue.
    The days of firefighters whose primary function was to ``put the 
wet stuff on the red stuff'' are long gone. The men and women of the 
21st Century fire service have evolved into highly-trained, highly 
skilled all-purpose emergency responders with broad responsibilities.
    It is from this unique perspective as America's frontline domestic 
defenders that we view the mission, activities and services of the 
United States Fire Administration (USFA).
    Originally created to ensure a federal focus on the national fire 
problem described in the original America Burning report, Congress 
tasked the USFA with reducing the incidence of death, injury and 
property loss from fire through public education, data collection, 
research and training. But as firefighters have expanded their duties, 
responsibilities, and capabilities to meet the needs of their 
communities and their citizens, so too must USFA evolve to meet the 
needs of the 21st Century fire service.

New Roles, New Responsibilities

    Traditionally focused on the fire control and fire prevention 
duties inherent to firefighting, the USFA of the 21st Century must 
evolve to embrace and support the fire service's role in EMS and hazmat 
response.
    Pre-hospital 9-1-1 emergency response has, in recent years, become 
a principal duty of the fire service such that today, the fire service 
has become the first medical responder for critical illness and injury 
in virtually every community in America. According to a recent survey 
of the 200 largest cities in the United States, 97 percent of such 
cities deliver pre-hospital 9-1-1 emergency medical response through 
the fire service. Additionally, the fire service provides advanced life 
support response and care in 90 percent of the thirty most populous 
U.S. jurisdictions.
    The prevalence of fire-based EMS throughout the United States 
requires that the Fire Administration fully integrate EMS training and 
preparedness into its mission. USFA must continue to offer advanced EMS 
training to emergency responders as well as working to assist 
responders in preparing for a mass casualty event, such as pandemics 
and other disasters.
    While we are confident that USFA appreciates the importance of 
expanding its work in the EMS arena, we remain concerned that these 
efforts are not widely recognized. Organizations and policy-makers 
concerned about EMS issues have long bemoaned the absence of a ``home'' 
in the Federal Government for EMS, and they have advocated creation of 
a new entity modeled on the USFA but devoted to EMS issues. While we 
believe any such entity would be duplicative and counterproductive, we 
nevertheless acknowledge that there is a perception that USFA is not 
adequately focused on EMS. We therefore recommend that USFA increase 
its efforts to educate the EMS community about its work in this 
important area. And we further call on USFA to educate others in the 
Federal Government of the critical importance and merit of fire-based 
EMS.
    Similarly, while America's firefighters had always been the de-
facto first responders to hazardous materials incidents, the 
skyrocketing number and increasingly dangerous nature of such incidents 
in recent years has elevated the importance of hazmat training and 
preparedness within the fire service. According to the National Fire 
Protection Association, each year, fire departments receive 354,000 
calls related to hazardous materials emergency response. Furthermore, 
as more and more chemicals become part of our daily lives and as the 
transport of hazardous materials continues to grow, the complexity and 
dangers of hazmat emergency response have multiplied.
    Not only has the presence of hazardous materials in our communities 
increased dramatically, but the current and ominous threat of terrorism 
looms large for our nation's firefighters. The possibility that 
terrorists will target shipments of hazardous materials or seek to use 
other weapons of mass destruction on U.S. soil, such as biological or 
chemical weapons, is very real. Faced with this reality, it is more 
important than ever that USFA work to ensure that our nation's 
emergency responders are properly trained and fully prepared to respond 
to incidents involving hazardous materials, including weapons of mass 
destruction.

Enhanced Education Delivery

    The United States Fire Administration and the U.S. Fire Academy 
have successfully and effectively helped to further the professional 
development of the fire service through current training and 
educational programs. As many firefighters and emergency medical 
personnel are unable to attend on-campus programs, the Academy has 
rightly moved to offer distance learning and locally sponsored delivery 
through the various State fire training programs.
    To expand the Academy's reach and help achieve the goal of 
professional development among America's firefighters, the USFA should 
expand their remote training and education programs. The federally-
funded training programs currently offered by the IAFF provide an 
excellent model for the sort of delivery system USFA could utilize 
towards this end. Using a cadre of instructors who are both certified 
fire service instructors and certified hazmat responders, the IAFF 
offers real-world training in hazardous materials response that few 
institutions can match. We are able to take the training into 
communities and tailor the presentations to address the unique concerns 
of each fire department. Furthermore, a recent analysis by the National 
Institute of Environmental Health Sciences found that the IAFF program 
was the most cost-effective method of live training.
    By partnering with organizations and institutions that have 
established effective local delivery systems, such as the IAFF, to 
offer National Fire Academy courses to those firefighters for whom 
traveling to Emmitsburg is impractical or impossible, USFA could easily 
and efficiently increase the number of firefighters to benefit from its 
training programs.

An Advocate for the Fire Services

    In addition to strengthening its own work in support of the fire 
service, we believe USFA has a role to play in promoting the fire 
service throughout the Federal Government. There are literally dozens 
of federally agencies that administer programs and provide funding that 
impact the fire service, but too often these agencies have little 
background or knowledge about who we are and what we do. We therefore 
urge USFA to enhance its role as an advocate for the fire service with 
its sister federal agencies, especially within DHS.
    USFA already has an excellent relationship with the Office of 
Grants and Training. The two agencies work cooperatively administering 
FIRE and SAFER grants to local fire departments. USFA should build upon 
these kinds of established relationships and establish new 
relationships to continue acting as an advocate for the fire service 
and the expertise we can bring to bear within DHS and throughout the 
Federal Government.

Protecting Fire Fighter Safety and Health

    In addition to enhancing its many ongoing worthwhile projects, we 
believe there is one significant new initiative that USFA should 
undertake. Since its inception in 1974, the U.S. Fire Administration 
has helped reduce both the number of fires as well as the number of 
civilian deaths and injuries from fire. Unfortunately, far less 
progress has been made reducing the number of line-of-duty deaths and 
injuries among firefighters. The annual number of deaths has hovered 
between 100 and 120 for many years. Given the advances in firefighting 
science and technology, including advances in personal protective 
equipment as well as a better understanding of the importance of safe 
firefighting operations and firefighter fitness, these numbers remain 
far too high and are completely unacceptable.
    The problem of avoidable firefighter fatalities has been recognized 
for over thirty years, yet we as a nation continue struggling to keep 
the men and women who put their lives on the line every day safe. While 
it will never be possible to eliminate all line-of-duty deaths, we 
must, both as first responders and policy-makers, commit to 
significantly reducing the number of firefighter fatalities each year.
    We understand much of what must be done to prevent many firefighter 
deaths. Providing adequate training and proper equipment, establishing 
safe staffing levels, following safe operating procedures, ensuring the 
physical and mental health of firefighters--all of these can help 
reduce avoidable fatalities. Unfortunately, and despite the advocacy of 
USFA and government-funded nonprofit organizations, the fire service 
has been slow to adopt the many practices that would save lives and 
prevent injury. Although some firefighters and some fire departments 
have fully embraced many changes to ensure firefighter safety, the 
traditional approach to institute change within the fire service from 
the ``bottom-up'' has, to a large degree, failed.
    In my home town of Salem, Oregon, for example, we experience the 
same problems with communications inter-operability as do many 
communities across America. Simply put, radios belonging to the Salem 
Fire Department are incompatible with those belonging to the Salem 
Police Department. It is currently impossible for a police officer and 
a firefighter to communicate via portable radio. Obviously, this 
disconnect can create a very dangerous scenario for both first 
responders and the public when timely communications is of the essence. 
Fortunately, Salem has a plan to overcome its communications 
challenges, which it is working expeditiously to implement, but for 
many communities, the significant challenge of public safety 
communications remains.
    It doesn't have to be this way. The time has come for the Federal 
Government to take a bold and proactive role in reducing the number of 
firefighter fatalities and injuries. The number one recommendation I 
can make to achieve this goal is the adoption of national standards for 
safe firefighter operations, training, staffing and fitness.
    The good news is we needn't recreate the wheel to accomplish this 
goal. The National Fire Protection Association, represented here today 
by Doctor Hall, has developed over three hundred consensus codes and 
standards relating to fire safety, including but not limited to 
standards for safe firefighter staffing, training, and operations. 
Using an open, consensus-based development process, the NFPA and NFPA 
standards are widely respected throughout the fire service, as well as 
the Federal Government and private sector. Similarly, via Project 25, 
organizations representing public safety and the communications 
industry have established common system standards for public safety 
radio communications, compliance with which would go a long way towards 
addressing many of our nation's inter-operability problems.
    USFA should make it part of its core mission to ensure every fire 
department in America complies with fire safety standards. We call on 
USFA to examine how the Federal Government can use its programs and 
resources to promote adherence to such standards throughout the Nation. 
Some of the ways this might be accomplished include requiring fire 
departments to commit to national consensus standards in order to 
participate in federal programs or receive federal assistance. The 
Federal Government has vast resources at its disposal to encourage 
change, and we believe the full force of these resources must be 
brought to bear on the goal of reducing firefighter deaths and 
injuries.
    In addition to promoting compliance with national fire safety 
standards, more dollars must be invested in fire research and 
technology. The advances achieved from federal research sponsored by 
USFA, NIOSH, and other agencies have resulted in dramatically improved 
equipment and technology that no doubt will have a positive impact on 
firefighter safety.
    And, current efforts within USFA and the Congress to improve the 
accuracy of data collected by the National Fire Information Recording 
System (NFIRS) will help assure a more complete picture of equipment 
and technology needs. The IAFF strongly supports full funding of the 
NFIRS enhancement project. By providing more accurate, real-time 
information, the improved data collected as a result of the NFIRS 
reform project will better inform USFA-sponsored research efforts as 
well as identify additional fire and fire safety trends.

Conclusion

    On behalf of the IAFF, I appreciate the opportunity to offer our 
perspective on the future of the U.S. Fire Administration. As you 
continue working to reauthorize the U.S. Fire Administration, we urge 
you to consider enhancing the Administration's programs and services to 
meet the 21st Century needs of the modern fire service, including an 
increased emphasis on EMS and hazmat/WMD response. Furthermore, we hope 
the Committee will give serious consideration to novel ways by which 
the Administration may help reduce the number of firefighter deaths and 
injuries, including advocating for the adoption of and compliance with 
national standards for safe firefighting at all levels of government. I 
welcome the opportunity to work with the Committee to this end.
    Again, I would like to thank the Committee for its attention and I 
would be happy to answer any questions you may have.

                    Biography for Robert Livingston

    Bob Livingston is working on his 15th year with the Salem Fire 
Department having served in the capacity as firefighter/paramedic and 
apparatus operator. He is currently a Captain assigned to Station 1 
serving the downtown area of Salem--Oregon's Capital city.
    Captain Livingston has an Associate's degree in emergency medical 
services and a Bachelor's degree in Public Administration from San 
Diego State University (1990) where he also played four years of 
intercollegiate baseball for the Aztecs. While employed with the Salem 
Fire Department, Captain Livingston also earned a Master's degree in 
Public Administration from Portland State University (2001) with an 
emphasis in labor management relations.
    Along with his higher education degrees, Mr. Livingston is 
certified as an Oregon paramedic, has received instruction as an 
Incident Safety Officer, NIMS, technical rescue disciplines such as 
rope and confined space rescue, hazardous materials at the operations 
level, and has also served as an instructor and speaker at the annual 
IAFF EMS conference on the handling of public/private partnerships for 
ambulance transport.
    Bob has served on Oregon's Board on Public Safety Standards and 
Training (BPSST) which oversees the training and standardization of 
Oregon's public safety officers including police, corrections, and 
firefighters in the State of Oregon. During his tenure on the board, 
Bob also served as the Chair of the Fire Policy Committee and was also 
a member of the Executive Board of BPSST.
    For the past 12 years Bob has served as the Legislative Director 
for the Oregon State Fire Fighters Council (OSFFC) advocating for the 
frontline professional firefighters of Oregon at the State and federal 
level. The OSFFC is the State affiliate to the IAFF and its 281,000 
members represented by General President Harold Schaitberger.
    Bob has been married for 17 years to his wife Suzette and has two 
children--Kaitlin, 14 and a freshman at South Salem High School, and a 
son Nick, a 7th grader at Leslie Middle School in Salem. A native of 
Oregon, prior to being employed by the Salem Fire Department, Bob grew 
up in a Southern Oregon logging town and worked both in the lumber 
industry and a working cattle ranch.

    Chairman Wu. Thank you very much, Captain Livingston. Chief 
Henderson, please proceed.

STATEMENT OF MR. GORDON HENDERSON, DEPUTY CHIEF OF OPERATIONS, 
   ROME-FLOYD COUNTY FIRE DEPARTMENT; PAST PRESIDENT OF THE 
GEORGIA STATE FIREFIGHTERS ASSOCIATION, NATIONAL VOLUNTEER FIRE 
                            COUNCIL

    Mr. Henderson. Chairman Wu, Dr. Gingrey, and Members of the 
Subcommittee, the National Volunteer Fire Council (NVFC) 
appreciates the opportunity to be here today to express our 
views and experiences regarding the United States Fire 
Administration (USFA) and the National Fire Academy (NFA).
    As Dr. Gingrey mentioned earlier, I am a Past President of 
the Georgia Firefighters' Association. The Georgia State 
Firefighters' Association is a member of the National Volunteer 
Fire Council which represents the interests of the Nation's 
approximately one million volunteer firefighters and emergency 
medical personnel who staff more than 30,000 fire and EMS 
agencies nationwide.
    Over the years, the roles associated with fire and 
emergency services have greatly expanded. Gone are the days 
when our primary responsibilities were putting wet stuff on the 
red stuff to make black stuff, in other words, putting out 
fires or transporting patients to the hospital. Fire and 
emergency services personnel now routinely deal with hazardous 
materials, provide emergency medical care, and perform search 
and rescue in a wide range of situations. We are the first 
responders to dumpster fires, automobile accidents, structure 
fires, wildland fires, medical emergencies, natural disasters, 
and yes, even terrorist attacks, and much more.
    The USFA and NFA play a critical role in educating and 
training fire, rescue and emergency personnel throughout the 
United States. As fire and emergency services have been asked 
to do and the USFA has expanded its course offerings, the USFA 
currently offers courses in arson, communications, critical 
infrastructure protection, emergency medical services and 
rescue, fire prevention and planning, fire service 
administration, firefighter health and safety, hazardous 
materials, incident management, operations and tactics, 
professional development, terrorism, wildfire and youth/
juvenile firesetter intervention.
    In recognition of the wide range of activities that the 
fire and emergency services perform, as well as the extensive 
course offerings that the USFA already provides, the National 
Volunteer Fire Council is pleased to see that the draft 
reauthorizing language would expand the types of activities 
that the USFA is explicitly authorized to train fire service 
personnel in to include dealing with fires occurring in the 
wildland/urban interface, incidents involving hazardous 
materials, and advanced EMS. These are each core aspects of 
fire and emergency service provision and deserve the 
recognition as such.
    With today's requirements for emergency personnel to 
perform such a wide range of duties, they are also required to 
spend more time training. For volunteers who work a full-time 
job and train on nights and weekends, increases in training 
times are particularly burdensome. The most visible and direct 
benefit that the USFA provides to the volunteer fire service is 
the hosting of the Volunteer Incentive Program at the National 
Fire Academy, which combines two weeks' worth of course work 
into an intensive six-day session. The compressed course 
schedule is essential for many volunteers who cannot take two 
weeks off to attend classes and the course topics are geared 
specifically toward addressing challenges faced in many 
volunteer agencies. I have listed those in the testimony. I 
won't read those because of time.
    In addition to the training provided on-site at NFA, the 
USFA delivers training directly to local jurisdictions, either 
through online tutorials or by providing states with NFA-
developed training and educational materials to make available 
to local emergency responders. This allows USFA to reach a 
greater number of firefighters at a relatively low cost. The 
National Volunteer Fire Council is pleased to see that the 
draft authorizing language would specifically allow USFA to 
implement a train the trainer program, which goes beyond simply 
training first responders but teaches them to deliver the 
training to others.
    The USFA collects, analyzes and disseminates data and 
information on fires and other emergency incidents to 
stakeholders and members of the public. Using this information, 
decision-makers can make better-informed decisions on policies 
and strategies to pursue with the end result being reduced 
fire-related loss of life and property.
    One of the data collection programs maintained by the USFA 
is the National Fire Incident Reporting System, NFIRS. This is 
the standard national reporting system used by U.S. fire 
departments to report information on fires and other incidents 
to which they respond. NFIRS is supposed to allow the USFA to 
maintain records of incidents in a uniform manner and develop 
statistics from that data.
    While NFIRS is useful in its current capacity, it needs to 
be updated so that reporting can be done online as well as in 
written form. Currently, data reported using NFIRS software can 
take more than a year to reach the USFA if it reaches at all. 
Some fire departments purchase their own software to keep track 
of and record incident data to USFA rather than using NFIRS. 
USFA should develop a web-based reporting system that would 
allow information to flow more quickly, to the states and the 
USFA. The National Volunteer Fire Council is pleased that the 
authorizing bill addresses this issue.
    The National Volunteer Fire Council would also like to see 
the authorizing bill establish some type of link between NFIRS 
and the National Emergency Medical Services Information System 
which is maintained by the National Highway Transportation 
Safety Administration, and it collects data about incidents 
that occur during EMS responses. Because the fire service 
handles so many EMS calls, the National Volunteer Fire Council 
believes that the USFA and NTSA should cooperate to make sure 
that their respective systems are capturing data that is as 
accurate and useful as possible.
    In closing, the National Volunteer Fire Council 
respectfully requests that the USFA be reauthorized and that 
funding be placed at a level that will allow the USFA to 
continue, improve, and increase the programs offered to the 
fire service and other emergency services. We support the 
funding level as specified in the draft authorizing language 
and hope that they will not only be passed into law but fully 
funded in future appropriations legislation. Thank you.
    [The prepared statement of Mr. Henderson follows:]

                 Prepared Statement of Gordon Henderson

    Mr. Chairman and Members of the Subcommittee, the National 
Volunteer Fire Council (NVFC) appreciates the opportunity to be here 
today to express our views and experiences regarding the United States 
Fire Administration (USFA) and the National Fire Academy (NFA).
    My name is Gordon Henderson and it is an honor and a pleasure to 
appear before you today. I have been in the fire service for 32 years. 
Currently, I am the Deputy Chief of Operations in the Rome-Floyd County 
Fire Department in the State of Georgia. I serve as the Chairperson of 
the Georgia Firefighters and Fire Chiefs Joint Legislative Committee. I 
am a principle member of the National Fire Protection Association 
(NFPA) 1001 National Professional Qualifications for Firefighters 
Committee and also serve as the secretary. I am a Past President of the 
Georgia State Firefighters Association (GSFA) and the GSFA is a member 
of the NVFC, which represents the interests of the Nation's 
approximately 1,000,000 volunteer fire and emergency medical personnel 
who staff more than 30,000 fire and EMS agencies nationwide.
    Over the years, the roles associated with the fire and emergency 
services have greatly expanded. Gone are the days when our primary 
responsibilities were ``putting the wet stuff on the red stuff to make 
black stuff'' in other words putting out fires or transporting patients 
to the hospital. Fire and emergency services personnel now routinely 
deal with hazardous materials spills, provide emergency medical care, 
and perform search and rescue in a wide range of situations. We are the 
first responders to dumpster fires, automobile accidents, structure 
fires, wildland fires, medical emergencies, natural disasters, and 
yes--even terrorist attacks and much more.
    The USFA and NFA play a critical role in educating and training 
fire, rescue and emergency personnel throughout the United States. As 
the fire and emergency services have been asked to do more, the USFA 
has expanded its course offerings. The USFA currently offers courses in 
arson, communications, critical infrastructure protection, emergency 
medical services/rescue, fire prevention and planning, fire service 
administration, firefighter health and safety, hazardous materials, 
incident management, operations and tactics, professional development, 
terrorism, wildfire and youth/juvenile firesetter intervention.
    In recognition of the wide range of activities that the fire and 
emergency services perform, as well as the extensive course offerings 
that the USFA already provides, the NVFC is pleased to see that the 
draft reauthorizing language would expand the types of activities that 
the USFA is explicitly authorized to train fire service personnel in to 
include dealing with fires occurring in the wildland/urban interface, 
incidents involving hazardous materials and advanced EMS. These are 
each core aspects of fire and emergency service provision and deserve 
to be recognized as such.
    With today's requirements for emergency personnel to perform such a 
wide range of duties, they are also required to spend more time 
training. For volunteers who work a full-time job and train on nights 
and weekends, increases in training times are particularly burdensome. 
The most visible and direct benefit that the USFA provides to the 
volunteer fire service is the hosting of the Volunteer Incentive 
Program (VIP) at the NFA, which combines two weeks' worth of course 
work into an intensive six-day session. The compressed course schedule 
is essential for many volunteers who cannot take two weeks off to 
attend classes and the course topics are geared specifically toward 
addressing challenges faced in many volunteer agencies. Topics of the 
course include:

        <bullet>  Command and Control of Fire Department Operations at 
        Target Hazards

        <bullet>  Challenges for Local Training Officers

        <bullet>  Command and Control of Incident Operations

        <bullet>  Community Education Leadership

        <bullet>  Fire Cause Determination for Company Officers

        <bullet>  Fire Protection Systems for Incident Commanders

        <bullet>  Leadership and Administration

        <bullet>  Advanced Safety Operations and Management

        <bullet>  Leading Community Fire Prevention

        <bullet>  Management Strategies for Success

        <bullet>  Presenting Effective Public Education Programs

        <bullet>  Command and General Staff Functions in the Incident 
        Command System

        <bullet>  Juvenile Firesetter Intervention Specialist I & II 
        Leadership

    In addition to the training provided on-site at NFA, the USFA 
delivers training directly to local jurisdictions, either through 
online tutorials or by providing states with NFA-developed training and 
educational materials to be made available to local emergency 
responders. This allows USFA to reach a greater number of firefighters 
at a relatively low cost. The NVFC is pleased to see that the draft 
authorizing language would specifically allow USFA to implement a 
``train the trainer'' program, which goes beyond simply training first 
responders but teaches them to deliver that training to others.
    The USFA collects, analyzes and disseminates data and information 
on fires and other emergency incidents to stakeholders and members of 
the public. Using this information, decision-makers can make better-
informed decisions on policies and strategies to pursue with the end 
result being reduced fire-related loss of life and property.
    One of the data collection programs maintained by the USFA is the 
National Fire Incident Reporting System (NFIRS), this is the standard 
national reporting system used by U.S. fire departments to report 
information on fires and other incidents to which they respond. NFIRS 
is supposed to allow the USFA to maintain records of incidents in a 
uniform manner and develop statistics from that data.
    While NFIRS is useful in its current capacity, it needs to be 
updated so that reporting can be done online as well as in written 
form. Currently, data that is reported using NFIRS software can take 
more than a year to reach the USFA if it reaches at all. Some fire 
departments purchase their own software to keep track of and report 
incident data to USFA rather than using NFIRS. USFA should develop a 
web-based reporting system that would allow information to flow more 
quickly--to states and the USFA. The NVFC is pleased that the 
authorizing bill addresses this issue.
    The NVFC would also like to see the authorizing bill establish some 
type of link between NFIRS and the National Emergency Medical Services 
Information System (NEMSIS). NEMSIS, which is maintained by the 
National Highway Transportation Safety Administration (NHTSA), collects 
data about incidents that occur during EMS responses. Because the fire 
service handles so many EMS calls, the NVFC believes that the USFA and 
NHTSA should cooperate to make sure that their respective systems are 
capturing data that is as accurate and useful as possible.
    A major area of concern for the NVFC is that the number of 
volunteer firefighters in the U.S. is decreasing. According to a 
National Fire Protection Association (NFPA) study, between 1983 and 
1988, the number of volunteer firefighters in the country has gone from 
close to 900,000 to approximately 800,000. Since 1988, the number of 
volunteers has fluctuated up and down but remained close to 800,000. 
Over that same period of time, the number of volunteer firefighters per 
person in this country has declined by 26.7 percent.
    In addition to the declining numbers, the average age of volunteer 
firefighters is increasing. In 1987, 63.2 percent of the firefighters 
serving in communities of less than 2,500--almost all volunteers--were 
under the age of 39. In 2005, the percentage was down to 51.7 percent 
under the age of 39. The ages of firefighters serving communities with 
populations of 24,999 or less, which are also mostly volunteers, have 
shifted in a similar fashion.
    To improve staffing at volunteer public safety agencies, the USFA 
recently partnered with the NVFC to develop ``Recruitment and Retention 
for the Volunteer Emergency Services,'' a 237-page guide that 
identifies more than 30 specific challenges to recruiting and retaining 
volunteers and offers multiple suggestions on how to overcome each of 
them. The USFA has sponsored recruitment and retention workshops around 
the country based on the information contained in the guide. The NVFC 
and the USFA recently agreed to work together to create a video 
companion to the guide that will be made available to the public.
    Mr. Chairman, in my invitation to testify here today you 
specifically requested information about the challenges facing rural 
volunteer fire departments in reaching out to their communities to 
teach fire prevention and fire safety education. Teaching fire 
prevention and fire safety education is one of many non-emergency 
functions that volunteer fire departments perform. Each of these 
functions requires additional volunteer hours, which places stress on 
the membership of a volunteer fire department. One strategy for 
combating this is using retired volunteer firefighters who no longer 
respond to emergencies, or community members who are not trained as 
firefighters, to perform these tasks.
    A great example of this is the Johnson County Rural Fire District 
#1 in Clarksville, Arkansas, partnering with students from the local 
University of the Ozarks' Phi Beta Lambda organization. The partnership 
was established in 2005 and today over 100 students assist this small 
rural department with their fire safety education programs. With the 
help of the department's firefighters and non-operational volunteers, 
the Johnson County RFD #1 increased the hours of its fire safety 
education programs from approximately 100 hours per year before 2005 to 
8,600 hours in 2006. Since the inception of its Fire Corps program, the 
group's efforts have reached nearly one million people on the local, 
State, and national levels with their important fire safety messages. 
Through these efforts, this small department has affected a dramatic 34 
percent decrease in fire-related property loss. . .all at little to no 
cost to the department.
    The Johnson County RFD #1 program was actually established through 
a program called Fire Corps, which is part of the Department of 
Homeland Security's Citizen Corps program and is administered jointly 
by the NVFC and the International Association of Fire Chiefs. Fire 
Corps provides career, combination and volunteer fire departments with 
resources to help attract community members to serve the fire 
department in nonoperational roles. The USFA participates in meetings 
of the Fire Corps National Advisory Committee, made up of 15 non-
governmental organizations representing different constituencies within 
the fire service. The USFA also helps promote Fire Corps at fire 
service trade shows and at NFA.
    In closing, the NVFC respectfully requests that USFA be 
reauthorized and that funding be placed at a level that will allow the 
USFA to continue, improve, and increase the programs offered to the 
fire service and other emergency services. We support the funding 
levels specified in the draft authorizing language and hopes that they 
will not only be passed into law but fully funded in future 
appropriations legislation.
    Once again, thank you again for the opportunity to speak to you 
today. If there are questions from the Committee, I will be glad to 
respond to them at this time.

                     Biography for Gordon Henderson

Deputy Chief of Operations, Rome Fire Department, Rome, Georgia

Married--Dawn, two children, two grandchildren

Memberships:

International Association of Fire Chiefs

Southeastern Association of Fire Chiefs

Georgia Association of Fire Chiefs

District Vice President of the Georgia Association of Fire Chief

Georgia State Firefighters Association

Past President of the Georgia State Firefighters Association

Chair of the Georgia State Firefighters Association/Georgia Fire Chiefs 
        Association Joint Legislative Committee

Member and secretary of the NFPA 1001 National Professional 
        Qualifications for Firefighters Committee

BS in Business Administration with HRM concentration

Candidate for MBA with concentration in Public Administration

    Chairman Wu. Thank you very much, Chief. Dr. Hall, please 
proceed.

 STATEMENT OF DR. JOHN R. HALL, JR., ASSISTANT VICE PRESIDENT, 
     FIRE ANALYSIS AND RESEARCH, NATIONAL FIRE PROTECTION 
                          ASSOCIATION

    Dr. Hall. Chairman Wu, Dr. Gingrey, and other Subcommittee 
Members, the National Fire Protection Association and I greatly 
appreciate the opportunity to speak to you in support of 
reauthorization of the U.S. Fire Administration.
    The USFA has funded and conducted over the years defining 
research projects on a full range of fire prevention and 
mitigation technologies. They have also partnered on research 
to improve the technologies that first responders use to do 
their jobs safely and effectively. For example, the USFA has 
worked closely with NIST on computer analysis of fires where 
firefighters die leading to new training tools and changes in 
firefighting tactics and procedures.
    NFPA is America's principal source for national voluntary 
consensus codes and standards related to both fire safety and 
the fire service. Our standards use a true consensus approach 
with a balance of interests to address a broad range of topics 
such as professional qualifications and performance testing, 
maintenance, and operation standards for protective and 
firefighting equipment. Over 400 Federal Government staff 
including USFA and NIST, participate in the NFPA standards 
development process, and our documents have benefited greatly 
from USFA and NIST expertise. NFPA agrees with the legislation 
that development and enhancement of national voluntary 
consensus standards is important to the USFA mission. We 
welcome this recognition of the importance of standards in 
translating the latest scientific research into practice.
    NFPA conducts some research itself, and we established the 
Fire Protection Research Foundation as an independent entity to 
partner funders with researchers on projects relevant to our 
mission. NIST has provided researchers and the USFA has 
provided funding for Research Foundation projects. Research has 
brought us closer to understanding some of the technical 
controversies surrounding home smoke alarms, fire sprinklers, 
sensors for detection of incipient fire conditions, innovative 
high performance materials, and the list goes on and on. But 
despite these controversies, decisions must still be made. At 
any given time, best judgments must be used when definitive 
technical answers might be no more than one well-designed 
project away. Best practices must be based on existing 
technology because promising new technologies lack independent 
testing and evaluation.
    In 2006, the USFA and NFPA partnered on a Second Fire 
Service Needs Assessment, and it found improvement on some 
measures of aggregate and national need. For example, the 
percentage of departments with portable radios to equip 
everyone on a shift rose from 23 percent to 36 percent. The 
percentage of departments with self-contained breathing 
apparatus for all emergency responders rose from 30 percent to 
40 percent. The percentage of departments with personal alert 
safety system devices for all emergency responders on a shift 
rose from 38 percent to 52 percent, and the percentage of 
departments with written agreements to coordinate use of 
outside personnel and equipment rose from 19 percent to 26 
percent for a building collapse and from 21 percent to 30 
percent for a biological chemical agent scenario.
    Some were surprised that the improvements were not more 
dramatic and did not extend to more types of resources. We were 
not because we knew that a grant program funded at about $500 
million a year could not expect to rapidly transform a set of 
fire service needs collectively estimated to cost many tens of 
billions of dollars. We suggest that Congress use our needs 
assessment as a tool for priority setting.
    In my real job back home, I am head of the group that 
produces and analyzes fire statistics; so the one database that 
is most important to make my work at NFPA more effective and 
planning for the USFA more strategic is NFIRS. For three 
decades, NFIRS has been essential in defining our national fire 
problem. Despite its great value, NFIRS has been subject to 
criticism--this year on timeliness. I believe web-based 
reporting can be a valuable enhancement, but we need to 
understand what it can and cannot do. NFIRS is a sample of 
fires responded to by fire department. Valid analysis depends 
on use of a representative sample of sufficient size. Currently 
the full NFIRS sample is large enough that representativeness 
is usually not a problem. However, if data were analyzed year 
to date, there would be less data and less representative data 
because of differences in speed of reporting by community, 
size, and region. Also, NFIRS' quality depends on editing at 
the local, State, and national levels. Requiring web-based, 
real-time reporting could discourage or eliminate some or all 
of this editing. I urge the Subcommittee to give the USFA 
professionals the funding to expand the system but also the 
flexibility to fill in the details.
    I think I speak not only for NFPA but for all the fire 
safety community in saying we need a strong USFA, a USFA that 
does the things it does better than anyone else and makes it 
easy for everyone else to do what they do best. We agree that 
the reauthorization bill should reinforce the range of 
technologies that are appropriate to the USFA mission but 
resist the temptation to direct the application of resources 
among these technologies.
    We trust the new leader of the USFA, Chief Gregory Cade, 
and the USFA professionals to make the best choices; and on 
that basis, the NFPA strongly and enthusiastically supports the 
reauthorization of the U.S. Fire Administration. Thank you, 
sir.
    [The prepared statement of Dr. Hall follows:]

                Prepared Statement of John R. Hall, Jr.

    Good morning. I am Dr. John Hall, Assistant Vice President for Fire 
Analysis and Research at the National Fire Protection Association 
(NFPA). Mr. Chairman, fellow Subcommittee Members, NFPA and I greatly 
appreciate the opportunity to speak to you today in support of the 
reauthorization of the U.S. Fire Administration (USFA).
    Before I address the main questions in this hearing, I would like 
to look at the record of the USFA over its more than three decades. 
Year in and year out, the USFA demonstrates high professional skill, 
strategic vision, the ability to set priorities, and a sustained 
dedication to its unique dual role of the leader of Federal Government 
fire safety and fire service programs and leader/supporter of America's 
fire and emergency services, in all the great work they do. NFPA looks 
forward to continuing our long and productive partnership with the USFA 
and in particular to working closely with the newest U.S. Fire 
Administrator, Chief Gregory Cade.

1.  NFPA's Current Priorities for and Perspective on USFA and Fire 
Technology Related Research and Development

    NFPA is America's principal private non-profit fire safety advocacy 
organization. As such, our interests in research and development are 
driven by the needs of programs that will maintain or improve safety 
from unwanted fire and other hazards and that will help America's first 
responders to safely and effectively perform their roles of protecting 
the rest of us.
    Fire safety programs may operate principally through innovative 
technology, supported by consensus codes and standards, or through 
behavior change, achieved by education of ordinary people and training 
of professionals.
    In terms of technologies for greater fire safety, NFPA is a strong 
advocate of the proven value and future potential of smoke alarms and 
fire sprinklers, as well as design changes to powered equipment and 
other heat sources, changes in the fire performance of materials and 
products, and changes in the knowledge and behaviors of people.
    In its first decade, the USFA provided strong leadership in 
funding, defining and applying research to create a form of fire 
sprinkler protection that made engineering and economic sense for 
individual housing units. More recently, the USFA has continued to look 
for additional innovations and approaches that will bring this life-
saving technology to more homes.
    In the early years of America's interest in smoke alarms, the USFA 
provided leadership in measuring the beliefs and values of American 
heads of households, and in so doing, helped to accelerate the process 
of placing smoke alarms in nearly every home. More recently, the USFA 
and many other agencies and organizations have focused on taking smoke 
alarms to the millions of mostly high-risk homes that still do not have 
this protection.
    The USFA has also funded research by NFPA to help identify 
innovative solutions to

        <bullet>  smoker behaviors that influence cigarette fires, 
        still the #1 cause of fire deaths in the U.S.;

        <bullet>  cooking equipment and cooking behaviors, still the #1 
        cause of home fires and related injuries in the U.S.;

        <bullet>  and the variety of circumstances that make the fire 
        problem of rural America distinctive, where rural communities 
        still have the highest fire death rates relative to population 
        in the U.S.

    On the fire service research side, the USFA has worked closely with 
the National Institute for Standards and Technology (NIST) to support 
advanced computer analysis of fires where firefighters are fatally 
injured. These studies have led to sophisticated new simulation and 
training tools, as well as an understanding of rare but unusually 
dangerous fire phenomena and changes in firefighting tactics and 
procedures.
    The USFA has also partnered on research on most of the technologies 
that firefighters and other first responders use to do their job safely 
and effectively, such as:

        <bullet>  portable radios, where inter-operability continues to 
        handicap firefighting in the largest incidents;

        <bullet>  personal alert safety systems, where questions have 
        arisen recently about equipment performance in severe fire 
        conditions;

        <bullet>  self-contained breathing apparatus and personal 
        protective clothing, where protection from the many threats 
        associated with fire must be balanced with the needs of the 
        body to take in oxygen and get rid of heat.

    These are only examples of technologies that deserve high priority 
because they offer especially great promise of significant improvement 
in fire prevention, fire mitigation, firefighting effectiveness, or 
firefighter health and safety. In every instance, the USFA has shown 
leadership in setting priorities, putting high-quality projects in 
motion, and partnering with many agencies and organizations to 
accomplish shared goals.
    Your draft reauthorization bill addresses the subjects of applied 
research and technology in what I believe is the most appropriate 
manner for an agency with a proven track record of good judgment and 
important results. You have reinforced the range of technologies, 
including detection, prevention, suppression, and department 
operations, that are appropriate to the USFA mission, but you have 
resisted the temptation to substitute the judgment of Congress for the 
judgment of the USFA professionals in allocating resources among these 
technologies. You have underscored the importance of coordination and 
partnership with other national entities and listed many of the federal 
agencies best equipped to serve as partners.
    But you have resisted the temptation to steer the USFA toward any 
particular agency or to favor governmental partners over private 
partners. You have shown an awareness of the major elements of the 
problem and its solutions, while also showing your trust and confidence 
in the USFA professionals to make the best choices.

2.  Please describe NFPA's role in setting standards and codes for 
firefighting technology. How does NFPA engage with USFA and NIST in the 
standards setting process? Does the current statute make adequate 
provisions for this process?

    NFPA is America's principal source for national voluntary consensus 
codes and standards related to fire safety and the fire service. Our 
standards and codes address such topics as:

        <bullet>  professional qualifications for firefighters, fire 
        officers, fire inspectors, fire and life safety educators, and 
        many other specialized positions and assignments within the 
        fire service;

        <bullet>  performance, testing, maintenance, and operation 
        standards for firefighter protective clothing and equipment and 
        for firefighting apparatus and equipment; and

        <bullet>  requirements for programs, such as training, 
        disaster/emergency management, business continuity, and fire 
        service occupational safety and health maintenance.

    The NFPA codes and standards development process uses a ``true 
consensus'' approach, in which technical committees are composed of a 
balance of interests, with no one interest having a majority of votes. 
For fire service related standards, we have extensive representation 
from organizations representing fire chiefs, fire marshals, fire 
investigators, firefighters, fire and life safety educators, and city 
and community managers. We value all our volunteers, including the over 
400 staff from the USFA, NIST and other federal agencies who 
participate in the NFPA process. Many of our standards have been 
greatly improved due to the special expertise brought to the committees 
by USFA and NIST staff.
    Once NFPA standards are issued, they still need to be adopted and 
enforced. Adoption decisions are made separately by individual states 
and municipalities. Some federal agencies also adopt NFPA codes and 
standards for applications under their jurisdiction.
    The USFA cannot act directly to achieve adoption of standards by 
other federal agencies, let alone by non-federal entities, but the USFA 
can improve the climate in which decisions about adoption are made by 
forcefully and visibly supporting the voluntary consensus codes and 
standards process and by putting the considerable weight of its own 
reputation and leadership in support of compliance with national fire 
service standards. The same can be said of NIST in those areas where 
its expertise is universally acknowledged.
    NFPA agrees with the draft legislation that ``development and 
enhancement of national voluntary consensus standards'' is an important 
part of the USFA mission. NFPA welcomes this recognition of the 
importance of such standards in translating the latest scientific 
research into practice.

3.  Please discuss NFPA's work in fire prevention and firefighting 
technology research. How does NFPA engage with USFA and NIST in 
research activities? What funding opportunities exist for extra-mural 
fire research, and are they adequate? Are there areas of particular 
importance that are currently neglected due to lack of resources?

    NFPA plays a fairly limited direct role in fire prevention and 
firefighting technology research. Most hands-on research done by NFPA 
staff is conducted within my division, and we concentrate primarily on 
statistical analysis and literature reviews, plus related research in 
areas such as human behavior and fire risk assessment. In that 
capacity, NFPA has conducted funded research projects for the USFA and 
NIST from the beginning.
    The Fire Protection Research Foundation is an independent entity at 
NFPA that brings together funders and researchers on projects to answer 
questions affecting NFPA codes, standards, and other programs and 
activities aimed at increasing program effectiveness or cost-
effectiveness in areas of fire safety or firefighter health and safety. 
NIST has provided lead researchers for Research Foundation projects and 
the USFA has provided funding for Research Foundation projects, 
including current projects on firefighter respiratory exposure and fire 
code inspection and compliance programs.
    Both the USFA and NIST do an excellent job of sorting through 
potential projects and supporting the ones with greatest potential. But 
research funding for fire safety science and engineering and for 
firefighter effectiveness, safety and health has been shrinking for 
many years, not only in the U.S. but around the world. This is true for 
governmental research, university research, and private-sector 
research.
    There are many technical controversies surrounding home smoke 
alarms, fire sprinklers, sensors for detection of incipient fire 
conditions involving different types of equipment, non-traditional 
detection and suppression systems, innovative high-performance 
materials, implications of energy conservation programs, implications 
for fire safety of differing international approaches to toxicity and 
environmental protection, and the list goes on. In every instance, the 
developers of codes and standards have to make decisions based in part 
on best judgments when definitive technical answers might be no more 
than one well-designed project away. In every instance, the leaders in 
fire safety and firefighter health and safety have to establish 
requirements based on the known capabilities of existing technology 
because promising new technologies lack the kind of independent testing 
and evaluation that would allow them to be widely adopted if they prove 
out and avoided if they do not.
    This nation is nowhere near the point where additional research 
dollars stop paying for themselves. More funds will yield results and 
will improve people's lives. The USFA professionals have shown their 
ability to use the funds available to them effectively and wisely.

4.  Please provide an overview of the findings in the 2006 FEMA/NFPA 
study, ``Four Years Later--A Second Needs Assessment of the U.S. Fire 
Service.'' How can Congress use the results of this study to strengthen 
the pending reauthorization legislation?

    I personally led the NFPA analysis team that conducted both fire 
service needs assessments. NFPA President Jim Shannon described the 
first needs assessment as a ``call to action.'' The needs for essential 
resources were widespread, covering every role the fire service plays 
and every type of resource, from personnel to training to equipment to 
planning.
    Because the first needs assessment took place around the 9/11 
attacks on America, particular attention was given to the findings on 
preparedness for dealing with unusually challenging events, including 
two types of terrorist attacks we had included in the survey. We 
conducted a cost analysis on our findings as input to the study of 
terrorism preparedness by the Council on Foreign Relations, and we 
found that meeting those needs alone would require tens of billions of 
dollars.
    A separate cost analysis of needs for career firefighters 
identified additional tens of billions of dollars of unmet needs to 
meet standards and guidelines related to firefighter staffing and 
coverage. That analysis was provided as support for the so-called SAFER 
bill.
    Our second needs assessment included a matching analysis of 
Assistance to Firefighter grants against the reported needs of the 
departments that had received those grants. We found a very high match 
rate, indicating that fire departments were requesting resources that 
they really needed, in order to safely and effectively perform the 
tasks their communities were asking them to perform.
    We also found some improvement on some of the measures of aggregate 
national need. For example:

        <bullet>  the percentage of departments that had enough 
        portable radios to equip everyone on a shift rose from 23 
        percent to 36 percent;

        <bullet>  the percentage of departments with enough self-
        contained breathing apparatus to equip all emergency responders 
        rose from 30 percent to 40 percent;

        <bullet>  the percentage of departments with enough personal 
        alert safety system (PASS) devices to equip all emergency 
        responders on a shift rose from 38 percent to 52 percent; and

        <bullet>  the percentage of departments with written agreements 
        to coordinate the use of outside personnel and equipment in a 
        response rose from 19% to 26% for a reference building collapse 
        scenario, from 21 percent to 30 percent for a reference 
        biological/chemical agent scenario, and from 33 percent to 40 
        percent for a reference wildland/urban interface fire scenario.

    Some were surprised that the improvements were not more dramatic 
and did not extend to more types of resources. (For example, staffing 
and training measures of need showed no dramatic improvements.) We were 
not surprised because we knew that a program funded at about a half-
billion dollars a year could not expect to rapidly transform a set of 
fire service needs estimated collectively to cost many tens of billions 
of dollars.
    We suggest that Congress use our needs assessments as tools for 
priority-setting. Priorities can be set by type of program or resource, 
where unfunded federal mandates and responsibilities that inherently 
cross jurisdictional lines would receive first priority, and priorities 
can be set by some measure of vulnerability, where larger communities 
more central to the national economy or more exposed in terms of iconic 
structures might receive first priority. But the key word here is 
``priority.'' All of the needs identified are real needs, and our 
safety will suffer--and the safety of our first responders will 
suffer--for as long as we continue with these needs unmet. But we have 
to start somewhere, and it makes good sense to look for additional ways 
to apply funds first where they will have the greatest impact.
    That having been said, it is impossible to read the needs 
assessments without concluding that the grant program needs to be 
increased in size, from a fraction of a billion dollars annually to 
some multiple of a billion dollars annually. With their strong track 
record of distributing grant funds for best effect in the early years 
of the program and with additional guidance of another look at 
priority-setting rules for even greater effect, the USFA professionals 
can be counted on to deliver high value as well as greater safety and 
effectiveness to America in any expanded program.

5.  NFIRS.

    The National Fire Incident Reporting System (NFIRS) is not the 
subject of one of the questions issued by the Subcommittee, but it is 
the subject of considerable detailed attention in the draft 
legislation. Because NFIRS is the one database that is most important 
to make my work at NFPA effective, I would be remiss if I did not offer 
some observations on the proposed plans for NFIRS.
    First, let me underscore how important NFIRS has been in defining 
our national fire problem in the three decades since its inception. 
Through its annual stratified random-sample survey of U.S. fire 
departments, NFPA has been able to define the overall size and trends 
of the fire problem, but we had not been able to say much about the 
details until the advent of NFIRS. Since then, NFIRS has been central 
to the design of every fire prevention program and debate in the U.S., 
helping to support or knock down claims of urgency for a particular 
fire problem or of effectiveness or promise for a particular solution.
    Despite its great value, NFIRS has been subject to criticism from 
the beginning. Some of the criticism has been directed at the level of 
detail. This has always been a balancing act between the reporting 
burden on firefighters and the amount of detail sought by decision-
makers. Neither side has ever been fully satisfied with the place where 
that balance has been struck, and both sides have often been vocal 
about their dissatisfactions. All too often, they have greatly 
overstated the sizes of problems and undercut the support for the NFIRS 
system itself. By trying to make it better, as they defined better, 
they risked making it go away.
    This year, the focus is on NFIRS timeliness and on the promise of 
web-based reporting. I believe web-based reporting, properly integrated 
with the existing NFIRS system, can be a valuable enhancement, but it 
is important to recognize what such reporting can and cannot do.
    Web-based reporting makes it easier to report fires. That is both 
its advantage and its disadvantage. NFIRS quality depends on editing at 
the local, State and national levels. Many missing entries, conflicts 
and errors are caught during these edits so that the final database is 
more accurate. Direct web-based reporting in real time may discourage 
or eliminate some or all of this editing or discourage the addition or 
revision of details based on late-emerging information, such as delayed 
deaths, full fire investigations, and insurance assessments.
    Whatever the effect of changes in reporting, the analysis of NFIRS 
cannot be done validly in real time. NFIRS is a sample of fires 
reported to fire departments. It is not a census or anything close to a 
census. The fact that NFIRS is a sample means that its validity depends 
on its representativeness. NFIRS is a large enough sample that issues 
of representation by region or size of community can usually be 
ignored, although recent declines in participation of the largest 
cities have severely affected our ability to track and project trends 
in high-rise building fires.
    Analysis of NFIRS data based on what has been reported to date in a 
given year means a much smaller sample and reduced representativeness, 
reflecting the fact that different sizes of communities and different 
regions are likely to differ in their speed of reporting and in their 
participation in the web-based reporting. To get valid estimates from 
NFIRS, you need to wait until a sufficient and representative group of 
participants have fully reported.
    Since 1980, most of my work has been centered around NFIRS 
analyses, and I have had the privilege of being involved in nearly 
every major national policy debate on fire safety and fire service 
effectiveness and safety in that period. In all that time, I have 
rarely seen a debate that even benefited from, let alone required, very 
current data. Management makes decisions when it needs to with the 
benefit of the information available at that time. Some information may 
not be completely current; some information may lack useful details. A 
real-time NFIRS would inject more current data with serious questions 
of quality and accuracy. That is not a prescription for improved 
decision-making.
    In those rare instances where we really could use current data, we 
usually need more detailed data than NFIRS can provide. This means we 
need a special data collection protocol, which we would need for the 
detail anyway and so might as well use to achieve the greater 
timeliness. But in so doing, we need to be constantly aware that most 
policy discussions are far better served by large quantities of valid 
data than by the latest anecdotal-quality data.
    What this means for the current draft legislation is that I urge 
the subcommittee to maintain the kind of broad and flexible guidance it 
has used in the rest of the legislation when it talks about NFIRS. By 
all means, add funds to support expanding the existing web-based 
reporting if you wish to do so, but leave the USFA professionals with 
the flexibility they need to fill in the details.

Closing Thoughts

    The USFA needs and deserves your support. The USFA needs to know 
that Congress believes in their mission and wants them to succeed. The 
USFA needs to know what you expect but not detailed requirements on how 
those expectations should be met. The USFA needs to hear that Congress 
encourages their leadership and their partnerships, but they need to 
know that Congress realizes that the USFA is already doing a great job 
on this score. Most of all, the USFA needs to hear that you recognize 
what it costs to do what you want the agency to do and that you will 
seek to align the agency's budget with its mandates.
    I think I speak not only for NFPA but for all the fire safety 
community in saying that we need a strong USFA on our team. We need a 
USFA that does the things it does better than anyone else and that 
makes it easy for everyone else to do what they do best.
    For all those reasons, the NFPA strongly and enthusiastically 
supports the reauthorization of the U.S. Fire Administration.

                    Biography for John R. Hall, Jr.

Education

B.A. (Mathematics), Brown University, Providence, RI, Cum Laude, 1967

Ph.D. (Operations Research), University of Pennsylvania, Philadelphia, 
        PA, 1972

Experience

1984-      National Fire Protection Association, Quincy, MA
           Assistant Vice President (formerly Director)
           Fire Analysis and Research Division

           The Division is responsible for measuring the fire problem 
and communicating the results as a basis for fire safety decision-
making and priority-setting. In research, the Division supports the 
Association initiative toward performance-based codes and standards, 
and conducts research in such areas as evacuation modeling and fire 
risk analysis.

1982-1984  Center for Fire Research, National Bureau of Standards,
           Gaithersburg, MD
           Operations Research Analyst

           Led development of a modeling framework for fire risk 
analysis. Worked on risk analyses of home sprinklers, fire-blocking of 
seats on passenger airlines and nuclear facilities.

1979-1982  Federal Emergency Management Agency, U.S. Fire 
Administration, Washington, DC
           Operations Research Analyst

1973-1979  Urban Institute, Washington, DC
           Senior Research Associate (previously Research Associate)

1972-1973  Resource Management Corporation, Bethesda, MD
           Research Analyst

                               Discussion

    Chairman Wu. Thank you, Dr. Hall, and now we will turn to 
Member questions, and the Chairman recognizes himself for five 
minutes.
    Several of the representatives of the fire services in 
their written or oral testimony referred to the fact that USFA 
does not have sufficient resources to fully meet the needs of 
the local fire service communities; and Chief Westermann, I 
believe you referred to that specifically in your oral 
testimony. In your opinions, what are the financial and other 
costs to local governments, to the fire departments, private 
citizens, and businesses as a result of this underinvestment in 
the USFA. And if we may, could we start with Chief Westermann 
and move to my right, your left, and then we will finish up 
with Administrator Cade.
    Mr. Westermann. I think it is just an expansion of a lot of 
the current programs that are there, beginning with the Fire 
Academy. We have 8,000 people that have been on campus, only 
76,000 through off-site, distance learning, but we have 1.2 
million firefighters in the country, so there are a lot of 
firefighters who are still not receiving some of the benefits 
of those programs.
    Probably the other respect to an expansion of programs is 
the education of our public to reduce not only the fire losses 
and life losses, particularly in residential sprinklers, the 
smoke detectors, things of that nature. So it is just an 
expansion I think of a lot of the current programs.
    Chairman Wu. Captain Livingston.
    Mr. Livingston. Mr. Chair, Committee Members, while I can't 
quantify a dollar number for you on the cost and where we are 
with respect to the programs, certainly clearly in my testimony 
and others', we need to make some improvements with respect to 
firefighter fatalities and make sure that we do a good job of 
not only educating about safe operations but iterating clearly 
that we strongly feel that it is time to have some national 
standards and look at those and not only provide for some 
streamlining of the fire service but also if you are going to 
collect data with respect to NFIRS, one of those components, 
and I think Dr. Hall mentioned it, is that I was shocked and 
surprised to hear some of the numbers, like with radios, I 
think we went from 21 percent up to 36 percent. To me, that 
tells me that there is 64 percent of the firefighters out there 
that still don't have mobile radios available for them to use 
in an emergency situation. So while I appreciate the efforts 
and certainly this is an important topic, the USFA has done a 
great job, we live in a new world now, the 21st century; and so 
I think we need to make some strides in some of these area, and 
I think the USFA can be the sounding board for the fire service 
to promote this, not only in the Federal Government but at the 
local level as well.
    Chairman Wu. Thank you, Captain Livingston. Chief 
Henderson.
    Mr. Henderson. In the State of Georgia, we use handoff 
courses from the National Fire Academy that go out to a lot of 
local firefighters, and I think those handoff courses are very 
valuable and I think they need to continue. I think they need 
to be encouraged. We have also started in the State of Georgia 
going through the vo-tech schools to put out part of the 
training. That also needs to be encouraged, and when you look 
at those for the training to go out to the people who make it 
easier for the volunteers to come in to their local communities 
to get training. And also again, I would echo what everybody 
else has said about residential sprinklers now. Cobb County and 
Marietta where Dr. Gingery is from, actually have a residential 
sprinkler ordinance; and I think it has saved a lot of lives in 
Cobb County and Marietta. And it is something I think that is 
needed nationwide. A dollar amount? I would have no idea of 
what it would be, but I would say it would be expensive to the 
states.
    Chairman Wu. Thank you very much, Chief. Administrator Cade 
and then if either Dr. Sunder or Dr. Hall have anything to add 
to this.
    Mr. Cade. Thank you, Mr. Chairman. Certainly within the 
United States Fire Administration, what we believe right now is 
that we are currently funded for the mission that we are 
expected to accomplish; and obviously if Congress decides to 
increase the mission for the United States Fire Administration, 
then hopefully there will be some additional funding that would 
go along with that increase in the mission. I think what you 
have heard certainly from some of the individuals is the hunger 
for education and training at the local level, and that is 
something that I look at as not only the head of the United 
States Fire Administration but also as a fire chief--trying to 
figure out how do you provide the best possible training at the 
local level which is truly where it needs to be. The United 
States Fire Administration has been trying and working very 
diligently with our State training directors at figuring out 
how we push out the training to the local level. It would be 
nice to say that all of the firefighters are going to have an 
opportunity to come through the National Fire Academy. That is 
just not realistic. So we need to figure out better ways of 
continuing to use distance learning capabilities to push out 
those classes. We are making some modification in the training 
classes that we provide. We are pilot testing some of them 
right now to go from a two-week training program down to a six-
day training program so there would be some up-front work done 
before the individual came there. Time is something that none 
of us can increase unfortunately, so we are trying to make sure 
that the offerings that we provide through the United States 
Fire Administration acknowledge that that time is critical for 
individuals, whether they are studying at home or studying at 
the Fire Academy; and we certainly are trying to make some 
things and make it more cost-effective to be able to use. We 
have just moved back obviously in once again to FEMA, and part 
of that is to look at how, as we fit in there, all of the other 
programs that are being done across FEMA to look for the 
operational efficiencies and streamlining in that process. So 
hopefully as we do that, we can redirect some of the resources 
that we have back into other programs.
    Chairman Wu. Thank you, Mr. Cade. My time has expired, but 
if Dr. Sunder or Dr. Hall have anything. Dr. Hall.
    Dr. Hall. Thank you, Mr. Chairman. In the beginning of my 
remarks, I mentioned that the Fire Administration over the 
years has funded a number of research projects on fire 
prevention and mitigation as well as on the safety and 
effectiveness of the fire service. So the question you posed I 
think is a question of how much loss are we sustaining because 
we didn't do more of what they have always done well? This 
means we have had fires we didn't need to have, we have had 
fires that were more serious than they needed to be, we have 
paid more for fire protection than we had to pay, we have had 
firefighters who showed up who were not able to stop fires as 
quickly as they would have been able to, and we have had 
firefighters who paid a serious price of death or injury 
because of a lack of equipment or training.
    Quantifying how much of that we could have done how quickly 
is better done on a case-by-case basis, but I will tell you 
that we estimate the total cost of fire losses, plus what we 
spend to try to not have more losses, at over $100 billion a 
year. And if you imagine, as I would imagine, that with and 
accelerated translation of research into practice that we could 
make a serious inroad into that number, then you are talking 
about potentially tens of billions of dollars a year that you 
might be able to reduce for prices a small fraction of that in 
the form of well-designed research projects.
    Chairman Wu. Thank you very much. Dr. Sunder? Thank you 
very much, Dr. Hall.
    Dr. Sunder. If I may just add just a couple of comments, I 
think the issues of firefighter fatalities and residential 
sprinklers are certainly worth noting. There is work currently 
under way on those issues, particularly with regard to PASS 
devices and positive pressure ventilation techniques and 
structural collapse prediction technologies and firefighter 
locator and training technologies. So all of those are being 
addressed. There is obviously more that could be done, and it 
is a valid point, I think, that we need to look at.
    With regard to residential sprinklers, we have just 
finished a cost-benefit analysis of residential sprinklers, and 
this came out last month and this is going to be widely 
disseminated. So the building code community will have better 
information as they consider proposals to require residential 
sprinklers
    Chairman Wu. Thank you, Dr. Sunder. And with that, Dr. 
Gingrey is recognized for five minutes.
    Mr. Gingrey. Mr. Chairman, thank you. First of all, let me 
thank all of our witnesses today, and this is very, very 
impressive. I think we really got the experts here, both in the 
policy and at the ground level; and it is great to hear from 
all of you. Your written testimonies, of course, your complete 
testimonies are part of our permanent record; and I haven't 
read the full testimony of each and every one of you, but I 
intend to try to do that. Sometimes we will have hearings when 
I don't really have much interest in reading the full text 
because of what the witnesses had to say; but what the 
witnesses have had to say today, Mr. Chairman, I fully intend 
to read it because this is very important.
    I want to ask one question. I think most of you know I am a 
medical doctor and Member of the United States House of 
Representatives and so the question I want to ask is in regard 
to emergency medical response. You know, all of us go to or by 
the scene of an accident or to by the scene of a fire. 
Sometimes you see what I would say is a duplicative response, 
so obviously you need emergency medical personnel there. But 
you know, what can we do to better coordinate so that people 
are not standing around? And I want any one of the six of you 
to respond to this or all of you. You have got so many 
responsibilities as you pointed that out in regard to hazmat 
and weapons of mass destruction and protecting structure, 
evacuating personnel, making sure the fire doesn't spread to 
adjoining buildings, et cetera. If your people are tied up 
trying to do CPR and administer emergency medical services and 
yet there are three ambulances at the scene as well with people 
that are very well-trained, Chief Westermann and Captain 
Livingston, maybe the two of you can start because you 
addressed that more in your oral testimony.
    Mr. Westermann. To start with, we firmly believe, and I 
believe my colleague, Captain Livingston, will agree with this, 
we firmly believe in fire-based EMS, and that simply is because 
our stations are already spread out with the fire apparatus, 
and to put an ambulance with an engine or the ladder truck is 
simply logical sense for the distribution and to reduce the 
response times to the incidents as low as possible.
    As far as the number of people responding to the calls, and 
it kind of depends on the call, but if an MVA, or motor vehicle 
accident, is occurring, you should have an engine and an 
ambulance, at least one ambulance, on the scene depending how 
many patients there are, not only for patient care and 
extrication of that patient from the car but you also have a 
hazmat incident, you also have a fire hazard where some of the 
other people will be checking into. And as the number of 
patients increases, there goes the number of ambulances needed 
on the scene. If we are talking about a heart attack or 
something of that nature, you still end up with an engine and 
an ambulance on many scenes.
    Med units or ambulances are busy. Our ambulances in my 
organization are on the road almost 24 hours a day. The engine 
also has paramedics, EMTs on them across the country; and they 
are being used again in order to reduce the response time. Get 
the engine responding. The patient still gets the premium care 
as possible, and at that point, once the engine or the ladder 
truck gets on the scene, paramedic is providing care, the 
ambulance, and I don't want to belittle their role, but 
essentially becomes the taxicab. The patient is already getting 
care. The ambulance comes in from the other call or----
    Mr. Gingrey. That is my concern. I am running out of time, 
and maybe I can address it in a second round because there are 
not as many people to ask questions. But that is my concern. I 
don't think the ambulance should be a taxicab, a very expensive 
taxicab. So again, Captain Livingston, if you want to comment 
in the few seconds I have left.
    Mr. Livingston. Very briefly, Chairman Wu, Ranking Member 
Gingrey, just simply, we are in the life safety business, and 
it is a great fit for us to be able to provide emergency 
medical care in the pre-hospital setting. As a paramedic 
myself, I can tell you, and I will echo some of the same 
comments that Chief Westermann said, our first and foremost 
priority and what we are there for is to protect the public 
safety, and life safety is important. Your illustration of a 
motor vehicle accident, not only can we start to do initial 
stabilization of the patient if we need to, particularly in my 
organization and many throughout the fire service, we have 
advanced life support capability; and as you know, airway 
management and all those things are very important. At the same 
time, that engine not only provides advanced life support, it 
also provides for a safer scene with respect to if there is a 
car fire involved, hazardous materials. So it is a great fit 
from the standpoint of having the fire service be involved in 
EMS and partnering with the then ambulance transport. Certainly 
we believe fire-based transport is the way to streamline 
things.
    Mr. Gingrey. Thank you, Chief, and Captain. Mr. Chairman, I 
know my time has expired. I am going to come back to this in a 
second round.
    Chairman Wu. We will come back to you fairly shortly. Mr. 
Mitchell, you are recognized for five minutes.
    Mr. Mitchell. Thank you. I don't really have a question but 
kind of a response to Dr. Gingrey. In my area, in fact every 
fire service in my district, the ambulance is contracted out. 
It is not part of the fire service. So therefore there is not 
an ambulance at every station. In fact, what happens is the 
firefighters are the ones that are there fastest and the first 
responders, and the ambulance pretty much does more than a 
taxi--but they don't necessarily all have paramedics on them as 
well. They have EMTs, but the fire service is the one that has 
all the paramedics. So they are the first responders, they are 
there first, and then the ambulance comes; and that way, it has 
been cheaper because there is not an ambulance at every 
station. They are spread out much thinner and don't respond as 
fast. And that is just a comment. That is how it is in my 
particular district. I yield back my time.
    Chairman Wu. Thank you, Mr. Mitchell. Dr. Gingrey, since 
you are the Republican on that side and you seem to have some 
questions on this, we will come back to you; and then we will 
go to Ms. Richardson.
    Mr. Gingrey. Mr. Chairman, thank you, and I think some of 
the other witnesses may want to comment on this. Mr. Mitchell, 
thank you for your comments. It is a lot like that I think in 
my district as well, and I haven't thought about this in a 
while, so this is certainly a very timely week coming up and 
reauthorization and a timely hearing. Here again, I want to 
make sure that on the scene that there is a protocol. As 
Representative Mitchell pointed out, the firemen respond first, 
they get there first; but of course, in every community, the 
ambulance whose services are contracted with the community, 
whether county, city, or region, have to respond in a certain 
period of time, and pretty darn quickly I might add. And let us 
say the fire department is there and they are fighting that 
fire but somebody with the great training that Captain 
Livingston talked about is trying to save a life but all of a 
sudden then he looks around and there is a paramedic in an 
ambulance service, is there handoff protocol? The paramedic on 
the ambulance certainly is not going to be able to go in there 
and fight that fire, he is not trained to do that. Is there a 
protocol so that we don't waste our talent, so to speak, at the 
scene?
    Mr. Westermann. I guess that is one of the niceties, the 
benefits, of having fire-based EMS in that both your ambulance 
personnel and the people fighting the fire are typically cross-
trained in the fire department, so they could trade off and 
have the distinct protocols on handoffs such as what you 
mentioned.
    Mr. Livingston. And I would just say, Chairman Wu, Ranking 
Member Gingrey, yes, there are protocols, particularly in the 
example that you give. That is one of the things, and I think 
it was Administrator Cade that mentioned it. Since we are so 
good at the incident management system, it is the overall 
incident commander that sets the goals and the priorities. And 
so in your illustration, once again, life safety is always the 
number one priority for the fire service, but they would also 
go through the incident command system so that not only are we 
using those resources efficiently but we are maximizing the 
effectiveness of them. And so we do do that. While there may be 
differences, it is the incident command system which we utilize 
on a day-to-day basis that provides for that efficiency on that 
emergency scene.
    Mr. Gingrey. I just want to make this comment, and then if 
others want to weigh in, you are there, you have that training, 
you are trying to offer life support to someone that you pull 
from the fire, but you may have six or eight or ten like in the 
South Carolina situation, or other situations, where your 
brothers at arms and your firefighting partners are in there 
fighting a building, and of course, their lives are at stake, 
too. So it is a matter of trying to make sure as I point out. 
Would others like to comment on that?
    Dr. Hall. First, a couple of facts. There is something like 
20 million emergency responses by fire departments each year, 
and only seven percent of them are fires. Something like 60 
percent or more are medical responses, and the percent, as well 
as the numbers, keep going up every year. The Fire Service 
Needs Assessment that I mentioned has a fairly recent reading 
on what fraction of fire departments offer EMS service, and the 
other witnesses are correct that it is now the norm rather than 
the exception; and also information on what fraction of them 
have formal training for the people who are involved and what 
levels of certification they have, and it varies all over the 
place. But as Captain Livingston has stated, it all comes down 
in the end to incident management. You have got to have a 
department which is the central manager of the event, knowing 
the resources from other departments and its own that it has to 
put into place, has protocols in place to sequence the tasks 
and have things done in parallel and sequence as appropriate. 
So I think most departments do that, and the trick is whether a 
group like the U.S. Fire Administration through their training 
can make sure that all departments do that.
    Mr. Gingrey. Thank you, Mr. Chairman. I think my time is 
expired, and Ms. Richardson has been very patient.
    Chairman Wu. Thank you, Dr. Gingrey, and with that, the 
gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman Wu, for having this 
very helpful hearing that we have before us today. I am going 
to start off first with a comment, and then I do have two 
questions. Number one, I was a little surprised in all the 
testimony today that there was very little reference to fire 
facilities, and I will tell you that in my hometown, almost 
every fire facility that I have been at, the fire stations 
themselves have been highly inadequate. First in regard to 
gender: you have situations where firefighters are forced to 
put a little bell on the door or some little sign that says 
that there is a woman firefighter who is using the restroom or 
taking a shower; and clearly, we are going to have to deal with 
the inadequate facilities that we have.
    Second of all, I would like to speak to the poor 
infrastructure. When you talk about crumbling bridges and so 
on, many of our fire facilities have only been able to survive 
due to the innovative abilities of our firefighters to really 
fix them and keep them up to speed. But I am extremely 
concerned for example that in my area, the size of the bay 
doors, many of the new technology, the newer and larger size 
trucks, that the equipment is not able to get in, not able to 
get out. The location of the fire facilities in my area, we 
have fire facilities that were originally put in there in the 
'40s and '50s. Now we are talking about very highly urban 
communities. So physically to get out, to get onto these 
smaller streets and to get onto the main highways to be able to 
get to people and care for them is in high jeopardy. So I would 
like to see, before we come forward with this reauthorization, 
more information of what we are doing with the facilities. 
Specifically, what is your plan, what funding is going to be 
needed, and what funding are we talking about in this budget 
that is going to address those issues? My second point, Dr. 
Sunder, I was watching the news this morning as I was getting 
ready for a 7:30 meeting, and they were talking about a fire 
that occurred here in D.C. and something to the effect that the 
pipes didn't have enough water flow. So I would also like to 
see come back to this committee additional information of what 
we plan on doing to have adequate inspections of fire hydrants, 
pipes, et cetera, so we are not waiting until there is a fire 
and we find out we don't have adequate flow. That should be 
something we know ahead of time, and we should have a priority 
set of how we are going to improve these various key pieces of 
infrastructure so when we have a fire, we are going to be able 
to respond. And then my final point is a question to Captain 
Livingston, and I am going to run to a Transportation Committee 
meeting, so that is why if the other two pieces of information 
could be supplied to this committee in writing.
    Captain Livingston, I think to the core, we can talk about 
the toys and all these wonderful things that we want to do, but 
I just found it extremely alarming to hear you say that we need 
national standards in order to reduce line-of-duty deaths; and 
I would like to know from you specifically what are the 
obstacles precluding us from establishing these standards, to 
your knowledge? That was a mouthful from your youngest Member 
of Congress. Not youngest, newest, I should say.
    Mr. Livingston. Chairman Wu, Congresswoman Richardson, I 
think what we need to do, like I mentioned in my testimony, is 
we do not need to reinvent the wheel. We do have standards, and 
concensus-based standards at that, that we largely go with. 
Unfortunately, not every state follows NFPA guidelines. You 
have a mishmash of standards that are based at the local level. 
While I believe law enforcement has minimum standards for law 
enforcement officers, here in the United States it is really at 
the local level and the State level with respect to national 
standards. We strongly believe that consensus standards, not 
reinventing the wheel, using NFPA, whether it is firefighter 
one standards, company officer standards, staffing standards, 
those kind of things will have a direct impact on the amount of 
lives we save in the fire service. We think it is long overdue 
now in the 21st century that the fire service needs the Federal 
Government to take a lead role with respect to that. The 
bottom-up role has not worked.
    Ms. Richardson. So then I think that would be leading to 
our Administrator. Why have we failed to establish these 
standards?
    Mr. Cade. Well, at the United States Fire Administration 
level, we have been asked very recently to participate in the 
next generation of upgrades that the Occupational Safety and 
Health Administration is putting out. The OSHA standards, 
1910156, are currently out for updating, and part of the 
conversation that we are having right now with OSHA from the 
USFA standpoint is the incorporation of the latest standards. 
The OSHA standards, as they are today, were written 31 years 
ago, I believe. So they haven't been updated since then. 
Obviously there has been a lot of consensus standards developed 
around firefighter safety, minimum standards and certification 
that have been done. So OSHA has opened it back up. Actually, 
September 11 was when it was published in the Federal Register. 
We have not submitted our comments yet, but we are putting them 
together and will submit them for consideration by OSHA. 
Hopefully what they are going to do is bring in the rest of the 
national standards. That will at least give states and 
localities something to specifically look at when they are 
trying to develop standards; but even with that, there is still 
the opportunity at the State level for them to either modify 
the OSHA standards or accept them in whole, and it varies state 
by state and how that is done.
    Ms. Richardson. So could you provide to this committee your 
timeline or how you would anticipate we would be able to 
address this situation?
    Mr. Cade. Yes, I will.
    Ms. Richardson. Thank you. Thank you, Mr. Chairman.
    Chairman Wu. I thank the gentlelady. And we go to a second 
round of questions. The chair recognizes himself. Captain 
Livingston, I wanted to give you an opportunity to expand on 
your previous answer. It is my understanding that the number of 
fatalities for firefighters this year has already reached the 
annual average, and we have three more months to go. What are 
some of the things we can do to reduce the fatality rate and 
what kind of leadership role can USFA or any of the other 
agencies who are present can they play to reduce this high 
fatality rate?
    Mr. Livingston. Chairman Wu, I think what we need, and what 
we do have, is an advocate in the USFA. They can be the point 
agency within the Federal Government to not only start us on 
the road of national standards but also to address some of the 
needs that we have. I think Dr. Hall would reinforce this, I 
think if you were to look over the last 30 years at the 
firefighter fatalities, three common issues come to play. One, 
it was a lack of communication on the fire ground that occurred 
that led in some form or fashion to that death. Two, there was 
a breakdown in the command and control of the incident. And 
then three, simply staffing issues. We try to do too much with 
too few personnel. And so I think those three areas that I have 
discussed, as well as my written and oral testimony going down 
the lines of some uniformity towards national standards, will 
certainly help with that. Along with the standards, though, we 
need to emphasize training. You ask a lot of the fire service, 
our nation asks a lot of the fire service. We need to be able 
to be properly trained, and it is a challenge right now. We 
need to find ways to have our people continue to be well-
trained.
    Chairman Wu. Thank you. Dr. Hall.
    Dr. Hall. The majority of firefighter on-duty deaths each 
year don't occur at the fire ground, and so if you were 
thinking of steps that you particularly want to take, the 
common theme in well over half of the firefighter deaths each 
year is either a heart attack or some kind of vehicle handling 
error. Now, you can address both of these through standards, 
through training, through a variety of measures; but they 
aren't the usual kind of we should have a new type of 
equipment, we should have training in this kind of technical 
task. So what we have run into, as Captain Livingston has said 
several times, is a lack of people adopting and complying with 
the standards that already exist. In this country we don't have 
nationally binding standards for the most part. We have gotten 
more involved in this through OSHA as Chief Cade just said, and 
that gives us certain opportunities; but for many other things, 
what we have to do is persuade and recruit the fire 
departments, persuade them of the importance, recruit them to 
following the standards, and that is a much more painstaking 
task.
    Chairman Wu. Thank you very much. And Mr. Cade, what 
capabilities would your agency like to add to NFIRS and also in 
your testimony you noted that the current system only captures 
about half of the incidents that occur annually. What makes the 
reporting system limited in this fashion and could you also 
address the complaints about timeliness that have been brought 
up today?
    Mr. Cade. Thank you, Mr. Chairman. I think fundamentally, 
one of the issues with the National Incident Reporting System 
has just been the time that it takes and the process going from 
a paper process at some point. Someone has to enter that data 
into a computer system and doing that whole editing iteration. 
The data belongs to the local fire service and it also belongs 
to the state, so it takes a little while for it to come through 
to us at the USFA and the data center. As Congressman Gingrey 
directly points out, part of the dilemma with making any of the 
changes that we are looking at is trying to ensure that we 
don't get caught up in the technology end of things and that we 
forget the goal of what we are trying to accomplish. And the 
goal for us is to be able to have the information available to 
the fire service to be able to make the decisions that they 
need to make at the local level. Right now we do, I think, a 
very good job of providing the long-term capability of doing 
the data analysis for the studies. We do some very important 
work with a lot of our partners. It is not just the national 
fire data that we are using, we are using information from the 
Consumer Product Safety Commission, the NFPA, there are a bunch 
of different arenas that are providing that information to us. 
We are trying to look at making it a web-based system not so 
much so that we can get that information to us alone faster, 
but also to be able to allow people to get in and search the 
data base and use it in an easier manner than what it is today. 
It is not user-friendly, and one of my goals is to try to make 
it user-friendly for a fire chief.
    Chairman Wu. My time has expired, but Dr. Hall, I would 
expect that you would have some comment on this also?
    Dr. Hall. From the very beginning of NFIRS, we have never 
been in a position where all the states were participating in 
NFIRS, and the USFA really has no legal authority or strong 
measures that it can use to compel states to participate. Few 
states have all of their communities participating when the 
State participates, and some communities in some states go in 
and out of participation. So we are not in a position to be 
able to jump to a 100 percent census system, and I think it is 
helpful to compare us to other systems out there. There are 
really only two countries in the world that have anything 
remotely close to what we have in our ability to track 
accurately and with some detail the fire experience, and those 
are the United Kingdom and Japan. Canada used to, but their 
system, which was about like ours, fell apart because of the 
lack of close coordination at the national level.
    Over at the FBI where they track crimes and participation 
is mandatory, they still don't get everything in and they don't 
necessarily have a well-defined procedure for projecting from 
what they do get to what they record. But the best example is 
probably the death certificate database where it is completely 
mandatory, everything comes in, and yet if you go in and find 
out what is the latest data you have got available, you will 
quite often find that it is older than the NFIRS data that is 
out. So a certain degree of realism about what is achievable 
and also an awareness of what the system is trying to do to get 
a representative but detailed sample that is a valid sample and 
to analyze it in valid ways and then go on from those multiple 
objectives to what you can and what you can't accomplish with 
certain kinds of technology upgrades; that I think is the way 
to go. And I know and deeply respect the professionals at the 
USFA who were in charge of NFIRS. I know that if you give them 
a mandate to do the best job they can with the funds available, 
you will get the best job that anyone can do.
    Chairman Wu. Thank you very much, Dr. Hall. The gentleman 
from Georgia.
    Mr. Gingrey. Mr. Chairman, thank you. With all of my 
Republican colleagues tied up at other hearings and markups, I 
am getting this opportunity to be in a catbird seat. At the end 
of this hearing, I am probably going to be the resident 
Republican expert on fire issues now that Curt Weldon, my 
friend from Pennsylvania, is no longer with us. So this is 
indeed, Mr. Chairman, a unique opportunity for me.
    I want to go to what Chief Henderson in regard to the issue 
of the residential sprinklers. And Chief, you mentioned my own 
county of Cobb's requirement. And of course, Dr. Sunder, 
addressed just a little bit about a recent study of the cost 
analysis of requiring residential sprinkler systems. It is sort 
of like isn't it the thinking of the requirement of having 
seatbelts in our public school buses in every seat, and we 
don't have that by any stretch of the imagination. So I would 
like Chief Henderson for you to start, maybe Dr. Sunder to 
weigh in, and the others if there is time remaining to discuss 
this issue a little bit further, in regard to cost-
effectiveness.
    Mr. Henderson. With regards to cost per household of 
installing a residential sprinkler system, and it would vary 
depending on the state and depending on the labor cost and 
things. But I think in Cobb County the cost is somewhere 
around, in a new structure around $1 a square foot. And then to 
go back and retrofit it is somewhere up to $5 a square foot, 
just to put those sprinkler systems in.
    Mr. Gingrey. That would equate, Chief, to a $10,000 expense 
on a 2,000 square foot home for retrofitting?
    Mr. Henderson. For retrofitting.
    Mr. Gingrey. A pretty expensive item for----
    Mr. Henderson. Yes, sir. That is one problem that you 
always have when you start talking about residential sprinklers 
is simply because the mortgage lenders, contractors, insurance 
companies, and people of another nature are the people that 
actually fight those kind of laws. But when you look on the 
other hand, the lives that are saved, I think nationwide and 
Dr. Sunder might be able to give me a little help with the 
statistics, but I think nationwide there is something like 80 
percent fewer deaths in sprinkler areas. Scottsdale, Arizona, I 
think, has one of the longest communities that has had 
sprinkler systems. They have been in place for 20, 25 years, 
something like that. It would save the lives of the people in 
the community, it would save lives of the firefighters, and 
there is another problem with that, the rule of eminent domain. 
Just like smoke detectors now, in the State of Georgia, we have 
a law that requires everybody to have a smoke detector. You can 
actually fine them $25 if they don't have a smoke detector. The 
only problem is no one can go in the house unless they have an 
emergency or unless they are invited in to check to see if they 
have got them. It would be the same thing with residential 
sprinklers.
    Mr. Gingrey. And a $25 fine is not taking much----
    Mr. Henderson. No, not much. But, you know, that is a 
problem when you pass those kinds of laws without looking at 
the rule of eminent domain because that is that person's house 
and you have to be invited in or brought in in an emergency 
situation.
    Mr. Gingrey. That is a great point. Dr. Sunder.
    Dr. Sunder. I would just like to make two separate points, 
one regarding the benefit cost analysis with what we have done. 
We have looked at three kinds of homes, colonial, townhouse, 
and ranch homes, and we have looked at the installation of a 
minimum kind of sprinkler system, bare bones with existing 
plumbing in new construction. It is anywhere from about $1,000 
to $2,000 roughly speaking. The colonial is a little bit more 
expensive than let us say a ranch. The benefits when you think 
about the fatalities averted, the injuries averted, the 
uninsured property loss averted, indirect costs averted and so 
forth, insurance credit, the benefits are about $5,000 a piece 
for all of those kinds of houses. So the benefit-to-cost in 
that situation is somewhere between $2,000 and $5,000, 
somewhere in that order.
    The other point of course is when you start putting more 
fancy systems in place, the costs go up; and of course, 
retrofit is a whole different proposition. That is always the 
biggest issue in anything we do with building codes. Now, 
having said that, the question is how do we get these changes 
into building codes? We have in our country a system where it 
is a voluntary consensus system, and we have a system where 
different interested parties weigh in on the building code 
process, particularly at the national level you have the 
International Code Council and NPFA that are model codes. For 
this discussion, I will use ICC, the International Code Council 
as an example. It is used in a number of the states nationwide, 
and the democratic process you have there gets the private 
sector involved, the insurance involved, the home builders 
involved, and then the fire service. It is always an issue of 
convincing, having enough votes to get your proposal passed; 
and in the last cycle, in fact I was there that time, they 
didn't make it. There was a proposal to include residential 
fire sprinklers in, and they didn't make it. My guess is with 
these new studies and more conviction on the cost issue, it 
might come to pass in the future.
    Mr. Gingrey. Thank you, Mr. Chairman.
    Chairman Wu. Thank you, Dr. Gingrey, and there being no 
further questions from the panel present, before I bring the 
hearing to a close, I would like to thank our witnesses for 
coming, in many instances, long distances to testify in your 
very thoughtful testimony before the Subcommittee today. The 
record will remain open for additional statements from the 
Members and for questions and answers and any follow-up 
questions the Committee may ask of the witnesses. The witnesses 
are now excused, and the hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Gregory B. Cade, Assistant Administrator, Federal 
        Emergency Management Agency; U.S. Fire Administrator, United 
        States Fire Administration, Department of Homeland Security

Questions submitted by Chairman David Wu

Q1.  In your testimony you report that nearly all U.S. Fire 
Administration (USFA) research activity happens through partnerships. 
How much funding comes directly from USFA for research? How many of 
those partnerships are formalized, and through what means (i.e., with 
memorandums of understanding)? You also mention in your testimony that 
nearly $17 million since FY 2005 has gone from the Assistance to 
Firefighters grants program to research and development grants. Who 
serves on the peer-review board of these applications?

A1. The United States Fire Administration (USFA) does not receive 
specific funding dedicated solely to research activities. In recent 
years, however, approximately $500,000 has been used on a variety of 
projects and studies designed to advance applied research and 
technology development.
    The USFA establishes partnerships via Memorandums of Understanding 
and Interagency Agreements with agencies such as the National Institute 
of Standards and Technology (NIST) and the US Department of Justice's 
(DOJ) National Institute of Justice (NIJ). Currently the partnership 
with NIST focuses on firefighting, fire suppression, and fire life 
safety technology. With DOJ/NIJ, emergency responder emergency vehicle 
and roadway safety programs to benefit both firefighter and law 
enforcement officer safety are the focus. Also, the USFA works with the 
Consumer Product Safety Commission (CPSC) on issues of citizen fire 
safety.
    Other research partnerships with national level fire service 
organizations such as the National Fire Protection Association (NFPA), 
International Association of Fire Chiefs (IAFC), International 
Association of Fire Fighters (IAFF), National Volunteer Fire Council 
(NVFC), and the International Fire Service Training Association (IFSTA) 
are accomplished through Cooperative Agreements.
    The Assistance to Firefighters Grants (AFG) program adheres to the 
requirements that have been placed into the grants' governing statute. 
The AFG program is administered through FEMA's Grants Program 
Directorate, not through the USFA. While USFA does not administer the 
program it does provide the space for peer reviews to be conducted at 
the National Emergency Training Center in Emmitsburg, Maryland. With 
respect to the peer reviews, the program seeks to obtain panelists who 
are knowledgeable, experienced, and a part of the fire service. A list 
of recommended panelists is obtained from National fire service 
organizations as well as from institutions that carry out fire service 
related research and development. In this manner the program is able to 
establish peer review panels--from the 20 individuals selected--that 
not only have expertise in research but also have an understanding of 
the needs of the fire service.

Q2.  For the research activities USFA carries out through partnerships 
with the Department of Homeland Security's Science and Technology 
Directorate (DHS S&T), how does USFA communicate research priorities to 
the S&T Directorate? Does the funding for these projects come from USFA 
or from DHS S&T?

A2. Both the United States Fire Administration (USFA) and the S&T 
Directorate provide funding to programs identified through their 
participation in the S&T Directorate's customer led Capstone Integrated 
Product Teams (IPTs). The IPTs are charged with identifying functional 
capability requirements across the Department. The products of these 
IPTs are used to identify components' highest priority science and 
technology needs and to allocate resources to those programs that 
support the components' and DHS' priorities.

Q3.  In your testimony you mention that USFA is working closely with 
Federal Emergency Management Association's (FEMA) National Preparedness 
Directorate to coordinate training to make sure NFA courses are in-line 
with the new National Preparedness Guidelines and address elements of 
the Universal Task List and the Target Capabilities List.

Q3a.   Do these lists adequately address the needs of the fire service?

A3a. The United States Fire Administration (USFA) developed a crosswalk 
on how classes taught at the National Fire Academy (NFA) address each 
of the various Target Capabilities, and we will assimilate other 
identified capabilities into new curricula as appropriate. The cross-
walking of existing USFA programs and NFA courses to the National 
Preparedness Guidelines (Guidelines) including the Universal Task List 
(UTL) and the Target Capability List (TCL), demonstrates a commitment 
to ensuring a culture of preparedness. The lists are broad enough to 
allow for the needs of the fire service as it continues to evolve and 
adapt to emergent issues. USFA continues to work close with FEMA's 
National Preparedness Directorate, which currently manages the 
implementation of UTL and TCL. Both the UTL and TCL adequately address 
the core competencies of today's fire service and the tenets of these 
documents are reflected in NFA courses.

Q3b.  Will this collaboration detract from curriculum needs that are 
unique to the fire service?

A3b. Adequate preparation for meeting the fire service's day-to-day 
demands is also the foundation for meeting the demands of an emergency 
related to terrorism. Training to meet chemical/biological/
radiological/nuclear threats is already part of many fire departments' 
skill set; responders may not know whether their incident is terrorist-
related until well into the response operations. Additional training 
requirements can strain fire department resources.
    The collaboration and continued commitment to the Guidelines will 
not detract from the unique curriculum needs of the fire service but 
instead allow USFA to frame curriculum needs within the Guidelines and 
ensure an all hazards approach to preparedness and response training, 
education, data collection and analysis, research involving civilian 
and fire service losses. Working with the Guidelines will continue to 
benefit USFA in tailoring classes which will conform to the overarching 
goals of the department and the needs of the fire service.

Q3c.  What is the current balance at NFA between training related to 
typical structure and wild fires versus fires and emergencies related 
to terrorism or chemical/biological/radiological/nuclear threats?

A3c. Chemical/biological/radiological/nuclear threats have been part of 
fire departments' response plans for decades; only the criminal or 
political element sets a terrorist incident apart. Since 1997, the NFA 
has added the terrorism element to its training by weaving it into 
existing curricula where appropriate. Free-standing terrorism training 
courses were conducted in cooperation with our State partners and have 
reached in excess of 270,000 emergency responders including 
firefighter, emergency medical, law enforcement, community leadership 
and public works personnel.
    The current balance of structural firefighting operations versus 
wildfire versus terrorism and fires involving hazardous materials 
events is NFA courses are predominately structural firefighting 
related. However, NFA has several wildfire courses intended to educate 
structural firefighters and interface communities with the unique 
conditions and decision process of wildland firefighting.
    The USFA has a Hazardous Materials Program that has integrated 
terrorism (CBRNE) response into the hazardous materials curriculum at 
all levels. By integrating the terrorism and hazardous materials 
training allows USFA to maintain proper perspective while at the same 
time acknowledging the unique issues associated with incident 
initiation methodologies such as accidental, intentional, criminal, and 
terrorism.
    Courses at the NFA are reviewed regularly to assure they align with 
the National Preparedness Guidelines and the needs of students.

Q4.  In your testimony you state that ``USFA strongly advocates for 
local fire departments to be the center of preparedness within their 
jurisdictions.'' What types of guidance does USFA offer to help them 
assume this role?

A4. Nationwide, citizens recognize their local fire departments will be 
among the first responders to any significant incident. The public 
looks to its fire service for guidance about preparedness for local 
community risks. Programs in which the fire service already works as a 
center for preparedness include: fire prevention, hazardous materials 
awareness, child safety seat awareness and injury prevention programs. 
The United States Fire Administration (USFA), through the National Fire 
Academy (National Fire Academy), delivers courses in community health 
risk management, risk management from an operational safety 
perspective, creating community risk-management partnerships, risk 
management through code enforcement and strategic community risk 
reduction. To help reach the general public with preparedness messages, 
NFA offers nine resident and four handoff courses to those who will be 
conducting public outreach. These handoff courses are courses which 
have been developed by NFA for delivery from State Fire Training 
Offices across the country to students who the NFA cannot service due 
to either space constraints at NFA, or time constraints of the 
students. USFA also advocates for fire departments to train other local 
emergency services organizations and hospitals on the use of the 
National Incident Management System (NIMS). USFA is working with the 
National Preparedness Directorate within FEMA to provide training and 
course material on the NIMS to local fire departments to assist with 
training.
    The USFA also develops and distributes a wide range of publications 
designed to assist departments in the implementation of public 
education programs promoting the fire prevention and preparedness 
message. In the future USFA will be working with the Citizen Corps 
program, including the Community Emergency Response Team (CERT) 
program. The CERT program deals heavily in citizen and community 
preparedness as well as being an extension of response capabilities for 
fire departments. Currently there are many fire departments who provide 
the CERT training to their citizens and serve as repositories of 
preparedness activities within their community.

Q5a.  How does USFA evaluate its public education and awareness 
programs?

A5a. The United States Fire Administration (USFA) uses a variety of 
ways to evaluate its public education and awareness programs. They 
include tracking the reach of campaign efforts through monitoring and 
reporting on the use of press releases, spokesperson interviews, public 
service ads, and USFA references in the news. We monitor and track the 
materials distributed to fire departments and partners through a 
contract and track both ``hits'' on the USFA website as well as orders 
sent through the USFA publications center.
    USFA is always open to suggestions regarding messaging and 
materials whether it comes from a citizen or a professional fire 
organization. Often changes or the development of new approaches come 
from these valuable comments and suggestions.
    USFA currently contracts with a Washington, DC-based firm to 
develop a pilot qualitative evaluation tool to be used in the future to 
gain more insight into the value of USFA public education and awareness 
activities. This contract is in place for a one-year startup and 
results should be available by the summer of 2008.
    When the goal of a message is to motivate a behavior change in a 
target group, how does USFA work to develop that message and evaluate 
its impact?

Q5b.  When the goal of a message is to motivate a behavior change in a 
target group, how does USFA work to develop that message and evaluate 
its impact?

A5b. Engaging Partners

    At the start of the process, USFA engages partners and Fire Service 
leaders in the content development, design and packaging of materials. 
Their participation, especially in the early stages of campaign or 
material development process, ensures that we:

        <bullet>  Gain insight from Fire Service leaders and other 
        partners to clarify the target audience and behaviors we are 
        seeking to promote through the educational materials.

        <bullet>  Include relevant questions in any primary research--
        quantitative or qualitative--that might be undertaken.

        <bullet>  Inform partners, potential partners and allies of 
        plans for fire safety and prevention education materials and 
        gain their insight into the target audience.

        <bullet>  Include educational materials in plans for 
        distribution through channels that are credible to the target 
        audience.

        <bullet>  Identify images, colors and phrases that capture the 
        attention of the target audience(s).

Target Audience Testing

    Testing campaign concepts and materials with the intended 
audience(s) is necessary to ensure that the campaign will actually 
reach at-risk audiences with messages that motivate a change in 
behavior. This testing can include focus group research, structured 
one-on-one interviews with individuals that represent the target 
audience or have experience in reaching the audiences, and formal 
technical and advisory panels.
    Critical testing questions include:

        <bullet>  Are the campaign concept and message(s) believable?

        <bullet>  Are they relevant to the audience? What would make 
        them relevant?

        <bullet>  Are they credible? What would make them credible?

        <bullet>  Does the message motivate the audience to overcome 
        barriers to action?

        <bullet>  Are the proposed communication channels effective in 
        reaching the audience?

        <bullet>  Are the draft educational materials effective? Will 
        the target audience use them?

    Through a contract with a DC-based firm, USFA conducts readability 
tests to make certain that the literacy levels of the materials are 
appropriate to the audience.

Q5c.  What types of partnerships does USFA draw on to develop it public 
education material?

A5c. USFA works through a variety of means to develop and draw on other 
organizations in the development of its public education materials. 
Types of partnerships include Memorandums of Understanding, Interagency 
Agreements, Contracts, Grants and so forth. These partnerships range 
from formal contracts to informal discussions with other safety 
organizations such as the American Red Cross, the National Fire 
Protection Association (NFPA), the Home Safety Council, American 
Academy of Pediatrics, SAFE KIDS Worldwide, ZERO to THREE, the National 
Volunteer Fire Council, Indian Health Service, Department of Housing 
and Urban Development, International Fire Chiefs Association, 
Residential Fire Sprinkler Institute, and local fire departments. USFA 
utilizes research results obtained from work with the National 
Institute of Standards and Technology (NIST) for some of the content in 
the public education materials from these organizations.

Q5d.  To what extent has USFA engaged with social scientists to 
research, develop, and implement effective fire prevention and safety 
messages?

A5d. The firm currently under contract with USFA specializes in 
``social marketing'' in the areas of health and safety. With their able 
assistance, USFA frequently consults with social scientists that 
specialize in the areas of psychology, psychiatry, and sociology. These 
experts are consulted for the purpose of advice on targeting messages 
to particular at-risk audiences in order to develop materials that are 
more effective when working with specific high risk groups such as 
children, older adults and others. In addition, we request advice on 
methodologies and outreach activities in order to best deliver the 
educational information at the local level to the particular audiences 
targeted.
    In the past, USFA delivered several grants to colleges/universities 
to conduct research with targeted population groups. The results of 
these grants were incorporated into decision-making where appropriate.
    For the past seven years, USFA has been working in conjunction with 
the Centers for Disease Control and Prevention (CDC). Through this 
partnership, work has been conducted on the National Fire Risk Survey 
and Behavioral Risk Factor Survey to gain insight into human behavior 
during a home fire. To date, the results have not been reported, but 
should be available within the coming year.
    The National Fire Risk Survey is an on-going surveillance of fire-
related behavior and risk/protective factors. A telephone survey will 
be designed and conducted to collect national-level population-based 
data on:

        <bullet>  Knowledge, attitudes, and behaviors

        <bullet>  Population-based numbers of fires, the number put out 
        by sprinklers, the number put out by homeowners in response to 
        smoke alarms, and the number of fires responded to by fire 
        departments

        <bullet>  Placement, number, and functionality of smoke alarms 
        and frequency of testing

        <bullet>  Presence of sprinklers

        <bullet>  Fire-related injuries that are not seen in Emergency 
        Departments or hospitals

        <bullet>  Primary prevention risk and protective factors (e.g., 
        inappropriate use of space heaters, use of childproof lighters)

        <bullet>  Fire-related injuries and deaths linked to 
        disabilities

    Behavioral Risk Factor Survey (state-based risk/protective factor 
surveillance) (CDC). Additional questions were added to CDC's 
Behavioral Risk Factor Surveillance System (BRFSS) 2003 survey to 
collect State-level data on the following variables. Two questions were 
added to the emerging core and five questions were included in an 
optional module.

        <bullet>  Placement, number, and functionality of smoke alarms 
        in the home

        <bullet>  Type of smoke alarms (e.g., lithium battery-powered, 
        nine-volt battery, hard-wired)

        <bullet>  Frequency of testing of smoke alarms

        <bullet>  Escape planning and practice

    In addition, USFA is a member of the National Fire Safety Public 
Private Council which is a cooperative effort between several federal 
agencies including the CDC, Consumer Product Safety Council, the 
National Fire Protection Association and approximately 15 other federal 
agencies and private national organizations that are concerned with 
fire safety. This organization manages the web site, http://
www.firesafety.gov.

Q6.  In addition to working with federal agencies like the Bureau of 
Land Management (BLM) to create curricula to train local firefighters 
to fight fires in the wildland-urban interface, is USFA engaged in 
fostering the working relationship between local fire department and 
the federal agencies that handle wildland fires?

A6. The United States Fire Administration (USFA) has a strong working 
relationship with the wildland fire community to coordinate with 
various federal, State, and local agencies on a wide variety of public 
education, training, mitigation, and response initiatives as well as 
policy issues that contribute to the reduction of wildland fires and 
their impact on the American public. Programs are designed, developed, 
and implemented to provide education and awareness to the general 
public and local officials with a basic understanding of appropriate 
wildland urban interface fire prevention and mitigation initiatives for 
the home and the community at large. Firefighting objectives, 
strategies, tactics and tasks in the wildland environment differ from 
those in the structural fire protection community, so cross training 
these entities is an important part of community preparedness.
    USFA is represented on the Wildland Fire Leadership Council (WFLC) 
which is a senior-level body that provides policy-level coordination 
between the Department of Interior, Department of Agriculture Forest 
Service, State Foresters, Fish and Wildlife Service, National Park 
Service, Bureau of Indian Affairs, National Weather Service and USFA. 
These agencies work together to coordinate and support wildland fire 
and disaster operations. USFA is a member of the newly constituted Fire 
Executive Council, a senior executive level body comprised of members 
from the Department of Interior Bureau's with wildland fire 
responsibility. USFA has a full-time staff member assigned at the 
National Interagency Fire Center (NIFC). USFA is a permanent member on 
the National Multi-Agency Coordination Group (NMAC) which provides 
geographic area priorities, coordination for national shared resources, 
shortage area resource needs, incident operations coordination and 
preparation for fire season operations. USFA serves as the link to 
local government fire service issues and resolution at NIFC. USFA 
serves on several National Wildfire Coordinating Groups (NWCG) Parent 
Group and Working Teams including Training, Fire Investigation, and 
Wildland/Urban Interface.
    USFA has underway a Training Equivalency/Crosswalk initiative with 
the consolidation of specific NWCG course units. The purpose is to 
identify gaps in standard structural fire training programs to help 
firefighters become competent in wildland fire operations. The goal of 
the project is to improve training options available to firefighters by 
recommending a standardized crosswalk of equivalency training or 
potential reciprocity between existing training provided to structural 
and wildland firefighters.
    Through a partnership with USFA and the Forest Service, a Wildland/
Urban Interface 3D Simulation tool has been developed. It is being 
delivered to support simulation training for the Wildland/Urban 
interface problem as evidenced by the recent Southern California Fire 
Siege. This training simulation provides a physically realistic fire 
propagation model based on fuel types, various environmental 
conditions, and topography. Participants have the ability to request 
resources and simulate building fire lines to hinder and stop the 
propagation of the fire. Instructors have the ability to alter the 
environmental conditions that in turn affect the behavior of the fire.
    The overall goal of the USFA All-Hazard Incident Management Team 
(Type 3) (AHIMT) Technical Assistance program is to develop all-hazard 
state, metropolitan and regional Incident Management Teams (IMTs) to 
better prepare local communities with the capability to manage large 
scale and complex emergency incidents, including local incidents with 
national implications. The AHIMT can support either an existing 
Incident Command System (ICS) structure or can assume command of an 
incident if requested and so delegated. A component of the program 
includes field training opportunities. The knowledge disseminated 
through the training has been applied successfully at several events 
including Hurricanes Katrina, Rita, and Wilma; floods, wildland fires, 
and law enforcement incidents.
    In the wildland fire community, the Forest Service and the NWCG 
recognize five ``Types,'' or levels, of IMTs. USFA has stayed with this 
model for the all-hazards emergency response community. The IMT types 
are:

         Type 5--Local command and general staff formed at a major/
        complex incident.

         Type 4--Regional or local, single or multi-agency team for 
        expanded incidents

         Type 3--State or Regional multi-agency/multi-jurisdiction team 
        for extended incidents

         Type 2--National or State team for incidents of regional 
        significance

         Type 1--National or State team for incidents of national 
        significance

    Several USFA AHIMT Type 3 teams have had opportunities to work 
directly with the National Type 1 and 2 teams on various incidents of 
national significance. Based on real world experience gained through 
application, the training has been revised to ensure that it will 
continue to provide the necessary tools for individuals to perform as 
members of a Type 3 IMT.

Q7.  Captain Livingston, representing the International Association of 
Fire Fighters, testified that USFA should be encouraging local fire 
departments to adopt national safety standards. What is USFA doing to 
facilitate and encourage State and local fire agencies to adopt 
voluntary consensus standards like NFPA 1500? What other measures is 
USFA taking to decrease the number of line of duty deaths in the fire 
service?

A7. The United States Fire Administration (USFA) participates on the 
DHS Science and Technology Standards Council and has worked with the 
Council to adopt twenty-five NFPA standards including NFPA 1500. The 
Assistance to Firefighters Grant Program (AFG), administered by FEMA's 
Grants Program Directorate, uses the adopted standards to set targets 
and goals for recipients of AFG grants. Grant applicants are asked to 
articulate how an award will get them closer to meeting a standard 
relevant to the type of grant they are requesting.
    USFA has initiated a multitude of studies and project efforts to 
reduce firefighter on-duty deaths including those in health and 
wellness, dealing with the leading cause of on duty fatalities--heart 
attack and stress; in emergency vehicle safety aimed to reduce the 
second leading cause of such fatalities--crashes. Further, USFA has 
projects dealing with firefighting technology to enhance firefighter 
operational safety on the fireground, including Thermal Imaging 
Cameras, Firefighter Simulation Training, and other areas. Finally, 
USFA's firefighter health and safety studies encourage fire service 
compliance with relevant NFPA health and safety standards, such as NFPA 
1500.
    In cooperation with the National Fallen Firefighters Foundation, 
the International Association of Fire Chiefs, the International 
Association of Fire Fighters, the National Volunteer Fire Council and 
many others, the USFA has championed the national ``Everybody Goes 
Home'' campaign for firefighter safety and health (which is built from 
the NFPA 1500 standards). Every student who attends a NFA course 
receives a copy of these 16 initiatives on a CD for use when they 
return home. Across the National Fire Academy's curricula, where 
appropriate, consensus standards are referenced and discussed. Since 
1988 (with periodic updates) the NFA has been conducting courses 
specifically focusing on reducing line of duty deaths.

Q8.  What process does USFA use to develop new curriculum for the 
National Fire Academy? After major events, like Hurricane Katrina, how 
does USFA incorporate ``lessons learned'' into new courses?

A8. The United States Fire Administration (USFA) employs a formal 
``Curriculum Management System'' that relies on constituent input into 
curriculum planning and development. USFA maintains strong State and 
local partnerships to assist these organizations in their training by 
identifying programs that complement and supplement State and local 
training, and not replicate their efforts. This partnership with State 
and local organizations through the years has produced programs such as 
State Delivery, Train-the-Trainer, In-Service Training, State Weekend 
Programs, Volunteer Incentive Program (VIP), Training Resources and 
Data Exchange (TRADE), Regional Delivery, and Degrees at a Distance 
Program (DDP).
    USFA uses the TRADE network to identify training needs regionally; 
USFA also meets periodically with national organizations such as the 
North American Fire Training Directors (NAFTD), International 
Association of Fire Chiefs (IAFC) Professional Development Committee, 
the National Volunteer Fire Council (NVFC), and other organizations to 
plan delivery and development needs. In addition, USFA has developed 
one of the Federal Emergency Management Agency's (FEMA's) most 
comprehensive formal training evaluation systems. Information, 
feedback, and cues from a variety of internal and external sources are 
used in curriculum planning and in fine-tuning courses. Sources include 
post-course and long-term evaluations, information from 
Superintendent's luncheons, the Superintendent's annual input/exchange 
at the IAFC conference, contract instructor debriefings, reports from 
curriculum meetings, and written and verbal input from thousands of 
users, supporters, and partners.
    Key to USFA's curriculum management approach is staff expertise and 
responsibility. USFA uses a team approach to needs assessment, 
curriculum planning, course development, course delivery, and course 
handoff. Training Specialists, the Instructional Systems Specialists, 
the Program Specialists, the Field Managers, the Program Managers, 
Program Support Assistants and Secretaries, and all members of the 
management team contribute their skills and expertise to the management 
of the curriculum. An essential part of their daily responsibilities is 
to ``scan the environment'' for important issues and lessons learned 
that will be incorporated into course work.

Q9.  Please describe how USFA's planned update for the National Fire 
Incident Reporting System (NFIRS) will facilitate faster reporting, 
increased participation, and increased accessibility. What measures 
will be taken to ensure that the quality of the database is not 
compromised? Since fire losses in the U.S. are still the highest in the 
developed world, is the information drawn from the data being 
effectively applied? What more can be done to ensure that the data 
drawn from these past incidents is put into practice?

A9. Fire departments that choose to use a NFIRS Web browser based 
reporting tool will no longer need to download, install, and configure 
client software. The anticipated result will be a faster and easier 
initial reporting experience. Small departments without technically 
experienced personnel that may have found it daunting to participate in 
NFIRS due to technical or financial barriers can begin reporting 
immediately as long as they have access to a PC, Internet connection 
and standard browser.
    USFA currently collects NFIRS data on-line via the Internet using a 
client-based data collection software tool. All data that is currently 
reported on-line directly into the national NFIRS server is first 
validated before entry into the database using a tool that tests 
against the standard NFIRS 5.0 data edits and validation rules. These 
same data validation routines will be run on data reported through the 
new Web based application.
    Fire losses in the U.S. are no longer the highest in the 
industrialized world. According to 2007 World Fire Statistics Center 
statistics, among industrialized nations, the U.S. ranks 18th in direct 
fire losses as a percentage of national GDP and 7th in fire death rate. 
Trends in fires, civilian fire deaths, and civilian fire injuries have 
been steadily declining over the past three decades, thus indicating 
the data are being effectively applied to the fire problem to reduce 
losses. The data compiled from NFIRS will continue to be used to inform 
fire prevention programs so as to ensure trend audiences are being 
attended to (such as the elderly and young). By combining the fire 
prevention and fire data responsibilities, USFA will be better able to 
respond to the needs of those at risk.
    USFA and other organizations such as the Consumer Product Safety 
Commission (CPSC) and the National Fire Protection Association (NFPA) 
continuously analyze the collected NFIRS data to identify emerging fire 
trends. Additionally, USFA, states, local governments and others uses 
these data to target prevention and mitigation programs toward high 
risk groups to aid in reducing the fire problem.

Q10.  Is USFA involved in activities to aid local communities in 
evaluating optimal fire and emergency services asset management and 
distribution to achieve the greatest level of community protection, 
especially in disaster situations that strain resources?

A10. The United States Fire Administration (USFA) prepares local 
departments to prioritize and establish their own level of community 
protection. USFA efforts include publications, projects, classes, 
training, conferences, seminars, symposia and other events.
    The USFA provides a series of training classes to the fire and 
emergency services that support and provide information for community 
protection. Almost all of the 64 plus residential courses USFA, through 
the National Fire Academy (NFA), provide support to planning for every 
day events as well as natural and man made disasters. The NFA also 
conducts courses in community risk management, long-term planning and 
emergency command and control that focus on extremely large and complex 
incidents involving multiple agencies.

Questions submitted by Representative Phil Gingrey

Q1.  In Captain Livingston's testimony, he calls on USFA to be more 
proactive in supporting inter-operable standards from Project 25 and 
training and operations standards from NFPA. What activities has USFA 
undertaken to support wider availability and adoption of inter-operable 
communications technology? What ability does USFA have to influence the 
adoption of both sets of standards?

A1. The United States Fire Administration (USFA), supported by S&T 
Directorate SAFECOM\1\ funding, initiated a fire service communications 
study that is still underway and will be used to update an aged USFA 
Fire Department Communications manual. When complete, the updated 
document will provide information to the fire service educating and 
encouraging them on the use of inter-operable communications. USFA was 
also supported by SAFECOM for educational programs on communications 
operability at a national fire service conference. Through these 
efforts, additional fire service members would be better informed about 
adoption of inter-operable communications technology.
---------------------------------------------------------------------------
    \1\ The Department of Homeland Security Appropriations Act, 2007 
gave the Office of Emergency Communications (OEC) the responsibility to 
administer certain elements of the SAFECOM program. SAFECOM's 
authorities related to research, development, testing, evaluation, and 
standards will remain in the Office for Inter-operability and 
Compatibility (OIC) within the Science and Technology Directorate. 
Under its authorities, OIC is working with the National Institute of 
Standards and Technology (NIST) to support the efforts of the emergency 
response community and industry to accelerate the development of the 
Project 25 (P25) suite of standards.
---------------------------------------------------------------------------
    The USFA does not have any legislative or legal authority to 
influence the adoption of any standards.

Q2.  USFA trains significantly more people through State and local 
partnerships than through the facilities at Emmitsburg. How does NFA 
design courses for presentation outside of Emmitsburg? What 
requirements does USFA place on groups seeking to provide NFA-approved 
courses?

A2. The Unites States Fire Administration (USFA), through the National 
Fire Academy (NFA) offers two-day courses are well suited for weekend 
delivery to the Nation's volunteer firefighters. When any new course is 
being developed, the NFA considers the possibility of assembling some 
modules into another coherent (but shorter) course. Modules (depending 
upon the course) are a few hours in length, convenient to evening hours 
training.
    Unless they require special facilities such as laboratories, burn 
buildings or graphics equipment, well-designed courses can be presented 
anywhere. NFA has conducted many of the resident courses at host 
facilities around the Nation.
    Groups seeking to deliver a NFA course must coordinate delivery 
through the appropriate State fire service training agency to ensure 
quality is maintained, the students are properly registered and they 
receive credit whatever qualifications successful completion of the 
course provides. In some cases, the delivery is funded by the State or 
the host agency.

Questions submitted by Representative Judy Biggert

Q1.  Why have many local fire departments not adopted national 
standards that would reduce the number of firefighter line of duty 
deaths? Are their specific barriers that hinder the adoption of these 
standards?

A1. The major specific barrier to adoption of such standards is cost. 
There are numerous fire departments in the United States that do not 
have adequate resources to do adapt and implement such standards. The 
United States Fire Administrations (USFA's) A Second Needs Assessment 
of the Fire Service illustrates numerous examples of fire departments 
having inadequate protective equipment and not possessing required 
training to meet such standards and, in some cases, fire departments 
having no protective equipment at all. The Assistance to Firefighter 
Grants (AFG) program which is run by FEMA's Grants Program Directorate 
has been assisting in getting money to departments to meet baseline 
needs. This program only assists in providing the baseline amount of 
equipment to departments and is not a sustainment program, which means 
eventually, departments will have to secure funding to replace or 
repair items bought under the AFG.
    Another hindrance is the time requirements for firefighters to 
complete training and meet the standards. In the volunteer fire service 
the challenge may be a regular paying job and family demands; while in 
the career fire service, it may be the inability to place companies out 
of service while firefighters participate in training or the cost of 
overtime to conduct training outside regular hours.

Q2.  Does USFA provide any guidance with regard to maintenance and 
upgrade of the infrastructure of local fire facilities to ensure that 
they remain adequate as firefighting technology and personnel change 
over time?

A2. United States Fire Administration (USFA) staff serve as liaisons to 
National Fire Protection Association (NFPA) Occupational Safety and 
Health technical committees responsible for the development of 
consensus standards relating to fire station facilities design and 
personnel safety. These standards have identified specific areas 
regarding personal training areas, decontamination capabilities, 
sanitation and air quality, fire resistant design and alerting, 
sleeping quarters, and apparatus size and design. In addition, the 
standards also address care, maintenance, and storage of personal 
protective clothing and equipment. As firefighting technologies evolve, 
the standards are revised to address these areas that are primary to 
firefighter health and safety. Additionally, USFA tracks and identifies 
firefighter occupational health and injury statistics that are utilized 
in the committee process for standard revision. USFA staff also uses 
that information for curriculum updates and revisions.
    USFA works closely with the DHS National Operations Center (NOC), 
National Infrastructure Coordination Center (NICC), Office of 
Intelligence & Analysis (IA), Office of Infrastructure Protection (IP), 
Infrastructure Partnerships Division (IPD), Chemical & Nuclear 
Preparedness & Protection Division (CNPPD), and USFA's own Emergency 
Management and Response--Information Sharing and Analysis Center (EMR-
ISAC) to provide timely information directly to the Nation's fire and 
emergency services in order to protect the personnel, facilities, and 
communications resources of each agency from natural, manmade and 
technological disasters. In keeping with its role in information 
sharing, the USFA EMR-ISAC is a key participant in the Homeland 
Security Information Network (HSIN) working group that was convened to 
establish an Emergency Services Sector (ESS) portal. This portal will 
serve as another mechanism in which critical information may be shared, 
chronicled, and warehoused for the ESS.
    USFA is an approved member serving on the InterAgency Board for 
Equipment Standardization and Inter-operability (IAB). The mission of 
the IAB is to establish and coordinate local, State, and federal 
standardization, inter-operability, compatibility, and responder health 
and safety to prepare for, train and respond to, mitigate, and recover 
from any incident by identifying requirements for an all-hazards 
incident response with a special emphasis on Chemical, Biological, 
Radiological, Nuclear or Explosive (CBRNE) issues.
    The Assistance to Firefighters Grant (AFG) Program, managed by 
FEMA's Grants Program Directorate awards grants to fire departments to 
enhance their ability to protect the public and fire service personnel 
from fire and related hazards. There are three types of grants 
available: Assistance to Firefighters Grants (AFG), Fire Prevention and 
Safety (FP&S), and Staffing for Adequate Fire and Emergency Response 
(SAFER). Additional information is available at 
www.firegrantssupport.com. Each of these grant programs assists local 
fire departments in meeting their preparedness goals.
    In training, these topics are included in the budget, planning, 
risk management and command courses. ``Best practices'' are also 
highlighted and discussed.
    USFA has developed a document Safety and Health Considerations for 
the Design of Fire and Emergency Medical Services Stations that 
provides guidance on the design or remodeling of fire and emergency 
medical services stations and other facilities in terms of safety and 
health concerns of personnel who must work and live in those 
facilities.

                   Answers to Post-Hearing Questions

Responses by Sivaraj Shyam Sunder, Director, Building and Fire Research 
        Laboratory, National Institute of Standards and Technology, 
        Department of Commerce

Questions submitted by Chairman David Wu

Q1.  How does NIST facilitate technology transfer of successful 
research results into products and practices for the fire service 
community? Do any R&D efforts relate to lowering the cost of equipment 
for fire departments? How does NIST measure impact of its fire R&D 
efforts on fire prevention, firefighting, and fire recovery?

A1. There are multiple means that NIST uses to facilitate technology 
transfer of our R&D results to the fire service community:

        <bullet>  presentations of research results at national 
        conferences on firefighting technologies, including:

                  the National Fire Protection Association (NFPA) 
                Annual World Safety Conference and Expo,

                  the International Association of Fire Fighters 
                (IAFF) Redmond Symposium,

                  the annual conference of the International 
                Association of Fire Chiefs (IAFC),

                  the annual Conference of Fire Safety Instructors, 
                and

                  conferences of the International Association of 
                Arson Investigators (IAAI);

        <bullet>  organizing workshops and special seminars with the 
        fire service community aimed at planning research and 
        disseminating the results;

        <bullet>  serving on fire standards committees of NFPA, 
        Underwriters laboratory (UL), and ASTM;

        <bullet>  serving on the Science Advisory Committee of the 
        National Association of State Fire Marshals;

        <bullet>  having a NIST staff member from Gaithersburg spend 
        one day a week in Emmitsburg at the National Fire Academy (NFA) 
        to help plan and coordinate research programs;

        <bullet>  working with the NFA to incorporate the results of 
        the research into the curriculum, and participating in the 
        actual instruction;

        <bullet>  publishing an on-line newsletter, FIRE.GOV, in 
        partnership with the United States Fire Administration (USFA) 
        that contains easy to read articles specifically aimed at the 
        fire services and describes ongoing research activities around 
        the world;

        <bullet>  issuing reports, CDs, DVDs, and publishing articles 
        in the archived literature, and making these available through 
        our web site.

        <bullet>  supporting pre-competitive SBIR research on promising 
        new fire service technologies.

    Our research affects the cost of firefighting equipment in two 
ways. First, by advancing measurement and predictive methods for the 
way fires spread, we are able to better determine the impact of a fire 
mitigating strategy, and to work with standards developing 
organizations to incorporate standards that are based upon meaningful 
performance metrics and provide a uniform playing field for competing 
technologies and manufacturers. By promoting performance-based 
standards for firefighting equipment, NIST enables the private sector 
to innovate and compete, often at reduced costs, while ensuring a 
satisfactory level of safety. Science-based performance metrics for 
these technologies also serve to protect the investment of local 
communities. Recent examples of standards improved by or based upon 
NIST research include thermal imaging cameras, turn-out gear, and 
positive pressure ventilation systems.
    The second way that NIST research affects equipment costs is 
through the Building and Fire Research Laboratory's Office of Applied 
Economics, which conducts economic analyses and develops decision tools 
to assist local communities in deciding among multiple strategies or 
technologies in which to invest.
    NIST R&D is geared toward fire prevention and firefighting 
technologies; no research is currently underway in fire recovery. The 
impact of the NIST fire R&D effort is demonstrated in several ways:

        <bullet>  improvements to standards for fire detection, fire 
        suppression, and flammability of materials (for example, the 
        newly adopted test methods for mattress flammability and for 
        reduced ignition-prone cigarettes.)

        <bullet>  improvements to computer simulation tools for 
        predicting how fires spread within a building, from building to 
        building, and the wildland-urban interface from wildlands to 
        buildings.

        <bullet>  fire service standards developed or modified, and 
        technologies marketed by the private sector that were enabled 
        by NIST research.

        <bullet>  improved practices adopted by the fire services.

        <bullet>  requests for NIST information by the fire services 
        (CDs, videos, reports) and invitations to speak at local, 
        national and international meetings with substantial fire 
        service involvement.

        <bullet>  new/modified courses taught by the National Fire 
        Academy based upon NIST R&D.

Q2.  How has NIST's work on fires at the wildland-urban interface been 
transferred to either policy or technology to mitigate structures in 
these areas?

A2. NIST, with funds provided by Congress in FY 2007 as part of the 
American Competitiveness Initiative, has recently ramped up its 
research into fires at the wildland-urban interface, with the objective 
of developing tools for reducing community losses in wildland-urban 
interface fires. These tools will assist communities in their fire risk 
assessment and choice of economically balanced mitigation strategies 
that limit the ignition of residences and improve firefighter and 
community safety. In past work supported by the Pacific Southwest 
Research Station (PSW) of the Forest Service under the interagency 
National Fire Plan, NIST provided the heat transfer model to ecoSmart-
FIRE which is the fire component of ecoSmart. ecoSmart is a web based 
tool for helping homeowners choose landscaping options that are more 
fire safe and evaluates the economic trade of the options. Funding from 
NIST to the University of Florida and the Southern Research Station of 
the Forest Service supported flammability measurements of commonly used 
ornamental vegetation. Ratings of the vegetation have been made 
publicly available. Another economic tool is currently being developed 
that will be spatially-explicit, allowing communities to tailor and 
target cost-effective wildfire mitigation solutions to their geographic 
area of concern.
    NIST research is beginning to fill in the major scientific gaps 
necessary to allow a transformation to performance-based codes and 
standards for building and protecting communities at the edge of 
wildlands. We are making progress in our understanding of the role of 
fire brands, produced by both burning vegetation and structures, in 
spreading the fire. A wildland-urban interface fire behavior computer 
model is under development. Unlike wildland fire models this model will 
include the structural fuels which differ significantly from wildland 
fuels in their ignition and burning characteristics. We are following 
the standards work being done in California regarding the proper design 
of roof and eave vents to prevent entrance by fire brands, and are 
currently on the ground in southern California to better understand the 
fire behavior and the influence of the housing and community layout on 
the extent of damage encountered.
    NIST is actively participating with organizations that influence 
policy and building codes. NIST staff serves on:

        <bullet>  the National Blue Ribbon Panel on the Wildland-Urban 
        Interface for the International Code Council (ICC);

        <bullet>  the Subcommittee on Disaster Reduction of Wildland 
        Fires to the Committee on Environment and Natural Resources of 
        the President's National Science and Technology Council, as co-
        chairs;

        <bullet>  the ArcView Review Technical Panel for National Fire 
        Protection Association's FIREWISE Program,

        <bullet>  the U.S. Forest Service Fuel Characteristic 
        Classification System National Review Panel, and

        <bullet>  the NFPA Forest and Rural Fire Protection Standards 
        Committee.

Q3.  In fiscal year 2007, how much funding did the USFA contribute to 
NIST fire-related research activities? How has this amount changed 
since FY 2004?

A3. Because of recent and multiple reorganizations of USFA within the 
Department of Homeland Security, an accounting of the exact source of 
fire research funding from the USFA is not easily collected. With that 
caveat, in FY 2007 NIST received $494K directly traceable to the FEMA/
NETC Acquisition Section, Emmitsburg, MD. This compares to $450K in FY 
2004. Please note that the National Emergency Training Center was under 
USFA in FY 2004, but currently is under FEMA.

Question submitted by Representative Jim Matheson

Q1.  In Dr. Sunder's testimony, there was reference to tools that NIST 
has created to help communities assess fire risk and make economically-
balanced choices in fighting fires in the wildland-urban interface. 
What are some of these tools and what strategies are communities using 
to protect themselves from this type of fire?

A1. NIST, with funds provided by Congress in FY 2007 as part of the 
American Competitiveness Initiative, has recently ramped up its 
research into fires at the wildland-urban interface, with the objective 
of developing tools for reducing community losses in wildland-urban 
interface fires. These tools will assist communities in their fire risk 
assessment and choice of economically balanced mitigation strategies 
that limit the ignition of residences and improve firefighter and 
community safety. In past work supported by the Pacific Southwest 
Research Station (PSW) of the Forest Service under the interagency 
National Fire Plan, NIST provided the heat transfer model to ecoSmart-
FIRE which is the fire component of ecoSmart. ecoSmart is a web based 
tool for helping homeowners choose landscaping options that are more 
fire safe and evaluates the economic trade of the options. Funding from 
NIST to the University of Florida and the Southern Research Station of 
the Forest Service supported flammability measurements of commonly used 
ornamental vegetation. Ratings of the vegetation have been made 
publicly available Another economic tool is currently being developed 
that will be spatially-explicit, allowing communities to tailor and 
target cost-effective wildfire mitigation solutions to their geographic 
area of concern.
    NIST research is beginning to fill in the major scientific gaps 
necessary to allow a transformation to performance-based codes and 
standards for building and protecting communities at the edge of 
wildlands. We are making progress in our understanding of the role of 
fire brands, produced by both burning vegetation and structures, in 
spreading the fire. A wildland-urban interface fire behavior computer 
model is under development. Unlike wildland fire models this model will 
include the structural fuels which differ significantly from wildland 
fuels in their ignition and burning characteristics. We are following 
the standards work being done in California regarding the proper design 
of roof and eave vents to prevent entrance by fire brands, and are 
currently on the ground in southern California to better understand the 
fire behavior and the influence of the housing and community layout on 
the extent of damage encountered.
    NIST is actively participating with organizations that influence 
policy and building codes. NIST staff serves on:

        <bullet>  the National Blue Ribbon Panel on the Wildland-Urban 
        Interface for the International Code Council (ICC);

        <bullet>  the Subcommittee on Disaster Reduction of Wildland 
        Fires to the Committee on Environment and Natural Resources of 
        the President's National Science and Technology Council, as co-
        chairs;

        <bullet>  the ArcView Review Technical Panel for National Fire 
        Protection Association's FIREWISE Program,

        <bullet>  the U.S. Forest Service Fuel Characteristic 
        Classification System National Review Panel, and the NFPA 
        Forest and Rural Fire Protection Standards Committee.

Question submitted by Representative Laura Richardson

Q1.  Is there a need for standards to ensure that all fire hydrants 
operate when they are needed in an emergency? Please provide whatever 
information NIST can related to this subject.

A1. The maintenance and inspection of fire hydrants is a State and 
local issue. The National Fire Protection Association (NFPA) provides 
standards and guidance which State and local jurisdictions may choose 
to adopt to ensure the proper operation of the fire hydrant and the 
adequacy of the water supply.
    NFPA 1, Uniform Fire CodeTM (section 18.3) describes the general 
requirements for water supplies and hydrants. ``An approved water 
supply capable of supplying the required fire flow for fire protection 
shall be provided to all premises upon which facilities, buildings, or 
portions of buildings are hereafter constructed or moved into the 
jurisdiction. . .. The number and type of fire hydrants and connections 
to other approved water supplies shall be capable of delivering the 
required fire flow and shall be provided at approved locations.'' Annex 
H of NFPA 1 provides guidance for determining the required fire flow, 
and Annex I of NFPA 1 provides guidance for determining the number and 
location of fire hydrants.
    NFPA 25, Standard for the Inspection, Testing, and Maintenance of 
Water-Based Fire Protection Systems, generally applies more to private 
fire protection systems but has requirements related to inspecting, 
maintaining, and testing hydrants. Section 7.3.2 of NFPA 25 states that 
hydrants shall be tested annually to ensure proper functioning, that 
each hydrant shall be opened fully and water flowed until all foreign 
material has cleared, and that the flow shall be maintained for not 
less than one minute.
    NFPA 291, Recommended Practice for Fire Flow Testing and Marking of 
Hydrants, is used for guidance in the testing of hydrants to determine 
how much fire flow is actually available.
    There are numerous techniques for monitoring water pressure going 
to a fire hydrant, and sensors are available to indicate the amount of 
water flowing when the hydrant is opened. However, monitoring devices 
are only as good as their maintenance. If the current NFPA standards 
and guidance for installing and testing fire hydrants are followed in a 
community, and any deficiencies uncovered during inspection and testing 
are remedied, then the community should not be experiencing fire 
hydrant failures. The addition of remote sensing devices for monitoring 
water pressure and/or flow, and the development of standards for their 
operation, would not appreciably increase the level of protection for 
the community over the current level provided by NFPA 1, NFPA 25 and 
NFPA 291. It is NIST's opinion that the cited NFPA codes, standards and 
guidance are adequate to address.

                   Answers to Post-Hearing Questions

Responses by Steven P. Westermann, President and Chief Fire Officer, 
        International Association of Fire Chiefs

Questions submitted by Chairman David Wu

Q1.  You mentioned in your testimony that over a million firefighters 
nationwide have not had the benefit of U.S. Fire Administration 
training. To what extent, due to a lack of resources, is USFA failing 
to meet the demand for emergency personnel training and public 
education opportunities?

A1. The National Fire Academy (NFA) is America's premier fire training 
institution. According to the October 2, 2007, testimony of Chief 
Gregory B. Cade, the U.S. Fire Administrator, the NFA trained 8,278 
students on-campus and 76,918 students through off-campus/distance 
learning training courses. In addition, the NFA partners with 
accredited State fire training programs, which trained over 750,000 
firefighters last year.
    Increased funding would allow the NFA to enhance both its course 
development and outreach efforts. The NFA uses course work distributed 
over the Internet to shorten the length of time that a student needs to 
spend taking classes at the Emmitsburg campus. With an increase in 
funding, the USFA could make more classes available over the Internet 
and consider other new technologies for distributing educational 
content.
    The ``train-the-trainer'' programs, which focus on training fire 
chiefs and the fire departments' training officers, are especially 
helpful for volunteer departments. Many volunteer departments do not 
have the funding to send their volunteer firefighters to multi-week 
classes at Emmitsburg, and the volunteer firefighters may not be able 
to make the time commitment. A ``train-the-trainer'' class allows the 
training officer to travel to Emmitsburg for classes and then pass this 
information to the other firefighters in the fire department. Increased 
funding for the USFA would allow the NFA to develop additional ``train 
the trainer'' programs.
    The NFA also benefits from close cooperation with State and local 
training organizations. When training can be supplied in the home state 
or locality, efficiencies are created by saving travel costs and 
allowing for more flexible training program delivery schedules. In 
addition, local instructors are able to adapt training programs to meet 
the unique needs of local communities. Currently, the NFA provides each 
state with $25,000 annually to cover the costs associated with the 
delivery of these programs. This amount may not be enough to offset the 
costs incurred by State training facilities. With increased funding, 
the USFA could provide an increased amount to State training programs 
to run these vital programs.

Q2.  Do you believe that the National Fire Academy (NFA) training 
activities have an adequate balance between preparedness and response 
for terrorist events versus the myriad other emergency events and 
management issues fire departments must confront? Does USFA have a 
strong enough all-hazards approach? What about the Federal Emergency 
Management Association [sic] (FEMA)?

A2. In general, we believe that the NFA has an adequate balance of 
courses covering all hazards. The NFA classes cover a wide range of 
classes including hazardous materials response, arson investigation, 
tactical operations, leadership, and the response to terrorism. The NFA 
should review its curricula to ensure that its classes are up-to-date 
and include information about the new National Response Framework 
(NRF), the National Incident Management System (NIMS), and other new 
developments at the U.S. Department of Homeland Security (DHS). In 
addition, the DHS should leverage the USFA's and NFA's expertise at 
developing training materials to better educate first responders about 
the new NRF and its annexes, the NIMS, and other DHS initiatives. By 
collaborating with the NFA, the DHS can develop training courses and 
guides that can be easily understood and used by first responders 
during emergencies.
    Regarding whether the USFA and the FEMA have achieved the 
appropriate balance of preparedness and response capabilities for both 
terrorism and natural hazards, the IAFC is pleased that the USFA and 
FEMA have adopted a more robust ``all-hazards'' approach. The Fiscal 
Year 2007 Department of Homeland Security Appropriations Act of 2007 
(P.L. 109-295) included legislation that implemented a number of 
reforms to focus the FEMA on using an ``all-hazards'' approach. The 
IAFC is encouraged by the FEMA's recent ``all hazards'' focus in the 
draft NRF, and other administrative changes. In addition, Chief Cade 
has made ``all-hazards'' preparedness a focus at the USFA.

Q3.  Administrator Cade mentioned in his testimony that USFA strongly 
advocates for fire departments to be the centers for emergency 
preparedness in their jurisdictions. Is this message reaching local 
departments? Does USFA provide enough guidance to help departments 
assume this role?

A3. In most communities, fire departments are the lead agencies for 
emergency preparedness. They provide emergency preparedness education 
through ``open houses;'' presentations to schools and community 
organizations; residential fire sprinkler campaigns; smoke alarm 
distribution and training; and building code inspections. The USFA has 
a number of educational materials available on the web and through fire 
prevention training at the NFA to help local fire departments promote 
emergency preparedness in their communities. The DHS's Assistance to 
Firefighters Grant (AFG) program's Fire Prevention and Safety grants 
also fund initiatives to educate the public about emergency 
preparedness at the national and local levels. In addition, the 
Emergency Management Institute (EMI) plays a large role in this 
emergency preparedness outreach training. The EMI was transferred out 
of the USFA's jurisdiction as part of the Fiscal Year 2007 Department 
of Homeland Security Appropriations Act (P.L. 109-295).
    Of special importance is the USFA's effort to advocate the 
increased use of residential fire sprinklers. Currently, only two 
percent of American homes have fire sprinklers, despite the important 
lifesaving role that they play. According to the National Fire 
Protection Association, ``when sprinklers are present in structures. . 
., the fire death rate per 1,000 reported structure fires is lower by 
at least 57 percent and the rate of property damage per reported 
structure fire is lower by one-third to two-thirds (34-68 percent).'' 
Congress should continue to support the USFA's efforts to work with the 
fire service to inform the American public about the advantages of 
installing fire sprinklers in homes.

Q4.  How would you characterize USFA's leadership role with respects to 
promoting the adoption of national standards and other measures to 
decrease firefighter line of duty deaths? What more could they be 
doing?

A4. The 16 Firefighter Life Safety Initiatives, developed under the 
auspices of the National Fallen Firefighters Foundation, encourage the 
development of national standards for emergency response policies and 
procedures, and firefighter training, certification, and 
qualifications. The IAFC believes that the USFA has been an effective 
advocate for the use of national voluntary consensus standards to 
improve firefighter health and safety. National voluntary consensus 
standards, such as those developed by the National Fire Protection 
Association, include input from a number of stakeholders, including 
fire chiefs; private industry; federal agencies, such as the USFA; 
career and volunteer firefighters; fire service organizations; and 
other interested parties. These voluntary consensus standards currently 
cover many aspects of firefighter training, equipment, incident 
operations, etc.
    It is important to recognize that the cost of implementing these 
national voluntary consensus standards can be expensive for both major 
metropolitan departments and rural fire departments. Grant programs, 
such as the DHS's AFG (popularly known as the ``FIRE'' grant) program, 
play a critical role in helping fire departments fund training and 
exercises, and purchase equipment that is consistent with national 
voluntary consensus standards. The DHS' SAFER grant program helps fire 
departments hire career, or recruit and retain volunteer, firefighters 
to come into compliance with the staffing requirements of the NFPA 1710 
``Standard on Fire Deployment and Operations.''

Questions submitted by Representative Jim Matheson

Q1.  Chief Westermann, in your testimony you referenced collaboration 
between the USFA and the Department of Agriculture and Department of 
Interior. This issue is particularly important in a state like mine 
where wildfires often require coordination between the U.S. Forest 
Service and local fire departments. How do these agencies interact with 
one another? Are there ways to improve communication and coordination 
so that these agencies are prepared to work together to fight fire?

A1. Background: In Utah, local fire departments often work directly 
with the U.S. Forest Service to fight fires that encroach in 
residential areas. Despite coordination, many fire departments and 
other first responders still face challenges in communicating with one 
another.
    Good coordination between the U.S. Forest Service (USFS) and local 
fire departments can be an essential element to providing adequate 
wildland fire protection for our country. In some areas, the 
relationships between the USFS and the local fire departments are very 
strong, while the relationships need work in other areas. The IAFC has 
been working for several years with the USFS and the U.S. Department of 
the Interior (DOI) in order to improve the relationship between the 
local fire service and the federal wildland fire agencies. We believe 
that in order to be most effective in the wildland and the wildland 
urban interface area, local, State and federal (local units) agencies 
must work together in a seamless and integrated manner.
    However, we have discovered that it takes a significant amount of 
work at the local, State, and national levels in order to develop a 
truly seamless and integrated response to wildland fires, where local, 
State and federal (local units) agencies respond together as if they 
are one organization. In responding to a wildland fire, mutual aid can 
be quickly deployed from other states, and the different responding 
organizations must respect each other's training, qualifications, and 
organizational systems.
    Grant programs such as the Volunteer Fire Assistance program (U.S. 
Department of Agriculture) and the Rural Fire Assistance (DOI) program 
provide critical support for the training and safety equipment that 
allows local governments to be effective in fighting wildland fires. 
These programs also help to improve the relationship between the 
federal agencies and the local governments.
    In order to enhance communication and coordination between local 
and federal agencies, Congress also must address the issues surrounding 
wildland fire funding. The state of fuels in our forest, demographic 
changes and the changing climate will all have a significant impact on 
the wildland fire problem and the cost of fires in the future. The fire 
suppression budget for the USFS should be adequately funded and 
partitioned from their general budget.
    As we move forward into the future, it is important to note that no 
one group--local, State, federal or tribal--can effectively or 
efficiently address the wildland fire problem alone; we must all work 
together and at all levels of government.
    Again, I would like to thank you for your dedication to meeting the 
needs of America's fire service by moving to reauthorize the U.S. Fire 
Administration this year.

                   Answers to Post-Hearing Questions

Responses by Robert Livingston, Legislative Director of the Oregon 
        State Council of Fire Fighters, International Association of 
        Fire Fighters

Questions submitted by Chairman David Wu

Q1.  Do you believe that the National Fire Academy (NFA) training 
activities have an adequate balance between preparedness and response 
for terrorist events versus the myriad other emergency events and 
management issues fire departments must confront? Does the U.S. Fire 
Administration (USFA) have a strong enough all-hazards approach? What 
about the Federal Emergency Management Agency (FEMA)?

A1. Having not had the opportunity to participate in the Academy's 
training, I cannot speak personally to whether its training activities 
are, in practice, adequately balanced. That said, the fire service has 
always utilized an all-hazards approach to preparedness and response. 
For a firefighter, it doesn't matter whether an emergency is natural or 
man-made, or the result of an accident or a terrorist attack. The 
firefighter's response is the same. As an experienced member of the 
fire service, Administrator Cade fully understands the importance of an 
all-hazards approach; the programs and activities of the U.S. Fire 
Administration appropriately reflect this understanding.
    We have been concerned with the priority placed on terrorism 
preparedness and response within the Department of Homeland Security, 
and have been actively involved in efforts to refocus the department on 
all-hazards. In 2006, the IAFF worked closely with the Congress in 
crafting and passing legislation to reform FEMA. We were pleased that 
the final bill enacted into law applied an all-hazards approach to the 
Agency's emergency preparedness and response activities. Since that 
time, we believe the Agency has perceptibly moved in this direction--
the recent positive federal response to the California wildfires is one 
illustration of FEMA's commitment to natural, as well as man-made, 
disasters.

Q2.  You mention in your testimony that other federal agencies involved 
with firefighting activity do not necessarily engage with interest 
groups representing the fire service community. Do you have specific 
examples? What role should USFA take to encourage greater cooperation 
and coordination between federal agencies and the local fire service?

A2. Myriad federal agencies administer programs and provide funding 
that impact the fire service, but unlike USFA, these agencies often 
lack sufficient, accurate knowledge about the fire service and the work 
firefighters do. As a result, the activities and programs of federal 
agencies sometimes complicate the fire services' efforts to serve their 
communities and carry out their mission.
    For example, the Department of Justice administers the Public 
Safety Officer Benefit (PSOB) program to provide death and disability 
benefits to the families of public safety officers killed or injured in 
the line-of-duty. Congress recently amended the program to award 
benefits to the families of officers who suffered a fatal heart attack 
or stroke while involved in a non-routine stressful or strenuous 
physical activity while in the line of duty. DOJ bureaucrats, however, 
denied benefits to certain applicants based on the assumption that the 
emergency activities the deceased officers were undertaking were 
``routine'' for a firefighter. Although in clear violation of 
Congressional intent, DOJ's determinations resulted from a basic lack 
of knowledge about the physical and mental stress placed upon 
firefighters during even ``routine'' emergency activities.
    USFA can help overcome this sort of disconnect by establishing 
relationships with other federal agencies, both within and beyond the 
Department of Homeland Security, to educate such agencies about the 
fire service, as well as act as an advocate for the expertise we can 
bring to bear throughout the Federal Government and its activities.

Q3.  Do USFA public education and fire awareness programs adequately 
address the needs of the populations that career fire departments 
serve, especially those in major metropolitan areas?

A3. USFA does an admirable job of educating citizens about residential 
fire safety, and does pay particular attention to needs which may be 
unique to urban area populations, such as high-rise fire safety and 
arson awareness. USFA does an especially good job in school outreach 
and educating elementary school children about basic fire safety.
    The frequent presence of immigrants and individuals who speak 
languages other than English present unique fire safety challenges to 
large urban areas. Cultural differences, language barriers, and a lack 
of familiarity with local emergency services provide unique challenges 
which may impede fire-safe practices within these communities. USFA's 
fire safety efforts should provide an increased emphasis on these 
unique populations.

Questions submitted by Representative Phil Gingrey

Q1.  In your testimony you advocated for a greater emphasis on 
Emergency Medical Service needs by USFA and noted that fire departments 
provide EMS in nearly all major cities. What is the prevalence of fire-
based EMS in smaller towns and rural communities? For those areas 
served by non-fire-based EMS, is USFA a credible and appropriate agency 
to provide training management and support?

A1. There is a correlation between community size and the prevalence of 
fire-based EMS. According to the National Fire Protection Association 
(NFPA), 100 percent of fire departments serving cities of 500,000 or 
more provide EMS, 98 percent and 95 percent of departments serve cities 
of 250,000 to 499,999, and 100,000 to 249,999, respectively. On the 
other end of the spectrum, 52 percent of fire departments serving 
communities with a population of 2,500 or less provide EMS.
    As this data demonstrates, fire-based EMS is the prevalent delivery 
system for pre-hospital 911 emergency medical response in the majority 
of American communities. This fact alone requires that USFA fully 
integrate EMS training and preparedness into its mission. However, even 
for communities that officially designate some entity other than the 
fire service as the primary EMS provider, under most true emergency 
conditions, firefighters still deliver on-scene health care. In such 
communities, it is critically important that local firefighters be 
properly trained and equipped to provide on-scene patient care for the 
survivors of fires, accidents, and other incidents to which 
firefighters respond. By providing training and support to these 
communities, USFA can help ensure the delivery of timely and effective 
patient care in an emergency.

Q2.  You also report in your testimony that hazardous materials 
incidents have skyrocketed in number and danger over the past few 
years. Can you put this into perspective for the Committee? What are 
the unique implications of hazmat incidents for training and equipping 
firefighters?

A2. According to the National Fire Protection Association, fire 
department calls related to hazardous materials emergency response have 
more than doubled in the past twenty years, from 171,500 hazmat calls 
in 1986 to 375,000 such calls in 2005. As the number of hazardous 
materials incidents have increased, so too has the complexity and 
dangerous nature of responding to such incidents multiplied. This is 
due to the increased transportation of hazardous materials, the growing 
prevalence of chemicals in our daily lives, and the very real threat 
posed by terrorism, whether chemical, biological, radiological, 
nuclear, or explosive.
    These factors contribute to the threat of hazmat incidents in every 
geographical region and communities of all sizes. As a result, it is 
critically important that all firefighters, whether professional or 
volunteer, are adequately trained and equipped to respond to potential 
incidents.
    Unfortunately, in too many communities responder training falls far 
short of what is necessary to ensure a safe and efficient response. In 
their Second Needs Assessment of the U.S. Fire Service, NFPA estimates 
that 38 percent of firefighters whose duties involve hazmat response 
lack formal training of any kind.
    Furthermore, only 29 percent of fire departments report all 
personnel to be trained in hazmat response at some level. And for those 
firefighters who are trained, the level of training provided is often 
insufficient to their duties and responsibilities. The minimum level of 
training needed by first responders is ``operations'' level. Operations 
training is specifically designed for the initial emergency response 
which occurs within minutes of the incident being reported. These 
emergency responders stabilize the situation and prepare the emergency 
scene for the hazmat specialists who will undertake direct mitigation. 
They are trained to contain the release from a safe distance, keep it 
from spreading and prevent exposures.
    All firefighters should also be required to undergo annual 
refresher training to provide responders an opportunity to brush up on 
perhaps seldom-used knowledge and skills, and familiarize responders 
with new technology which may be used or encountered during a response.
    A lack of sufficient staff and appropriate equipment also poses a 
major challenge to most communities facing a hazmat incident. Some 
jurisdictions lack even the most basic equipment for hazardous 
materials response, such as turn-out gear and self-contained breathing 
apparatus, much less the more advanced equipment required for 
radiological and nuclear emergency response. Furthermore, two-thirds of 
the Nation's fire departments lack sufficient personnel to carry out a 
safe and effective response to a structural fire, much less an incident 
involving hazardous materials. Meeting these basic needs of our 
nation's fire departments is necessary to protect the public from 
everyday incidents as well as incidents involving hazardous materials.

                   Answers to Post-Hearing Questions

Responses by Gordon Henderson, Deputy Chief of Operations, Rome-Floyd 
        County Fire Department; Past President of the Georgia State 
        Firefighters Association, National Volunteer Fire Council

Questions submitted by Chairman David Wu

Q1.  Do you believe that the National Fire Academy (NFA) training 
activities have an adequate balance between preparedness and response 
for terrorist events versus the myriad other emergency events and 
management issues fire departments must confront? Does the U.S. Fire 
Administration (USFA) have a strong enough all-hazards approach? What 
about the Federal Emergency Management Agency (FEMA)?

A1. Although there has been more of an emphasis placed on preparedness 
and response to terrorist events in recent years, generally the 
National Fire Academy (NFA) does maintain a good balance of offering 
courses that address the broad range of issues that firefighters must 
be prepared to deal with. However, the NVFC is concerned that in recent 
years NFA has not been provided the resources to update course 
curriculum for many of their core non-terrorism specific courses.
    The NVFC believes that the United States Fire Administration's 
(USFA's) focus is on all hazards. The NVFC believes that Congress could 
strengthen USFA's ability to focus on all hazards by passing a 
reauthorization that specifies that emergency medical services, 
wildland fire response, and hazardous materials response are core 
components of USFA's mission.
    When the Federal Emergency Management Agency (FEMA) was merged into 
the Department of Homeland Security (DHS), the top priority within DHS 
was preparing for and responding to terrorist events. This focus 
filtered into FEMA even as pieces of FEMA were transferred to different 
directorates within DHS. Since Hurricane Katrina, there has been 
greater recognition of the importance of an all-hazards approach. With 
the appointment of R. David Paulison as FEMA Administrator and passage 
of legislation reorganizing FEMA in the 2006 DHS Appropriations Act, 
FEMA has improved dramatically in terms of its commitment to addressing 
all-hazards.

Q2.  You mention in your testimony that USFA has worked to condense 
classes and shorten the amount of time a volunteer firefighter would 
have to spend in the classroom. You also mention that USFA recently 
partnered with the National Volunteer Fire Council (NVFC) to develop 
the ``Recruitment and Retention Guide for the Volunteer Emergency 
Services.'' Have these efforts had an impact on recruitment and 
retention for the volunteer fire service? What else could USFA do to 
address the recruitment and retention problems faced by volunteer 
departments across the country?

A2. Through condensed courses, the Volunteer Incentive Program (VIP) 
courses make it possible for more volunteers to receive better 
training. Increased training demands are one of the major challenges 
facing communities in retaining and recruiting volunteer firefighters, 
so there is no doubt that VIP helps in this regard, but it is not a 
specific retention and recruitment tool.
    The Retention and Recruitment Guide for the Volunteer Emergency 
Services identifies a wide range of recruitment and retention 
challenges facing communities and recommends strategies for dealing 
with each one. In the NVFC's last cooperative agreement with USFA there 
was funding to deliver recruitment and retention training based on the 
guide. Unfortunately, there was far more demand for training than funds 
to provide it. Additional funding to provide recruitment and retention 
training would be useful.

Question submitted by Representative Phil Gingrey

Q1.  You made the suggestion in your testimony that USFA seek to link 
the NFIRS database with the National Emergency Medical Services 
Information System (NEMSIS), could you explain what the benefits of 
such a linkage would be?

A1. The fire service provides 60 percent of emergency medical service 
in this country. The National Fire Incident Reporting System (NFIRS) 
captures data from fire department responses, including fire service-
based EMS responses. The National Emergency Medical Services 
Information System (NEMSIS) captures data from EMS responses, whether 
or not they are fire service-based. The NVFC is not suggesting that 
NFIRS and NEMSIS be combined into one single data collection system. 
The NVFC does feel that it is important that USFA, which administers 
NFIRS, and the National Highway Transportation Safety Administration 
(NHTSA), which administers NEMSIS, should work together to ensure that 
the data that is being collected is as accurate and useful as possible, 
as well as to reduce potential duplication of activities.

                   Answers to Post-Hearing Questions

Responses by John R. Hall, Jr., Assistant Vice President, Fire Analysis 
        and Research, National Fire Protection Association

Questions submitted by Chairman David Wu

Q1.  Are the U.S. Fire Administration (USFA), the National Institute of 
Standards and Technology (NIST), and other fire research agencies, 
sufficiently engaged in technology transfer activities that accelerate 
the adoption of research development and findings into practice? Can 
more be done to lower the cost of many fire detection and suppression 
technologies?

A1. (a) The USFA and NIST pay considerable attention to effective, 
multi-channel approaches to technology transfer. In my personal, recent 
experience, I have observed or worked with both agencies as they (i) 
provide presentations to diverse audiences of potential users, with 
content tailored to the needs and interests of each audience; (ii) 
provide easy Internet access to both findings and supporting data, in a 
form that allows users to extend or review their analysis; (iii) 
participate in national and international standards development 
activities to convert new findings into standardized best practices; 
(iv) set up as vendors of new software and new research at conferences 
of kindred groups and potential users; (v) respond in detail to 
questions from the field, providing extensive `service after the sale' 
for research results; and (vi) provide articles, ready-to-use 
presentations, training materials, and other user-friendly versions of 
new findings, all provided without copyright limitations on potential 
users. At the same time, both agencies are very aware of the limits of 
law and propriety regarding the extension of their own activities into 
the development of commercial products for sale.
    (b) Most USFA and NIST research on fire detection and suppression 
technologies has focused on potentials for improvement in performance 
or reliability. I do not believe cost is considered a significant 
obstacle to the use of fire detection technologies. Rather, public 
expectations of very low cost has been an obstacle to the creation of 
public demand for new features that would improve performance or 
reliability. Cost has been perceived as an obstacle for use of fire 
suppression technologies, notably fire sprinklers. Both USFA and NIST 
have conducted research on low-cost alternatives, including single-
sprinkler concepts for the kitchen that will use piped water already 
serving that room. I do not believe this approach can yet be considered 
proven; it seems to reduce benefits as much or more than it reduces 
costs, and it introduces potential modes of failure (i.e., fire 
spreading to unsprinklered areas before sprinkler activation) that 
raise concerns about its likely field effectiveness and reliability. 
Nevertheless, it illustrates that both USFA and NIST are aware of 
system cost as a barrier to wider use and have proven themselves 
willing to pursue research on any promising approach that might lower 
costs while preserving effectiveness.

Q2.  You mention in your testimony that USFA has shown leadership in 
setting priorities for fire research and in putting high quality 
projects in motion. Given that USFA has limited funding for research, 
are there broad areas of research that are neglected due to lack of 
funding?

A2. In past years when funding levels were higher, the USFA was able to 
pursue a substantial research agenda in such areas as human behavior 
and fire safety educational methods, management methods and operational 
rules for the fire service. In a number of areas (e.g., fire code 
inspection effectiveness), we are still using results from USFA-funded 
projects that are decades old. Also, USFA funding restrictions have 
meant reduction, delay, or elimination of promising NIST projects on 
fire service health and safety equipment performance and on active fire 
protection systems. In all of these areas, the USFA--directly or 
indirectly through partners like NIST--has produced a steady flow of 
highly professional and highly useful work, but there is so much more 
they could do with funding more in line with past years.

Q3.  You say in your testimony that USFA can ``improve the climate in 
which decisions about adoption [of voluntary codes and standards] are 
made by forcefully and visibly supporting the voluntary consensus codes 
and standards process and by putting. . . the weight of its own 
reputation and leadership in support of compliance with national fire 
service standards.'' How can USFA take a more visible role in this 
process and what could they be doing specifically to encourage State 
and local fire agencies to adopt these standards?

A3. The context for my testimony was my frustration that so many 
otherwise knowledgeable members of the fire community believe that any 
standard or code not issued by government officials must be an industry 
standard and so must reflect the values and concerns of an affected 
industry. NFPA's consensus process is designed to produce a true 
consensus among all affected parties regarding desired levels of safety 
and preferred methods to achieve such safety. The USFA can help by (i) 
taking every opportunity to state its own belief in the value of true 
consensus and the quality of codes and standards produced in accordance 
with such principles, (ii) treating standards developing organizations 
as the first and best place to target for technology transfer, and 
(iii) recommending and if possible requiring compliance with applicable 
consensus standards as a condition for participation in programs of the 
USFA.

Q4.  In your written testimony you note that rural populations have one 
of the highest fire fatality rates in the U.S. Why is this? Have USFA 
or other organizations developed programs to combat these high numbers?

A4. We have known of the unusually high fire fatality rates in U.S. 
rural areas for at least three decades. Past analyses have noted that 
rural communities and inner cities have the highest rates of poverty 
and of other high-risk characteristics, as well as having the highest 
fire fatality rates by size of community or neighborhood. NFPA recently 
completed a major study, under a grant from the USFA, to develop a more 
detailed understanding, not only of the overall rural fire problem, but 
also of the differences between the fire problems of such distinct 
areas as the rural Southeast, the Native American and migrant worker 
areas of the rural West, and the rural Northeast and Midwest regions. 
At this writing, NFPA and the USFA are completing the final edits to 
the results of that project, and it should be posted on the USFA 
website soon. It includes an identification of educational messaging 
tailored to rural communities, a guide for educators tailored to the 
needs of those working in rural communities, and an identification of 
potential organizational partners who have shown interest in reducing 
fire losses in rural communities or have demonstrated skill in 
delivering effective public programs in such settings. Note also that 
this is not the first study of the rural fire problem conducted by the 
USFA or under its auspices.

Q5.  Is USFA involved in any research to evaluate optimal fire and 
emergency service asset management and distribution to achieve the 
greatest level of community protection, especially in disaster 
scenarios that strain resources?

A5. I believe this question is directed toward such program areas as 
the design and implementation of written agreements and related plans 
to permit large numbers of communities to pool their resources for 
major incidents, conduct integrated incident command at such incidents, 
and achieve smaller efficiencies through mutual aid and reciprocal 
response based on distance to appropriate resources rather than 
jurisdictional boundaries. The USFA has on occasion conducted research 
to identify best practices among fire departments and to facilitate the 
exchange of information on model programs or actual programs that have 
worked well. Much of the detailed work in written agreements and plans, 
though, is facilitated by the USFA's parent agency of FEMA or kindred 
agencies like the U.S. Forest Service. I do not believe the USFA--or 
any other entity--is attempting to define or identify optimal 
arrangements. In my experience, optimization analysis on these subjects 
tends to require so much simplification of the options and conditions 
that no one quite trusts the answers. However, the spirit of 
optimization can be and is achieved through the use of methods that 
identify, implement and build on continuous improvements.

Questions submitted by Representative Phil Gingrey

Q1.  You state in your testimony that needs assessments have not 
documented a significant improvement in staffing or training needs, 
stating that the amounts spent are simply nowhere near those necessary 
to significantly impact these areas. Accepting this, has NFPA performed 
any research to try to quantify the impact of training programs when 
they are available?

A1. NFPA has concentrated on building quality and impact into the 
programs from the beginning, through its suite of professional 
qualifications standards. Most training programs fall under the 
umbrella of an educational institution such as a State fire academy 
with individual training results evaluated by a separate certification 
body. These are proven methods to assure quality in a training program. 
NFPA has not conducted longitudinal studies to determine how much skill 
and knowledge is retained over the short- or long-term for different 
training programs. This might be a useful area for a multi-year USFA-
funded project.

Q2.  Has the NFPA needs assessment documented the use of advanced 
medical training by firefighters outside of fire-based EMS? How often 
are firefighters called on to perform medical interventions in the 
absence of or prior to the arrival of EMS technicians? Has the USFA 
assessed the degree of duplication between medical interventions by 
firefighters versus those of fully trained EMS personnel?

A2. As of 2005, local fire departments responded to 23.3 million 
emergency calls, and 14.4 million of those were for medical aid. The 
second needs assessment found that in the same year, 67 percent of U.S. 
fire departments provided emergency medical service, including all 
departments serving communities of at least 250,000 population. The 
percentage of departments offering the service has been steadily 
increasing for many years, and both the number of EMS calls and the EMS 
share of total calls have also been steadily increasing. For 
departments that provide EMS service, 47 percent reported that all 
their personnel providing the service had received formal training, 
while 27 percent reported most personnel trained, 26 percent reported 
some personnel trained, and zero percent reported no personnel trained. 
As for certification, 98 percent of departments report at least some 
personnel certified to at least the First Responder level, 87 percent 
report at least some personnel certified to at least the Basic Life 
Support level; 50 percent report at least some personnel certified to 
at least the Advanced Life Support level; and 18 percent report at 
least some personnel certified to at least the Paramedic level.
    I am unaware of any database that would identify the involvement of 
other parties in medical aid at incidents where fire departments have 
provided service, let alone any data that would indicate the roles 
played by each party or the sequence in which each party became 
involved. I also am not aware of any data on how often more fully 
trained or certified personnel might have been available to assist on 
incidents in which fire departments provided service, how quickly those 
other personnel might have been able to respond, or any other incident 
characteristics that might indicate duplication. Any such data would 
also have to relate the roles played by EMS providers to the roles 
played by personnel in receiving hospitals or other medical facilities.
    My sense, unsupported by any hard data, is that fire departments 
have increased their provision of EMS service because in most 
communities they are able to respond faster than anyone else, and my 
understanding is that time is the most critical factor in successful 
outcomes. I would not want to assume, especially in the absence of 
data, that any fire department is delivering EMS in a community where 
more trained or more certified personnel are available and able to 
respond as quickly. But the direct answer to your question is that I do 
not know of anyone, including the USFA, who has collected specific data 
on these points.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
